<html>
<title> - TERRORISM AND INSTABILITY IN SUB-SAHARAN AFRICA</title>
<body><pre>[Senate Hearing 114-766]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-766

                    TERRORISM AND INSTABILITY  
                    IN SUB-SAHARAN AFRICA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                   INSERT DATE HERE deg.MAY 10, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                   Available via the World Wide Web:
                         http://www.govinfo.gov  
                         
                         
                         
                         
                         

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-581 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Thomas-Greenfield, Hon. Linda, Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State, Washington, DC......     4

Etim, Hon. Linda, Assistant Administrator for Africa, U.S. Agency 
  for International Development, Washington, DC..................     6

Siberell, Justin, Acting Coordinator for Counterterrorism, Bureau 
  of Counterterrorism, U.S. Department of State, Washington, DC..     8

Abdoulaye Mar Dieye, Assistant Administrator and Director, 
  Regional Bureau for Africa, United Nations Development Program, 
  New York, NY...................................................    32
Fomunyoh, Dr. Christopher, Senior Associate and Regional Director 
  for Central and West Africa, National Democratic Institute, 
  Washington, DC.................................................    34


              Additional Material Submitted for the Record
                     Witnesses' Prepared Statements

Joint Prepared Statement Submitted by Hon. Linda Thomas-
  Greenfield and Justin Siberell.................................    44

Prepared Statement of Hon. Linda Etim............................    50

Prepared Statement of Abdoulaye Mar Dieye........................    54

Prepared Statement of Christopher Fomunyoh, Ph.D.................    56

                  Additional Questions for the Record

Responses to Questions for the Record Submitted to Hon. Linda 
  Thomas-Greenfield and Justin Siberell by Senator Corker........    60

Responses to Questions for the Record Submitted to Hon. Linda 
  Thomas-Greenfield by Senator Cardin............................    68

Responses to Questions for the Record Submitted to Hon. Linda 
  Etim by Senator Cardin.........................................    75

Responses to Questions for the Record Submitted to Justin 
  Seberell by Senator Cardin.....................................    77

Responses to Questions for the Record Submitted to Hon. Linda 
  Thomas-Greenfield by Senator Perdue............................    82

Responses to Questions for the Record Submitted to Hon. Linda 
  Etim by Senator Perdue.........................................    88

Responses to Questions for the Record Submitted to Justin 
  Siberell by Senator Perdue.....................................    93




                             (iii)        
 
                       TERRORISM AND INSTABILITY 
                         IN SUB-SAHARAN AFRICA

                              ----------                              


                         TUESDAY, MAY 10, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Flake, 
Gardner, Isakson, Cardin, Shaheen, Coons, Murphy, Kaine, and 
Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I call the Senate Foreign Relations Committee 
to order.
    We thank our witnesses for being here and look forward to 
your testimony.
    As much of the world concentrates on the ISIS threat and 
instability in the Middle East, the committee takes this 
opportunity to consider efforts by the United States and other 
partners to counter extremism in the Sub-Saharan Africa area.
    Long-term development has been the norm across much of 
Africa, including here in our committee with the recent signing 
of the Power Africa legislation, which we are all very proud of 
and appreciate the way the administration has led on that 
effort also, that we hope will bring investment to a key sector 
for economic growth and opportunity. Whereas in the Middle East 
we have been reacting to abhorrent state and terrorist violence 
and the uprooting of millions of people, in Africa we have had 
the opportunity of years of influence through diplomacy and 
development and partnerships to improve outcomes.
    However, violent extremism is not a new phenomenon in 
Africa. Three sub-regions have exploded with terrorist 
elements, some decades old. Al Shabaab and its predecessors 
have long troubled Somalia and its neighbors in east Africa, 
including through Al Qaeda attacks on American embassies in 
1998. Al Qaeda in the Islamic Maghreb has evolved since 9/11 
into a vicious regional threat across the Sahel and beyond, and 
they have fought the Algerian Government since 1991 in one form 
or another. Boko Haram, which has declared allegiance to ISIS, 
will stop at nothing to carry out its grotesque attacks against 
civilians and communities across Nigeria and the Lake Chad 
Basin.
    All three of these conflicts have drawn international 
intervention and resources because the terrorist elements 
involved are seen as aspiring to the kind of international 
terrorism perpetrated by Al Qaeda and ISIS. And some are 
beginning to show increased sophistication in attacks.
    Beyond these three conflict and terrorist-ridden regions 
are several complex crises that breed on instability brought on 
by many factors, the most egregious of which appears to be the 
complete lack of government responsibility for its citizens 
through corruption and greed rather than any lack of resources. 
This includes most recently South Sudan and the Central African 
Republic and, of course, the decades-long atrocities in the 
Democratic Republic of Congo, all three of which have cost 
billions of dollars to mitigate through massive peacekeeping 
operations.
    While the world seeks ways to address the direct threat of 
emergent terrorist groups in a reaction mode, we have had a 
chance--and still do--to improve the prospects for many 
countries in Africa by leveraging long-term relationships and 
development.
    I am also concerned that there are efforts to gain traction 
in destabilizing other countries we consider relatively stable 
now.
    I look forward to hearing from our witnesses today, the 
lessons that they have drawn from their direct engagement in 
these regions, and I hope to better understand what the 
underlying factors are that contribute to the terrorist threat 
in the region and what U.S. efforts have been made to build a 
better response across the whole of government and with 
partners in the international community.
    With that, I will turn to our distinguished ranking member, 
Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Corker, thank you very much 
for convening this hearing on terrorism and instability in Sub-
Saharan Africa.
    I agree with your assessments. The amount of escalating 
violence in this region is a major concern and requires the 
attention of this committee, of the United States Senate, and 
the American people.
    I also agree with you that there are multiple reasons for 
the instability and crisis in this region, but that there is a 
common theme of poor governance. And that is an issue that 
provides a vacuum and that vacuum is usually filled with 
instability and recruitment of extremists.
    So I very much agree with you this is an area of growing 
concern in regards to the amount of violence that is taking 
place and one that requires us to put a focus on the governance 
structures in the countries of Sub-Saharan Africa. And it is 
true. It is from west Africa to the Lake Chad Basin to east 
Africa.
    In west Africa, circumstances in Mali, we find the 
marginalization of ethnic groups that have become now a home 
for at least five active terrorist groups, a breeding ground 
for terrorist recruitment. The U.N. mission in Mali is the 
deadliest peacekeeping mission that we have anywhere. That 
should be a sign that things need to change in regards to Mali. 
We have the parties coming forward for a peace agreement. Well, 
we need to see immediate attention to that and see whether in 
fact that peace agreement can be implemented.
    In the Lake Chad Basin, Nigeria is of particular concern. 
Boko Haram is linked--has pledged its allegiance to ISIS. We 
will see how that alliance, in fact, takes place or not. But we 
do know it is extremely deadly. The number of deaths have 
escalated dramatically, 15,000 since 2009, 2.4 million 
displaced people, 5.6 million in need of food. And those 
numbers are shocking in their size. I think the world became 
engaged in this when 200 school girls were kidnapped, and yet 
their fate today is still not known.
    In east Africa, in Somalia, we have to pay careful 
attention. We know that. And in all of these regions, there is 
a common denominator of lack of good governance. This year in 
Somalia is said to be a critical one for the consolidation of 
the Somali state. A constitutional referendum and completion of 
the federal system are supposed to occur. Absent the 
establishment of a fully functioning, transparent, inclusive 
government, it will be difficult if not impossible to eliminate 
the threat posed by Al Shabaab.
    While the threats have been clearly identified, what is not 
as evident is whether the United States is consistently 
applying a comprehensive approach to countering violent 
extremism in Africa, one which adequately addresses key drivers 
of radicalization such as political and economic 
marginalization, corruption, and poor governance and whether 
steps have been taken to build the type of capacity in African 
countries to counter violent extremist activities.
    I hope today's hearing will help us all better understand 
the package of programs and activities we are bringing to bear 
to combat terrorism and violent extremism in Africa and what, 
if any, efforts the administration is making to fully integrate 
principles of democracy, anti-corruption, and good governance 
into our approach. Security assistance alone will not win the 
battle.
    Mr. Chairman, let me quote from Deputy Secretary of State 
Tony Blinken who recently said that countering violent 
extremism is, ``A fight that over time will be won in the 
classrooms and houses of worship, on social media, in community 
centers, at sites of cultural heritage, on the sports fields, 
and within the homes of the people in every corner of the 
planet.'' Given how significantly underfunded democracy and 
governance programs in Africa have been over the past several 
years, I do not see how we could be reaching that threat where 
it is. But there are two steps we can take right away to do so.
    First is a point I have been making to the administration 
for nearly a year. It is critical that we increase investment 
in democracy and governance, such as are commensurate with our 
security assistance funding. In fiscal year 2015, the last year 
for which figures are available, we allocated approximately $1 
billion for security assistance and only $170 million for 
democracy and governance. I hope that as you discuss 
allocations for fiscal year 2016 with the appropriators, you 
will indicate you will meet the $312 million for democracy and 
governance in Africa called for in the omnibus report language. 
And I hope we have a chance to talk about that.
    Secondly, the United States must signal to our partners 
that our support does not come at the expense of respect for 
democracy and human rights. I fear we have sent the wrong 
signal to the Government of Ethiopia about our priorities in 
this area by failing to support human rights and democracy 
activities in that country. To cite just one example, it is 
critical that we take the prime minister up on his offer from 
last July to work with us on improving democracy in Ethiopia. 
In addition, we should be sure that our security assistance 
includes support for military and civilian institutions that 
support accountability for counterterrorism partner countries 
with weak democracy and human rights records.
    So, Mr. Chairman, I hope that during the course of this 
hearing we are going to hear from our administration officials 
exactly what is our coordinated strategy. Yes, we want to fight 
extremism. We have to do that. We have to have the military 
security assistance, but if you do not have in place the type 
of governance that represents the concerns of the population, 
there will be instability and a void on which extremists will 
capitalize.
    And I look forward to our discussion.
    The Chairman. Well, thank you very much for those comments.
    And again, we thank our witnesses. I am going to introduce 
all three of you, and then if you would just speak in the order 
that you are introduced, I would appreciate it.
    Our first witness is Linda Thomas-Greenfield, Assistant 
Secretary for African Affairs at the Department of State. 
Welcome. Our second witness today is Linda Etim, Assistant 
Administrator for Africa, USAID. Thank you for being here. Our 
third witness is Justin Siberell, Acting Coordinator for 
Counterterrorism at the Department of State. We want to thank 
you all for being here, for your service to our country.
    And if you could summarize your comments in about 5 
minutes, that would be great. Without objection, your written 
testimony will be entered into the record. So thank you.

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY, 
     BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Ambassador Thomas-Greenfield. Mr. Chairman, Ranking Member 
Cardin, and distinguished members of the committee, let me 
thank you for the opportunity to appear before you today. I 
have a very brief oral statement, and I provided a more 
comprehensive written statement for the record.
    Africa is home to the world's youngest and fastest-growing 
population. It presents significant opportunities for 
transformation and growth, as well as many challenges. The 
overall trends in Sub-Saharan Africa point to accelerated 
democratization, development, and economic opportunity. 
Although Africa remains the world's least developed continent, 
average real per capita income increased steadily over the last 
decade and a half.
    However, in spite of these positive trends, instability and 
conflict persist in parts of Africa. This instability has a 
direct bearing on U.S. national interests and those of our 
closest allies. Terrorists, narcotics traffickers, and a range 
of transnational criminal organizations exploit state fragility 
and conflict. Conflict destabilizes states and borders. It 
stifles economic growth, and it robs young Africans of the 
opportunity for education and a better life.
    While attacks in Brussels and Paris and even in San 
Bernardino offer tragic reminders that terrorism can happen 
anywhere, Africa has critical vulnerabilities and capacity gaps 
that must be addressed. Therefore, we are working with our 
African partners to increase their abilities to prevent and 
respond to such threats and to address the conditions that 
perpetrate the cycles of instability and conflict across the 
continent.
    Addressing instability in Africa requires a comprehensive 
and a balanced approach, as you have stated. We cannot focus 
solely on the security aspects of the solution. Military, 
intelligence, and law enforcement tools are vital to defend a 
range of threats, but they cannot replace robust diplomacy and 
the hard work required to strengthen democratic institutions, 
to stimulate economic growth, trade and investment, and promote 
development, education and broad-based economic opportunity.
    The State Department, USAID, the Department of Defense, and 
several other agencies offer unique expertise and capabilities, 
and it is essential that each organization has the tools to 
contribute to our common objectives of building immediate and 
long-term stability in Africa.
    As you stated, Senator Cardin, civility begins with 
building strong and stable democratic processes, addressing 
individual and collective grievances created by lack of 
governmental accountability, corruption, denial of basic human 
rights, and feelings of political inclusion is not just the 
right thing for governments and civic leaders to do. It is a 
security imperative. Civility in Africa ultimately requires 
leaders with the will and the capacity to respond to the needs 
and aspirations of their people.
    We continue to stay focused on supporting free, fair, and 
transparent elections that are inclusive and representative. We 
have seen major electoral successes during the past several 
years, but there have been some setbacks as well.
    However, democratic governance is not only about elections. 
National and local governments must deliver essential services 
for their people. Civil society and a free press must be 
empowered. Independent judiciaries must enforce rule of law, 
and professional security forces must respect human rights.
    President Obama also has highlighted that the most urgent 
task facing Africa today and for decades ahead is to create 
opportunity for the next generation. Young people constitute a 
majority of Africa's population and stand to gain or lose 
tremendously based on the continent's social, political, and 
economic trajectory. They also represent the next generation of 
African leaders. They must be empowered to contribute to their 
country's future so that they are not enticed by extremist 
ideologies.
    President Obama has warned about the vulnerabilities, and I 
quote, ``The vulnerabilities of people entirely trapped in 
impoverished communities where there is no order and no path 
for advancement, where there are no educational opportunities, 
where there are no ways to support families and no escapes from 
justice and the humiliation of corruption that feeds 
instability and disorder and makes these communities rife for 
extremist recruitment.''
    We know that groups like Boko Haram, Al Shabaab, Al Qaeda, 
and associated groups often ensnare their foot soldiers by 
simply offering cash or promises of financial reward for 
themselves and for their families. It is vital that 
governments, sometimes in partnership with the private sector, 
use every available resource to offer educational and 
vocational opportunities that provide alternatives to these 
lethal traps.
    We also recognize that strengthening the security and 
justice institutions of our African partners is vital for long-
term stability on the continent. As a consequence, we are 
partnering with African countries, with organizations, and with 
people to develop capable, professional security services, 
improved security sector governance, and enhanced regional 
coordination for more effective responses.
    Once again, I thank you for the opportunity to speak to 
you, and I look forward to your questions.


    [The joint prepared statement submitted by Assistant 
Secretary Thomas-Greenfield and Acting Coordinator Justin 
Siberell is located at the end of this hearing transcript.]


    The Chairman. Thank you very much.

   STATEMENT OF HON. LINDA ETIM, ASSISTANT ADMINISTRATOR FOR 
AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, 
                              D.C.

    Ms. Etim. Good morning, Chairman Corker. Good morning, 
Ranking Member Cardin and all the members of the committee. And 
I also thank you for this opportunity to discuss USAID's work 
on this very important topic.
    Throughout Africa, U.S. national interests and our efforts 
to end extreme poverty, to promote resilient democratic 
societies, and to increase economic opportunities for people 
are increasingly threatened by instability and the spread of 
violent extremism.
    We believe, as this committee has already stated that 
development programming can be a powerful tool to prevent 
conflict and instability. Conflict and instability impede 
development. They slow investment. They prevent children from 
attending schools, as we have seen in northern Nigeria. They 
place additional burdens on already fragile health care 
systems, as we have seen in the Ebola response case. And they 
undermine political systems.
    We also know that our activities are designed to reduce 
opportunities for extremists to exploit social injustice, 
economic inequality, the lack of political integration, and we 
need to actually make sure that these activities help to 
advance development programming throughout the countries.
    Today I will try to discuss how our programs, which are 
based on strategic thinking and evidence-based, results-
oriented approaches, seek to prevent violent extremism in 
Africa. But I will also touch on the importance of USAID's 
governance programs, which seek to reduce social inequalities, 
corruption, and institutional weaknesses that can often foster 
instability.
    When we look at the drivers, experience has taught us that 
responding to military conflicts that erupt in fragile states 
by deploying large peacekeeping missions or large-scale and 
often far too long-term humanitarian responses is very costly. 
For that reason, whenever USAID designs a program or a country 
strategy, we use our analytic capabilities and knowledge of the 
local context to reduce the drivers of fragility. These 
assessments consider the push factors that drive support for 
violent extremism such as social fragmentation, a sense of 
injustice, perceptions of marginalization, and distrust of 
government. We also try to address the pull factors that can 
attract those who are vulnerable to violent extremism. This 
analysis helps to shape our interventions to promote good 
governance and rule of law and respect for human rights, as 
well as sustainable, inclusive development.
    We do not have one single answer as to what causes violent 
extremism. A decade of analysis has shown that there is a 
strong correlation between state fragility, feelings of 
injustice and marginalization as being drivers of violent 
extremism. In 2011, USAID issued a policy which we titled ``The 
Development Response to Violent Extremism and Insurgency.'' 
This policy recognized development's unique role in mitigating 
the drivers of extremism and advancing U.S. national security.
    USAID activities, therefore, are designed to mitigate these 
drivers by increasing resiliency at all levels. At the 
individual level, we target marginalized communities, 
particularly youth, through employment outreach programs, 
vocational training skills, and community development 
activities. At the local level, we focus on social cohesion 
activities, peace committees to build stronger, more resilient 
communities. At the national level, USAID has an important role 
to play in strengthening government institutions and their 
ability to deliver basic services, but also to encourage 
inclusion and better transparency.
    Youth are a key demographic in our programming, and while 
there is no one profile of what at-risk youth look like, 
unemployed youth who have migrated to urban and slum areas who 
are university graduates or who have no expectations and have 
lived through or participated in conflict can be at the 
greatest risk. Therefore, our programming focuses on this 
important demographic.
    In Kenya, for example, 75 percent of the population is 
under 30 years of age. Through our Generation Kenya program, we 
offer targeted training to at-risk youth populations, closing 
the gap between young people who are out of work and employers 
who are short of employees with skills. Generation Kenya plans 
to place more than 50,000 young people in stable careers by 
2020. Going forward, USAID will expand this programming into 
violent extremism hotspots working hand in hand with 
communities, local and national governments, and the private 
sector to ensure its success.
    In Niger, our Peace Through Development project produces 
and delivers original radio content, which is aimed at 
countering extremist narratives through accurate reporting and 
peace messaging. It reaches over 1.7 million people in 40 of 
the most at-risk communities. We have also directly, through 
this program, engaged nearly 100,000 people through civic 
education, moderate voice promotion, and youth empowerment 
themed events. These programs, we believe, increase citizens' 
engagement with the government and decrease incentives for 
young people to take part in illegal or extremist activities.
    In conclusion, instability is often the product of 
generations of neglect and corruption, and its resolution, 
therefore, will be the product of generations of concerted 
focus, legitimate engagement, and met expectations. Because 
trends in extremism are fluid, we know that we must constantly 
reassess our priorities, our progress, and our policies to 
ensure that our work is actually based on the realities of 
today. Through program assessments, implementation, and 
evaluations, we are learning what works and what does not work. 
We are improving best practices, and we are helping individuals 
and communities address these drivers of instability and 
violent extremism on their own, through the work of our 
missions in the field, and through USAID-supported activities 
and resource centers.
    USAID's commitment is evidence of the number of individuals 
dedicated to this problem set, but we know that we cannot do it 
alone. Sustained engagement with strong partners in the U.S. 
Government through the Departments of State and Defense, 
through the work that your committee is doing here, and with 
donor governments, as well as with our partners in the 
religious communities, local governments, civil society 
organizations, all of these different groups on the ground will 
be key to combating extremism today, and they will be key also 
to securing peace and stability for years to come.
    I thank you, and I look forward to your questions.


    [Ms. Etim's prepared statement is located at the end of 
this hearing transcript.]


    The Chairman. Thank you so much.

     STATEMENT OF JUSTIN SIBERELL, ACTING COORDINATOR FOR 
 COUNTERTERRORISM, BUREAU OF COUNTERTERRORISM, U.S. DEPARTMENT 
                   OF STATE, WASHINGTON, D.C.

    Mr. Siberell. Mr. Chairman, Ranking Member Cardin, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    As outlined in our statement for the record, a number of 
terrorist groups remain active in Sub-Saharan Africa, including 
Al Shabaab, Al Qaeda in the Islamic Maghreb, al-Murabitoun, and 
Boko Haram, also known as Islamic State West Africa Province.
    Regional military forces with United States and 
international assistance have made progress against all of 
these terrorist groups. Terrorist safe havens in Somalia, 
northern Mali, and the Lake Chad Basin have been degraded 
significantly.
    However, in the face of this pressure, these groups have 
shifted to more asymmetric tactics, including attacks against 
soft targets. We have seen this dynamic in west Africa 
recently. Over the recent months, AQIM and Murabitoun have 
carried out a series of attacks against international hotels 
and tourist sites in Mali, Burkina Faso, and Cote d'Ivoire, 
killing scores of people, including an American citizen.
    Similarly in east Africa, we have seen Shabaab become 
increasingly aggressive in pursuing attacks against high-
profile targets in Somalia and across the border in Kenya.
    We are also concerned by the risk that ISIL's presence may 
grow on the continent. As we have seen elsewhere in the world, 
ISIL seeks to co-opt existing terrorist groups, as well as 
local insurgencies and conflicts, to expand its networks and 
advance its agenda. We are watching these dynamics closely. We 
are working with partners to contain and drive back ISIL-
affiliated groups wherever they may emerge.
    The United States is committed to building and sustaining 
partnerships across Africa to counter terrorism and promote 
stability. Partnerships are at the core of our approach, and 
this is reflected in our interagency efforts as well through 
the Partnership for Regional East Africa Counterterrorism, or 
PREACT, and the Trans-Sahara Counterterrorism Partnership, 
TSCTP.
    Mr. Chairman, the United States is providing significant 
support for regional military operations. Through our 
diplomacy, the Department of State continues to encourage 
regional leadership and cooperation to sustain these efforts.
    Military efforts alone are insufficient, however. As we 
deal with the evolving threat environment, the success of our 
counterterrorism efforts in Africa increasingly depends upon 
capable and responsible and responsive civilian partners, 
police, prosecutors, judges, prison officials, and community 
leaders who can help address terrorist challenges within a 
sustainable and rule of law framework that respects human 
rights.
    In this regard, the Department of State is training and 
mentoring law enforcement units for more than 15 African 
countries. We are building their capacity to prevent and 
respond to terrorist incidents, conduct terrorism-related 
investigations, and improve land border and aviation security. 
We are also providing significant assistance for African 
prosecutors and courts to effectively and expeditiously handle 
terrorism cases. We are working to enhance the capacity of 
prisons in Africa to effectively handle terrorist inmates in 
accordance with international human rights standards.
    Mr. Chairman, we greatly appreciate the funding provided by 
the Congress in fiscal year 2016 for the Department's 
Counterterrorism Partnerships Fund. This funding will enable us 
to expand our assistance for law enforcement and justice sector 
efforts in key African countries.
    At the same time, the Department and USAID are increasing 
our focus on preventing the spread of violent extremism in the 
first place, to stop the recruitment, radicalization, and 
mobilization of people, especially young people, to engage in 
terrorist activities. We are expanding engagement with African 
partners to better understand the drivers of violent extremism 
in order to design effective responses. This includes promoting 
greater trust and partnership between communities and law 
enforcement.
    The President's fiscal year 2017 budget request includes 
increased resources for countering violent extremism programs, 
including an additional $59 million as part of our overall 
request under the Counterterrorism Partnerships Fund. These 
resources would enable us to expand programs in Africa to 
engage communities and youth susceptible to violent extremist 
recruitment.
    Mr. Chairman, there is no single solution to defeat 
terrorist groups and promote stability in Africa. The 
challenges are significant, but we believe we have committed 
partners in Africa who are making progress. We believe we will 
be most effective in the long run with a comprehensive approach 
that promotes regional cooperation, the rule of law, and good 
governance. We continue to look for ways to enhance this 
approach, and we appreciate the strong support of Congress for 
these efforts. Thank you.
    The Chairman. Thank you all.
    Let me just start by setting context here. If you look at 
the regions that we are discussing today and you look at the 
numbers of deaths, displacements, the scale of what is 
happening in these three regions and other places throughout 
Africa really over the course of time is as large as the scale 
of terrorist activities in the Middle East. Is that correct?
    Ambassador Thomas-Greenfield. I would say so particularly 
if we look at the case of Boko Haram. The number of people who 
have been killed and affected by Boko Haram are as large as, if 
not larger than, the number of people who have been killed by 
ISIL in the past year. So there is a devastating impact and it 
is reflected in the numbers of people killed and impacted by 
terrorism in Africa.
    The Chairman. And no disagreement from the other witnesses.
    Mr. Siberell. No.
    The Chairman. Let me ask you this. Obviously, there is 
tremendous focus on the Middle East. We have had a lot of 
hearings here, and most of us, on the other hand, have traveled 
throughout Africa and the Sahel and seen the tremendous threat, 
if you will, to stability there. Why do you think the world 
focus is more so on areas like the Middle East and less so on 
areas like the regions we are talking about right now in 
Africa?
    Mr. Siberell. Well, I will offer my thoughts, Mr. Chairman. 
I think with the case of ISIL, I mean, they emanate from Al 
Qaeda in Iraq, and so there has been a focus in particular on 
that conflict ongoing. That has, of course, devastated those 
societies as well and continues to. That, of course, builds off 
of the historic origins of Al Qaeda from the Middle East and 
that region. So I think from a terrorism perspective, the focus 
generally has been on that region as the core area where these 
groups have emanated from.
    But it does not--as Assistant Secretary Thomas-Greenfield 
just noted, when you look at actual violence, the groups in 
Africa are committing extreme amounts of violence. Boko Haram 
in particular is a group that has targeted civilians 
deliberately, and their deaths on an annual basis--we will 
report these in the annual country reports on terrorism. Boko 
Haram is consistently in the top ranks of terrorist groups in 
terms of committing violence and destabilizing an entire 
region. So the challenges and the threats are as great on the 
Africa continent, but I would agree with you that the focus 
generally speaking tends to remain on the Middle East and those 
conflicts.
    The Chairman. But for what reason?
    Mr. Siberell. I think for ISIL, it is appropriate to focus 
on the core area where that group has emanated from, and that 
is the main effort in particular against ISIL, against its 
presence in Iraq and Syria. And in many ways, when we look at 
the spread of ISIL, preventing that will depend on defeating 
the group in its core homeland. And so, therefore, the focus in 
that regard on that core area is appropriate.
    The Chairman. Any other comments?
    Ambassador Thomas-Greenfield. I would just say that much of 
the terrorism that we saw in the past on the continent of 
Africa tended to be focused on Africa. So there was not the 
comparable threat to the homeland from terrorists in Africa as 
we see in the Middle East. But I think we have all come to the 
conclusion that terrorism anywhere affects us everywhere, and 
we have to address it not just in the Middle East but in Africa 
as well.
    The Chairman. So the core, central beginnings, if you will, 
of this threat emanated from the Middle East, and so hitting 
areas where they are establishing a caliphate has been 
important. And then secondly, the groups in Africa have not 
been seen as a threat to Western entities. Would that be a fair 
assessment of the focus?
    Ambassador Thomas-Greenfield. I would say initially, yes, 
but I think we are seeing more and more that this does have an 
impact on us. When we look at the attacks in Mali and Burkina 
Faso, Americans were victims.
    Mr. Siberell. And I would just add that these groups 
evolved out of the particular context in Africa but have been 
co-opted or joined up with transnational terrorist groups. So 
Al Shabaab, which began out of the Islamic Courts group in 
Somalia, later affiliated with Al Qaeda and, of course, was 
part of Al Qaeda's global agenda. And that has been a 
significant concern of the U.S. security community because of 
the foreign fighter element that had traveled to Somalia, 
including American citizens. So that has been a focus, and the 
concern is that Al Shabaab, representing an Al Qaeda affiliate, 
does also tend to advance the Al Qaeda agenda.
    Similarly with Boko Haram recently, there has been an 
affiliation with the Islamic State. So that gives us great 
concern to look at the group to determine whether or not they 
will, because of that affiliation, begin to change their focus 
toward more targeting of international interests, Western 
interests, or even externally.
    The Chairman. I am going to save the rest of my time for 
interjections.
    Ranking Member Cardin?
    Senator Cardin. Well, thank you.
    And I thank all of our panelists for their incredible work 
in a very challenging assignment.
    As I said in my opening statement, as the chairman said in 
the opening statement, there is no simple solution to the 
violence that is taking place, the terrorism that is taking 
place. And clearly we need a security response, including 
direct support against terrorism. So I strongly support that.
    But as you each pointed out, the recruitment of terrorists 
is because there is a void, and there are individuals who feel 
that they have no other choice and they are prime for 
recruitment.
    So my concern is are we giving countries a free pass who 
are partners in our counterterrorism campaigns, on human rights 
and poor governance? I say that and I give you many examples. 
In Ethiopia, they just had a parliamentary election. Not a 
single opposition leader was elected. We have seen the security 
forces there who have killed hundreds of protestors. In Chad, 
we have dozens of military officers who have been arrested 
because they would not vote for the president. In Somalia, we 
have a report in yesterday's ``Washington Post'' that they are 
using children for spies. We have had extrajudicial killings by 
the military in Nigeria and Kenya. And yet, I do not see a 
response by America, the U.S., in regards to these activities. 
Am I wrong? Are we giving them a free pass? Should we be giving 
them a free pass?
    Ambassador Thomas-Greenfield. Thank you for that question, 
Senator.
    In every single one of the cases you mentioned, we condemn 
human rights abuses. We regularly condemn those abuses by 
security forces and by governments. And we make clear to these 
governments that this is a core value for the United States.
    At the same time, we are committed to firmly working with 
our partners to address efforts to defeat terrorism. We cannot 
draw a line and say we are not going to work with you on 
terrorism because of human rights violations, but we reinforce 
with these governments on a regular basis that they must 
respect human rights and civil liberties and rule of law.
    Senator Cardin. How do you do that? How do you reinforce 
that they must?
    Ambassador Thomas-Greenfield. We start with a diplomatic 
discussion. In the case of Ethiopia, we had intense discussions 
with that government over the past year. You may know that as a 
result of those discussions we are having a human rights 
dialogue being led by our Assistant Secretary for Human Rights, 
Tom Malinowski, with the Ethiopians. It is a challenge. We do 
not always get our messages through to them, but they are 
hearing that these are concerns. And in many cases, they are 
upset that we are expressing concerns about human rights.
    Senator Cardin. Would you share with me and this committee 
the specific methods you have used to transmit your concerns on 
human rights violations and the lack of democratic progress? I 
would be interested. I see the strong voice of the United 
States on counterterrorism issues, which I expect to see and 
want to continue to see. I have not seen the same degree of 
effort and energy in regards to concerns on the poor governance 
and violations of human rights.
    Ambassador Thomas-Greenfield. Well, first of all, we start 
with our embassies, with our ambassadors engaging with 
governments and embassies----
    Senator Cardin. That is quiet usually.
    Ambassador Thomas-Greenfield. Sometimes it is quiet and 
sometimes our ambassadors do not get meetings because they are 
not quiet. They are very, very public in their expression of 
concerns.
    It also occurs through meetings that I have on a regular 
basis with heads of state. It is at the top of the agenda. They 
push back. They say we do not respect them as partners because 
we are raising human rights concerns, that we do not understand 
the situation in their countries. And my response has always 
been please understand this is a core value for us.
    We also work with their militaries in terms of providing 
human rights training. We fund those directly. We do Leahy 
vetting for a number of countries, in fact all countries where 
we are involved in doing any military training. And there have 
been some countries where we have had to make the hard decision 
not to work with their military and their security services 
because they have committed human rights----
    Senator Cardin. From fiscal year 2013 to 2015, the security 
assistance budgets for Africa have gone up from a half a 
billion to a billion. The democracy and governance budget has 
fallen during that period of time. I would think that democracy 
and governance funding is a clear indication of our commitment 
to good governance and human rights. There is certainly a 
shortage of funds. There is no question about that. I would 
like to see a larger pie for our global efforts on all these 
areas.
    As I understand it, a large amount of the decisions as to 
how those funds are allocated are based upon who is the most 
effective in advocating for need. Have we been ineffective in 
advocating for democracy and governance?
    Ambassador Thomas-Greenfield. I would like to say no 
because it is at the top of my agenda.
    Senator Cardin. But why has there been a decline in those 
funds?
    Ambassador Thomas-Greenfield. Well, I have to say I am not 
an appropriator. If I were an appropriator, I would be giving 
more money to democracy and governance.
    Senator Cardin. Some of this is soft allocations by 
Congress. A lot of this is a complicitous operation between the 
people at the State Department and appropriators.
    Ambassador Thomas-Greenfield. From the African Affairs 
Bureau's standpoint, Senator, you are speaking to the choir. I 
do not have enough resources on democracy and governance, and I 
think USAID will agree with me on that. We could use more 
resources in that area. We know that putting money toward 
democracy and governance, putting money toward good elections, 
putting money toward building the capacity of civil society 
contributes to making countries more stable and respectful of 
human rights. And we make strong cases from our standpoint to 
support democracy funding so that we have that funding to 
implement the program.
    Senator Cardin. I would just urge you to do this in a way 
that is visible to those of us who support your efforts 
because, quite frankly, we do not see that. We are sending our 
own messages as loudly as we can, including at this hearing, 
that we want to see greater funds for democracy and governance. 
But if we do not get the feedback from what is happening in the 
missions and the Department, it makes our job much more 
difficult.
    It looks like countries are getting a free pass. As long as 
they are on our coalition team, what they do within their own 
country is of little importance to our foreign policy mission, 
which you are telling me is just the opposite. So showing that, 
not just by a quiet diplomatic contact, but by how we are 
making that point would certainly, I think, help us in 
accomplishing our mutual desire for good governance.
    Ambassador Thomas-Greenfield. Good. Thank you.
    The Chairman. Thank you.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Can anybody tell me what happened to Joseph Kony?
    Ambassador Thomas-Greenfield. He is still out there. There 
has been a very strong and proactive effort against the LRA. We 
have been working with the AU and with the Ugandans and other 
partners. And we were able to get his number two who is now 
currently in The Hague being tried. But Kony has been elusive. 
But our efforts continue very robustly to get him, and the job 
is not over until that is done.
    Senator Isakson. At one time, we committed 100 special 
troops and forces to CAR, I believe, to go after Kony. Are they 
still deployed?
    Ambassador Thomas-Greenfield. They are. I cannot give you 
the exact numbers, but I did meet with the team when I was in 
Uganda the last time and they are still working there.
    Senator Isakson. Although not recognized as an 
international terrorist, there is probably no worst terrorist 
than Joseph Kony in terms of children and women. I am glad we 
are still committed to trying to bring him to justice, as hard 
as that appears to be.
    Ambassador Thomas-Greenfield. Yes, sir.
    Senator Isakson. Talking about the African Union for just a 
second, does the African Union address the issue of terrorism 
on the continent? Do they have a game plan to deal with 
terrorism?
    Ambassador Thomas-Greenfield. We are working very closely 
with the African Union on terrorism on the continent. It is 
high on their agenda. In the case of Nigeria, they have been 
very much a part of the creation of the Multinational Joint 
Task Force in Chad, and we have provided them some funding and 
some assistance in their efforts there. The mission in Somalia, 
AMISOM, is an AU mission and it is the largest AU mission on 
the continent of Africa with troop-contributing countries from 
the region. So it is high on their agenda. We are partnering 
with them, along with our European colleagues, to make sure 
that they have the capacity and the funding to address what has 
been a very challenging and difficult threat for them, as well 
as us, on the continent.
    Senator Isakson. I know we use human rights issues and 
labor issues in the approval and participation of AGOA with the 
United States and African countries. In fact, I was in the AU 3 
years ago when we chastised Swaziland for their lack of 
humanity to their laborers and used that as a predicate for 
them staying in the African agreement for them to stop it. Are 
we leveraging our trade power and our economics as much as we 
should in Africa, particularly going after terrorism?
    Ambassador Thomas-Greenfield. We are. Swaziland is still 
not a part of AGOA. We regularly send letters of warnings to 
countries if they are not on the right side of human rights and 
caring for their people. And AGOA is very important to them, 
and it is huge leverage. And in many cases, it has worked to 
get governments to turn policies around, and if they have not, 
we have kicked them out of AGOA.
    Senator Isakson. I know we do on labor issues and human 
rights issues. Do we do it on them fighting terrorism as well?
    Ambassador Thomas-Greenfield. We do, but we do understand 
that they have a challenge. They have a capacity challenge, but 
there are also all the other challenges that I mentioned and 
Senator Cardin mentioned in his statement, lack of governance, 
corruption, that have limited the capacity of governments to 
fight terrorism. But I think they all have come to understand 
that if they do not fight terrorism, they are not going to be 
around to do anything else. So they have come to that very 
strong realization that they have to partner with their 
neighbors, as well as with the international community, to 
ensure that terrorists do not take over their countries.
    Senator Isakson. China invests a lot of money for its own 
benefit in Africa. It extracts a lot of rare earth minerals and 
raw materials and things of that nature and builds some roads 
and highways. Do we ever engage with the Chinese on the issue 
of terrorism on the continent of Africa to try and get them to, 
in some way, help us or help the continent to fight it?
    Ambassador Thomas-Greenfield. We do. I was in China about 4 
weeks ago for our annual consultation with the Chinese, and 
that was on our agenda. USAID was there recently as well on 
consultations to look at how we can better coordinate with the 
Chinese on what they are doing in Africa both economically as 
well as politically.
    Senator Isakson. My experience is that terrorism flourishes 
when there is a presence of no education, poverty, and disease 
and lack of hope. Africa probably is the poster child for those 
qualifications. And the more we can do like the Electrify 
Africa bill and the water bill that we have done here and the 
food security bill, the more we can uplift the African people, 
the better fight we can have against terrorism. Would that be a 
fair assessment?
    Ambassador Thomas-Greenfield. I will turn to my colleague 
at USAID, but I absolutely agree with you.
    Ms. Etim. I will agree, but I will also say that we have 
data that shows that this is actually the case. We see that 10 
years of research over all these countries that USAID has 
worked in across the world has shown very clear evidence that 
when we see governments actually able to deliver services such 
as energy, access to electricity, health care, education 
services, there is a corresponding decrease in the amount of 
feelings of marginalization, feelings of inclusion, and we have 
also seen that those countries are usually not the same ones 
that are correlated with conflict and instability. It has been 
very clear that there is also a clear correlation between where 
there is the absence of the delivery of services and where 
people do feel marginalized and that they do not have access to 
opportunities and that those countries are at risk of conflict. 
And it is very glaring.
    Now, the links between violent extremism--that is the next 
step. Already when you are engaged in conflict, your sympathy 
for going to that next level is not as far of a stretch. And so 
we know that these are things that actually matter. We know 
that development is actually a very important tool in this 
space.
    Senator Isakson. But just based on my observation, it 
appears that where we have made Millennium Challenge compacts 
and where we have helped build the infrastructure of these 
countries, there has been less of a presence of terrorism than 
there is in those countries where we did not. I think that is a 
good thing for us to continue to invest money, and I am a big 
supporter of the Millennium Challenge Grants and a big 
supporter for our engagement on that.
    And thank you very much for your service to all of you.
    The Chairman. Thank you.
    I have about a minute and half reserved. I am just going to 
ask a quick question.
    All of us, I think, are really proud of the work we have 
done together on Electrify Africa, on food aid reform, on clean 
water, and we have other efforts that are underway. We are 
really proud of that work. And I appreciate you mentioning the 
benefit that is to people, massive numbers of people, millions 
of people.
    On the other hand, to bring up a topic that I think Senator 
Cardin alluded to and you just did a moment ago, Ms. Thomas-
Greenfield, when we work with governments that we know are 
abusing their own citizens, they are corrupt, they are 
absolutely subjecting their citizens to terrible atrocities 
themselves, those governments, when we work with them to 
counter terrorism, how does that work against U.S. interests 
relative to causing many of the extremists there to really 
harbor ill will towards the U.S. itself by seeing us associated 
with governments that they believe are corrupt and not treating 
their citizens appropriately?
    Ambassador Thomas-Greenfield. I think we have to work with 
governments to fight terrorism, but we also have to continue to 
work with these governments to address human rights 
deficiencies in their countries. And I think that the people of 
those countries want us to continue to engage. They want our 
voices to be heard. They know that when we are engaging with 
these governments, that we are also raising concerns about 
human rights. And we have gotten some people released from 
jail, and we have gotten some governments to moderate their 
actions against their citizens. It is not a perfect solution, 
but I truly believe that our engagements with them help on the 
issues of human rights.
    I will give the example of Burundi where we believe that 
the military in Burundi has been less active and violent 
against citizens because of our engagement with them, because 
of the human rights training that they got from our people 
working closely with them. The government has been a problem, 
but we have seen that that military has been less of a problem 
than most people expected.
    The Chairman. Briefly. Yes, sir.
    Mr. Siberell. Just to add, in addition to what was noted 
earlier that all of our civilian-delivered assistance is 
subject to requirements for vetting under the Leahy law, we 
work with governments to strengthen their rule of law 
frameworks under which they would carry out an effective 
counterterrorism policy.
    So we reject the notion that there is conflict, inherent 
conflict, and effective counterterrorism practice and 
protection of human rights and civil rights of the people. We 
have worked to embody that concept in what is known as the 
Rabat Memorandum, which is a document that the United States 
Government helped to develop through the Global 
Counterterrorism Forum. And this forms the basis of assistance 
that we deliver increasingly across the continent in 
cooperation with the Department of Justice and prosecutors that 
we fund from the State Department to work with governments to 
establish strong CT legislation but that also protects the 
human rights of the people.
    So this is a major challenge in Africa, and I would say 
that, on the one hand, you have partners who are willing and 
capable but need a lot more assistance to become fully capable 
to fight terrorism challenges, but they have weak governance 
and weak governance structures. And this is where we have to 
strengthen those structures of governments so that as they 
conduct military-led and security-led operations to detain 
terrorists and to prevent terrorist attacks, they do so in a 
framework that enables for those people to be prosecuted and 
detained effectively in accordance with international human 
rights standards. It is a long-term effort, but we are very 
much engaged in that work currently.
    The Chairman. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    I am just going to follow up on Senator Corker and Senator 
Cardin's point, which is that while Nigeria's people most need 
help with daunting governance and corruption issues, the United 
States is planning to sell the government attack aircraft known 
as the A-29 Super Tucano to Nigeria. And it would be to fight 
Boko Haram, a group everyone opposes, but the Nigerian military 
has a longstanding history of human rights abuses, including 
under the current administration.
    Just last month, Amnesty International accused the Nigerian 
Army of killing hundreds of members of the Shia minority sect 
in December. And unfortunately, that is happening in other 
countries in east Africa as well.
    So what is your perspective on that given the fact that the 
people of Nigeria increasingly are seeing U.S. aid move from 
humanitarian or anti-corruption efforts over to more military 
aid for those who they believe internally are the ones who are 
a greater risk to the security of their families?
    Ambassador Thomas-Greenfield. Our aid is not moving away 
from corruption. The new president of Nigeria has made clear 
that corruption is one of his highest priorities. He named 
three priorities when he came into power; countering Boko 
Haram, fighting corruption, and improving the economy. And we 
are working very, very closely with this government. In fact, 
the Secretary is in London at a meeting hosted by the U.K. on 
corruption, and President Buhari is there.
    On the issue of assisting the Nigerians in fighting Boko 
Haram, they have huge capacity issues. As you may know, last 
year we turned them down on a request for Cobras because we 
were concerned about their ability to use those and not have 
them have an impact on their communities.
    Senator Markey. Well, let me ask the question another way. 
If there is no success in convincing the people of Nigeria that 
their government is not corrupt, that their government is not 
fair, will any of this military aid ultimately create the 
conditions for a successful effort to defeat Boko Haram from 
the inside of the country? Will we ever be successful?
    Ambassador Thomas-Greenfield. We have to be.
    Senator Markey. I know we have to be, but----
    Ambassador Thomas-Greenfield. It has to be multifaceted. We 
have to do the security, but we absolutely have to do the 
capacity building, the development assistance, the good 
governance with this government. We have to do both. We cannot 
do one or the other or we will fail. And it will be long-term.
    But I have to say the Nigerian people want us there to 
assist them on the security side as well because they know that 
their government does not have the capacity alone. They want us 
there on both of those areas.
    Senator Markey. Well, let me ask you this. Internally how 
do you think it will affect the view of the people inside of 
Nigeria as we increase military aid to the very people who they 
fear are using it to harm them, harm the Shia inside the 
country, for example? The government forces themselves. How do 
you think that will affect how they perceive how the United 
States is playing inside of Nigeria, and what could be the 
consequences of that if that persists?
    Ambassador Thomas-Greenfield. The polls show that we are 
extremely popular in Nigeria. The Nigerian people are victims 
of Boko Haram, and they know that there has to be some kind of 
security and military solution to addressing Boko Haram. And 
they want us there to help their military, and I think they 
think that if we are there to help, their military will be less 
abusive to their people. And that is a point that we have made 
to the Nigerians. We are training two battalions of Nigerian 
soldiers right now. They have human rights training as part of 
that training, and all of them have been Leahy-vetted to 
ensure. So we are working with the government to moderate and 
stop human rights abuses by the military. But on the security 
side, I think the Nigerian people who are victims of Boko Haram 
also want to see us help their military address the security 
threat that they are facing.
    Senator Markey. Well, I just think we are on a thin edge 
here. We just have to be very careful, especially if the 
government does not control adequately its own military. 
Internally the harm that it does to the overall morale inside 
the country makes it much more difficult to ultimately combat 
Boko Haram. So I just think it is important for us to keep an 
eye on that.
    And in Congo, there is significant political tension 
because President Kabila is trying to prolong his stay in power 
beyond the constitutional two-term limit. His security agents 
are harassing opposition politicians in a very serious way. 
Mass protests of Kabila's apparent attempts to remain in office 
appear imminent.
    So what is ultimately the likelihood that such protests 
could spark further instability in DRC, particularly if the 
security forces continue to crack down in response to these 
democratic instincts that people have, as has been the case in 
the past?
    I sent a letter to Secretary Kerry in February suggesting 
that the U.S. should communicate to President Kabila to 
publicly state his intention to respect the constitution to 
step aside at the end of his second term in December, and that 
if he failed to do that and made appropriate preparations for 
elections, then we should implement sanctions if he does not do 
that. In response to my letter, you seem to suggest that 
Kabila's actions in the next few months would determine whether 
or not State would opt to enact sanctions, and you testified 
before this committee to much the same around that time.
    It seems to me that the political environment is 
deteriorating in Congo and Kabila has not demonstrated an 
interest in preserving his democratic legacy. Has the time 
arrived for sanctions to be imposed on the Government of Congo?
    Ambassador Thomas-Greenfield. Thank you for that question.
    And, yes, we are looking very, very actively at sanctions 
as they relate to those who are involved in violence, and we 
have conveyed that to Kabila and his people. The Secretary met 
with him a few weeks ago in New York, and our Special Envoy has 
been proactively engaged in the region over the past few 
months. We are still hopeful that we can get the Government of 
Congo and President Kabila to do the right thing. Their 
constitution is very clear that his term ends in December, and 
they must have an election. And we have conveyed that to him.
    We are also working very closely with our other partners, 
with the EU, with the French, and others to make sure that we 
are all on the same sheet of music on that issue.
    Senator Markey. Yes. The election is scheduled for the end 
of this year. It is only May. There is plenty of time to set up 
an election. Right now, they are talking about the end of 2017 
as the earliest. That would be a clear violation of the 
constitution.
    Ambassador Thomas-Greenfield. Absolutely.
    Senator Markey. I hope that we make it very clear to him 
that we will not accept that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to all of you for being here today and for 
your ongoing work.
    Can you talk about the importance of women's empowerment in 
contributing to development in Africa and what we are doing, 
what you would identify as the best examples of successful 
programs?
    Ms. Etim. So I love that question.
    I think that we increasingly, especially talking about 
conflict and instability, need to talk about the role of women 
in peace and security. In fact, that is an actual U.S. 
Government policy, which is titled ``The United States National 
Action Plan on Women, Peace, and Security,'' which talks about 
the fact that women are critical agents--not only victims but 
also as agents of change--when we are talking about instability 
and conflict but also violent extremism.
    Our programming runs the gamut, depending on what the 
situation or scenario is. In areas where there are vulnerable 
communities or where we see that they do not have a lot of 
access to legal recourse, economic opportunities, and they 
often are coerced or used as instruments of terror or violence 
or suffer from gender-based violence, we seek to figure out 
ways of empowering local women, communities and allowing them 
training, work through economic empowerment, access to 
education, which is another sort of critical element that we 
are seeing. When women have access to education and when girls 
have access to education, we have seen that child marriage 
rates have fallen, and their susceptibility to feelings of 
acceptance with violent extremist groups also decreases.
    So, again, we think that it is very important to target 
women and girls in these environments because we have also seen 
that not only are they able to make a critical difference in 
their own lives, but they are also critical agents of change in 
the rest of their communities.
    Senator Shaheen. And I do not know whether you or--is it 
Mr. Siberell--want to address this. But can you also talk about 
how the efforts to recruit people to terrorism, to ISIL, to 
Boko Haram--how the difference that we are seeing between the 
ability to recruit men and women--I know there has been an 
increasing effort to use women as suicide bombers. But can you 
talk a little bit about what we see about the--who is easier to 
recruit?
    Mr. Siberell. Well, I think for most of the groups, the 
emphasis continues to be on recruiting young men. But in the 
case of Boko Haram, of course, notoriously they have used girls 
in suicide bombing operations, which is absolutely despicable. 
Some of those are, obviously, coerced into that activity.
    I would just build on something my colleague just noted 
about the role of women in particular in identifying the seeds 
of radicalization. Women play a critical role in most 
communities in being close to the people and having an ability 
to understand whether or not there are influences coming into 
the community that could lead to a process of radicalization 
and recruitment into terrorist groups.
    So this is one of the areas that we would like to develop 
in our CVE programming. We have a program that has been 
underway in Nigeria through the U.S. Institute of Peace in 
which they are developing a network of influential women, women 
who already have a role in the society, to bring them together 
into a network and to train those women on observing and 
understanding whether there may be signs of radicalization. And 
these are the kinds of programs I think that will be very 
important as we get down to the community level and address the 
drivers to radicalization to violence.
    Senator Shaheen. One of the things that we have heard about 
the success of ISIL has been their ability to recruit people to 
a caliphate. The idea of the caliphate is very important. Are 
we seeing that same kind of interest in Africa in terms of the 
messaging to try and recruit?
    Mr. Siberell. The numbers coming out of Africa that we are 
aware of in terms of foreign terrorist fighters, those that 
have actually been inspired to travel or to attempt to travel 
to Syria and Iraq, are much lower than for other parts of the 
world. Whether it be north Africa, the Maghreb countries, even 
European states, the Caucasus, and even down into southeast 
Asia, the numbers are higher. But that said, there is evidence 
of some recruitment among Africans into ISIL, and ISIL's 
propaganda is very shrewd in identifying and using recruits who 
come from particular regions and then appealing to those 
individuals to join the caliphate or come to Iraq and Syria.
    Of course, ISIL has been attempting to infiltrate into 
other areas of the continent, in particular, in Somalia. And 
there is evidence of a struggle and basically a conflict 
internally between Al Shabaab and elements that had sought to 
adhere or to affiliate with ISIL. They have not seemed to have 
the success there, but it does identify that this is an ongoing 
concern we have to watch very closely.
    Senator Shaheen. And is the cost of getting to Syria, to 
Iraq part of the challenge with recruitment, or is it the 
messaging that is the issue?
    Mr. Siberell. I think there are probably a lot of factors. 
That would be one. You know, one of the things that has made 
this conflict in Iraq and Syria such a threat to all of us is 
the relative accessibility of the conflict to people in Europe 
or in north Africa to fly to Turkey. As an example, you can get 
into Syria quite easily. And that has been the historical 
route. I think it is harder for people in Sub-Saharan Africa to 
make those connections and it costs more, so it is more 
difficult logistically to do that.
    Senator Shaheen. Of the estimated 60 million refugees in 
the world today, I understand that about 15 million are in Sub-
Saharan Africa. I assume, but maybe I should not, that 
terrorism and instability are driving those migration flows. 
Can you talk about that and also talk about the extent to which 
climate change is playing a role in the migrations that we are 
seeing in Sub-Saharan Africa?
    Ms. Etim. Sure. I think we see the Horn of Africa and the 
Sahel, not surprisingly, are huge areas where we are seeing the 
largest numbers of refugee movements right now and I will just 
say internally displaced persons as well because even though 
people are not necessarily leaving their borders, they are 
definitely moving out.
    When we see the up-tick in instability in Somalia, for 
instance, we are even seeing people willing to get on boats to 
go across to Yemen, which we know has not been secure at all. A 
lot of that is because people know that they are not secure or 
safe, and when we do our surveys, we have seen time after time 
that when people do not feel secure and safe, they will move 
across borders. They also move across borders when not only 
they do not feel secure and safe, but they do not feel that 
there is any opportunity for them to exist on their own in the 
country of origin. So we have seen situations where even when 
security is paramount, such as in the Democratic Republic of 
Congo, where we see large refugee movements, what often causes 
people to move across borders and move further is when markets 
start closing down or there is not an ability to make a living.
    So you have got dynamic populations in these countries that 
in a sad way are used to coping and dealing with instability in 
very creative ways. But the concurrent pressures of instability 
and the lack of opportunity are what are pushing them to move 
further afield.
    Senator Shaheen. So climate change is a big contributor.
    Ms. Etim. And climate change--sorry--is a big contributor 
in both. We have seen the El Nino effect right now. Drought in 
Ethiopia, Kenya, and Somalia is definitely a big factor. In 
2011, we know that the famine was partially caused by drought, 
mostly caused by Al Shabaab cutting off access to food. It was 
a big reason that people had to cross borders, and we saw the 
largest migration of Somalis. It has put pressure on 
neighboring countries such as Kenya and South Sudan, even 
Sudan, and Ethiopia, and we are seeing that those pressures are 
increasing local tensions. In the Sahel, we see very much the 
same story. Recurrent drought and problems of the ability to 
have accessible land has caused people to move to urban 
centers. And again, with the lack of opportunity in some of 
these urban and peri-urban centers, we are seeing increased 
radicalization as well.
    Senator Shaheen. Thank you.
    The Chairman. Senator Rubio?
    Senator Rubio. Thank you very much.
    Let me just begin. This is a question of Secretary 
Greenfield. Would you describe Boko Haram as an anti-Christian 
terror group whose main motivation is to rid Nigeria of 
Christianity? And I say that based on a video released by their 
leader in 2014. He said, quote, this is a war against 
Christians and democracy and their constitution. Allah says we 
should finish them when we get them. End quote.
    Ambassador Thomas-Greenfield. I would say they are more 
than that. I think that is part of their ideology, but they 
have killed more Muslims in the north than they have killed 
Christians. They are a terrorist organization, and they have no 
boundaries.
    Senator Rubio. Would you support designating Nigeria as a 
country of particular concern for religious freedom?
    Ambassador Thomas-Greenfield. I would not designate Nigeria 
as a country because we have huge, huge and very active 
Christian populations in Nigeria throughout the southern parts 
of Nigeria into the middle belt and even in northern Nigeria, 
and we have a huge Muslim population there as well. So both 
communities, until Boko Haram, were able to live together and 
work together harmoniously, and I think that that can continue 
once Boko Haram is brought to justice.
    Senator Rubio. Now, for USAID, what programs exist to 
assist the victims of Boko Haram, in particular, psychological 
programs for women and girls who have been victims of sexual 
violence?
    Ms. Etim. I think you put the nail on the head. We have a 
comprehensive program right now that is in design to really 
target the northeast of Nigeria and looking at the victims of 
Boko Haram. We are working with communities right now because, 
as we have seen, when people who are leaving Boko Haram or who 
have been the victims of Boko Haram return to their 
communities, sometimes they suffer from a second wave of 
victimization. And so we are working to educate communities 
on----
    Senator Rubio. In terms of like stigma?
    Ms. Etim. Stigma. It has been heartbreaking actually. And 
so we are working to educate communities as to what it actually 
means, what people suffer, what they go through, and the fact 
that they can still be productive members of communities and 
societies. We also offer psychosocial support and care. A 
number of the Chibok girls that we did manage to return home 
are receiving that type of care right now. We are also making 
sure that we are working with local clinics and medical 
providers to train them in the right techniques. And then we 
are also working with community influence-makers, religious 
leaders so that there is a message that can be amplified 
through various channels that there is recovery that is 
possible.
    Where possible, we are restarting basic social services 
such as education. We are putting more money into emergency 
education in the north, and we are hoping that where we can, we 
can increase access. And we are also providing assistance to 
those who are internally displaced through basic humanitarian 
assistance, provision of food and health care.
    Senator Rubio. With all this instability in Sub-Saharan 
Africa, how has it affected your ability to implement programs. 
For example, have there been any programs that have been 
suspended due to security concerns?
    Ms. Etim. Throughout Sub-Saharan Africa, when we work in 
unstable environments, we have programs that have to exercise 
flexibility. And so we have multiple times suspended and 
restarted programs. And I think our model of working in these 
climates has to be based on this idea of really developing 
longstanding, long-term, long-visioning networks with these 
communities so that when insecurity prevents us from moving 
into an area for a period of time, we have through our networks 
and through understandings of local people on the ground and 
our staff who often are from the regions and speak the local 
languages--they understand when we can come back and they also 
understand how we can still have access and figure out creative 
ways of providing assistance to those intended beneficiaries. 
So, again, I would really emphasize the flexibility of the 
programs, understanding that it is not sometimes always a 
continuous flow of programming without stops and starts, 
especially in the areas where there is a lot of----
    Senator Rubio. That has to be highly disruptive. For 
example, if you are assisting a victim of sexual violence and 
in the middle of that program that we are offering, security 
concerns require us to eliminate people from that setting, and 
then it is suspended and then restarted. Is this a commonplace 
problem, these stop and starts, because of the security 
environment?
    Ms. Etim. So it is not that the program will stop entirely. 
Usually what we try to do is we have a combination of working 
through local implementing partners. And so a lot of times what 
happens is we manage to train the trainers so that they still 
receive some types of support even as international NGOs or 
some of our own staff will have to pull back. And we try to 
layer on different types of interventions to ensure that we 
have creative ways of making sure that we are able to reach the 
beneficiaries.
    But it is disruptive. And in extreme cases where we have to 
completely not be in a particular area for some time, of 
course, these are hugely disruptive. What we have found, 
though, is that over time when it has been for sustained 
periods of time such as that in most of the cases that we work 
in Sub-Saharan Africa, the population is also moving as well.
    Senator Rubio. And then on the counter-terror front, there 
have been rumors that the leader of Boko Haram, Shekau, is 
perhaps fighting in Syria with ISIL. Could you shed any light 
on that, Mr. Siberell? I have seen some open source reports 
about that.
    Mr. Siberell. I have not seen that. I mean, he periodically 
appears in videos that are distributed and that we are aware 
of. And one of the things that we have noted and watched for 
is, after the affiliation of Boko Haram with the Islamic State, 
whether there was any difference in the quality of their media 
output, which is usually an indicator of an actual strong link. 
We have seen a little bit of that, but I have not heard or I do 
not know if there is any reporting that I have seen that he is 
actually in Syria.
    Senator Rubio. Are there any countries that you are 
particularly concerned about in terms of recruiting IS 
fighters, and how significantly do you assess the threat of 
more and more fighters flowing out of east Africa to be?
    Mr. Siberell. Yes, we are quite concerned about ISIL or 
Daesh, Islamic State's attempts to infiltrate and affiliate 
with existing insurgencies or terrorist organizations. We know 
that they have been attempting to move into Somalia. Shabaab 
itself has recognized this as a threat, and there has been sort 
of a fierce struggle internally to hold off ISIL. But that then 
raises the possibility that they will look at other Somali 
communities in the region to include Kenya, elsewhere. So this 
is something that we are very concerned with. And we know that 
ISIL will want to continue to build its network of affiliates. 
So we have to remain attuned to that. Of course, Libya is a 
major ISIL affiliate, and there is always the threat that the 
connections might be made from Libya throughout the region, and 
we are watching that very closely as well.
    As for individuals traveling to the conflict, as noted a 
minute ago, there has been some incidence of that, but the 
numbers from Sub-Saharan Africa, generally speaking, are low 
compared to numbers of foreign fighters from Europe, from north 
Africa, from the Caucasus, from southeast Asia in comparative 
terms.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses for being here today.
    One of the reasons I really admire my colleagues on the 
committee is that there are many on this committee who have 
spent a lot of time in Africa and non-committee members too in 
the Senate who have spent a lot of time on it. And hearings 
like this are really helpful.
    You know, just a thought on this. I do not have to be 
diplomatic because I am not a diplomat.
    On the question of the differential in attention, you got 
to acknowledge that race--we have to look in the mirror and ask 
ourselves if race is part of the reason because if we look 
backward at our own history, often things get explained in 
retrospect and race is part of the reason. We put Japanese 
Americans in internment camps. We did not put German Americans 
in internment camps. Well, what explained the difference? 
German Americans looked kind of more European like the powers 
that be than Japanese Americans did.
    There is a school of thought that explains the differential 
action of the United States in the 1990s in terms of 
intervening dramatically to stop genocide in the Balkans but 
not intervening dramatically to stop genocide in Rwanda, and 
then kind of, well, why did we intervene in one and not the 
other? Some of the answer that is not too pleasant.
    So I think that part of the reason to have a hearing like 
this and part of the reason I applaud my colleagues who have 
spent a lot of time in Africa is we have to, as leaders, kind 
of challenge. In some ways, it is kind of a media portrayal too 
that terrorist attacks in Cote d'Ivoire, Mali, Burkina Faso, 
Nigeria, Chad are not worthy of the attention that the attacks 
in Brussels or Paris are. And even those in Ankara and Istanbul 
and the Sinai do not get as much attention. So all of these are 
important and having a hearing like this tries to put it an 
equal scale and not suggest that some lives are worth less than 
others.
    I think there are some other reasons. The Middle East--we 
have needed something. We have needed oil, and so that has 
probably made us more focused on the Middle East and we have 
not focused as much on Africa because maybe we did not perceive 
that we needed something as much.
    And, again, this is a good reason to have a hearing like 
this. Our foreign policy as a nation has just had an east-west 
axis that has been undeniable. We have cared about Europe. We 
have cared about the Middle East. We have cared about the 
Soviet Union, now Russia. We have cared about China. But if you 
look at the diplomatic effort that focuses south of the equator 
in Africa and the Americas, it has just been less. And so that 
is something that is good about a hearing like this.
    I wanted to ask a question. I am actually going to make you 
do homework for me because we are writing the defense 
authorizing bill this week, and I am on Armed Services. And we 
are going to grapple with some issues and especially some 
issues dealing with AFRICOM. AFRICOM is an interesting regional 
command on the military side because probably more than any of 
the other COCOMs, it really integrates cross-disciplinary, 
military, diplomatic, USAID in trying to deal with challenges 
in Africa. As folks who are not part of the DOD, talk to me 
about your perceptions of AFRICOM. The one proposal is to fold 
AFRICOM back into EUCOM and not have there be a specific 
AFRICOM. I would be curious as to your thoughts on that.
    And second, talk to me about the efficacy, following up on 
Senator Markey's questions, less about the arms sales but about 
the training and the exercises we do with African militaries. I 
know many of our U.S. ambassadors ask through AFRICOM that we 
devote marine units and other units into Africa to do training 
on counterterrorism, counter-poaching, counter-human 
trafficking to build capacity. In your view as professionals in 
this area, how successful are those training efforts that we do 
with African security forces?
    Ambassador Thomas-Greenfield. I will start and then I will 
turn to my colleagues.
    I hope that AFRICOM is not folded back into EUCOM because 
what AFRICOM has meant for us is that we have a military that 
is more focused on Africa and has, over the years, become more 
understanding of Africa and they have become a great partner 
for us. And we very much appreciate that partnership with 
AFRICOM and with the military.
    As a member of the Armed Services authorizing committee, 
there is a key area where we do have concerns, and those 
concerns are that as that committee considers its bill, it not 
cross some lines into the areas of diplomacy and development, 
and those are authorizations that we would like to keep and 
where we feel we have better skill sets to carry out those 
responsibilities, particularly in the area of community 
development, in areas of working on governance. Some of those 
authorizations need to be guarded for the State Department and 
for USAID, and we have raised concerns there.
    But in terms of our relationships with AFRICOM, I think 
they are better than at any time when we were working with 
CENTCOM. I think we have areas of disagreement, and we have 
been able to establish channels of communications between 
General Rodriguez and myself where we address those issues. And 
we have, I think, had some positive impact on the region. In 
all of their training that they do with African militaries, 
they have human rights training modules in every single one of 
those efforts that we have made. And I think they have paid 
dividends for us, and we have been able to use the 
relationships that the militaries develop with their military 
counterparts to get messages through to those militaries.
    And then in terms of lethal weapons, we look very closely 
at what we are providing, and as I mentioned to Senator Markey, 
when the Nigerians asked for Cobras last year, we did not think 
those were appropriate. We were concerned about how they would 
be used and the impact on communities those Cobras would have, 
and we said no. We think the Super Tucanos are a better piece 
of equipment. We can train them on how to use this equipment 
effectively and not have a negative impact on communities and 
on civilians. So we are working very, very closely with them to 
address those concerns to make sure that they do not have the 
negative impact.
    The Chairman. Great.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons, our ranking member on Africa.
    Senator Coons. Thank you, Mr. Chairman.
    Senator Markey is the ranking member on Africa.
    The Chairman. That is right. We could not work that out. I 
forgot that. [Laughter.]
    The Chairman. We were not as successful as we were last 
week on State Department authorization. But go ahead.
    Senator Coons. Mr. Chairman and the ranking member, I just 
want to thank you both for convening this hearing and for your 
great engagement on this topic today. Along with Senator Markey 
and Senator Flake and Senator Isakson, we have all enjoyed a 
chance to work over many years together.
    Just two opening statistics. I do think you reminded all of 
us that there are positives and negatives to the security 
situation in Africa. As some of you know, I host an annual 
Opportunity Africa conference in Delaware to try and emphasize 
the positives. Africa is a vast and complex continent of 54 
countries, the fastest growing continent in the world. The 
World Bank says 7 out of 10 of the fastest growing economies in 
the world this decade are in Africa, but 8 out of 10 of the 
largest United Nations peacekeeping operations are also on the 
continent.
    I think one of our challenges is to remain appropriately 
focused on the difficulties of developing a sustained strategic 
framework for engaging with extremism and violence on the 
continent while still recognizing the significant growth 
opportunities, positive opportunities to reinforce our values 
and to work together with our many allies and partners on the 
continent and moving forward.
    I also just at the outset want to thank the countless 
dedicated Foreign Service officers and civil servants at the 
State Department and USAID who work so hard to promote our 
interests in Africa, as well as those in DOD and law 
enforcement who do so much in terms of training and outreach. 
On a recent trip with Senator Cardin, I took the time to meet 
with a number of FSOs, and it is always to me interesting to 
hear just how hard they work. I am impressed with their 
determination and drive while working under difficult, 
dangerous, and often remote conditions.
    So let me just ask this panel what lessons we have learned 
from fighting terrorism in Africa. We have got in front of us, 
just broadly speaking, three case studies: in the Sahel, with a 
focus on Mali; in the Lake Chad region, with a focus on 
Nigeria; and in the Horn, where the focus really is Somalia. 
And we have very different levels of U.S. engagement, U.S. 
expenditure, U.S. policy responses to the significant stability 
challenges presented by Somalia, which was literally a 
completely failed state but where there is a multilateral 
military presence where we have played a significant role, and 
I think they have made substantial success in pushing back Al 
Shabaab in the Lake Chad region where we are expending less in 
money but Boko Haram last year was literally the deadliest 
terrorist organization in the world and it should get and 
deserves higher attention and higher priority, as Senator Kaine 
suggested, for some reasons that are really unappealing I 
think.
    The United States, by the way, gets more oil from the 
continent of Africa than we do from the Middle East. So if it 
was merely about resource prioritization, we long ago would 
have put Africa at the top of our list. And I am concerned that 
we are allowing others to become dominant players in Africa and 
we are lagging.
    And then last, in the Sahel, we have really predominantly 
left the hard work to an AU mission, to the U.N., and to the 
French. These are very different responses, but in all three 
there are no significant U.S. troop deployments. We may be 
central to the activity in Somalia and in Nigeria, but it is a 
quite different scenario than we have seen in Iraq and 
currently in Syria.
    So where are we getting the best bang for our buck? Where 
are we making the biggest progress in terms of advancing our 
values and our security concerns? And what role does diplomacy, 
development, security play in this work? If you would just in 
series, what is the strategic framework for making progress?
    Ambassador Thomas-Greenfield. I will start and then I will 
turn to my colleagues.
    You asked early what lessons we have learned, and I think 
the most valuable lesson we have learned is that this has to be 
multifaceted. It cannot be just focused on security and 
military. We have to bring in the civilian agencies.
    And we also have learned that we cannot own it. We have to 
build the capacity of local organizations, local military, 
local security services, local civil society. We have to build 
their capacity to own it, and we have to be supportive of them.
    Third, I think we have learned that we have to partner. So 
in the case of Mali--or in the Sahel, we have been 
extraordinarily proactive in the Sahel, but we are not in the 
lead. We have been involved in the peace negotiations. Our 
military has been extraordinarily supportive of the French 
effort there. There are so many problems across the continent. 
We have to spread ourselves very thin, and we have to look for 
other partners. And in that case, we have worked very closely 
with our partners in the U.N., as well as in the French 
Government, to make sure that we are having impact on the 
situation in the Sahel.
    And then finally--and this has been said in the room by 
everyone--we have to be concerned about human rights. We have 
to ensure that these governments understand that human rights 
are important for us, and as I have said before, it is a core 
value. And they expect to hear from us on human rights issues. 
If we do not raise human rights, I think every one of them 
would be in shock. So we generally start out in that area with 
all of these governments.
    Senator Coons. And if I might interrupt before we continue, 
we had an exchange earlier about the prioritization of 
democracy and governance funding where Ranking Member Cardin 
appropriately said--Senator Shaheen and I are both 
appropriators and heard that loud and clear. And it is an issue 
that I have pressed in recent appropriations hearings of the 
State Foreign Ops Subcommittee. We are underfunding democracy 
and governance dramatically. And I appreciate your raising that 
and that is something that I have made a priority in my 
appropriations request this year because, frankly, we send the 
wrong message. And I appreciate Senator Markey raising concerns 
about DRC and their shrinking space for elections. If we do not 
fund our values--and our values essentially are around 
democracy and space for opposition parties and for 
journalists--they draw conclusions.
    Please, if you would, Ms. Etim.
    Ms. Etim. Sure and I know very quickly.
    What else is the core lessons learned? Partnership, 
partnership, partnership: whether it is through other donors 
and other partners, but also bringing in the private sector. As 
you mentioned before, Africa is also a continent of 
opportunities, and we have a diverse set of partners that are 
very interested in stability and stabilization. They can be the 
drivers that help us to fuel and fund these economic 
opportunities that we are talking about for young people, for 
actually making the case to host governments of why inclusion 
policies are important, and of making sure that they are 
working with us to make sure that the international norms are 
seen as something that is not only an imposition from a Western 
government but is something that should be a standard to which 
everybody should aspire. So I think that we have a lot of 
opportunities here through partnering with governments and the 
private sector, but also local communities, making sure that we 
are touching people on the ground where they live and not just 
working with institutions and capitals.
    Senator Coons. I agree with you.
    Senator Isakson raised pointedly the MCC. I was, frankly, 
pleased that Tanzania, because of electoral irregularities and 
failure to really effectively address corruption, suffered a 
really unwelcome setback for them. And this weekend the World 
Economic Forum is in Kigali and a great opportunity for us to 
continue engagement, and the administration is sending 
Ambassador Froman and Fred Hochberg of Ex-Im Bank, among many 
others.
    If you would, might I have the time to have them conclude? 
Thank you. Mr. Siberell?
    Mr. Siberell. Well, I think in general the lessons learned 
in each of these three conflict areas, as you pointed out, is 
that we have in the African continent partners who are willing 
to address the challenges from within the region. So they are 
committed to the solution, and that is something that is maybe 
even unique globally in the way that terrorism issues are being 
addressed. So each of those three examples you provided has the 
neighbors coordinating. It has not been easy. It takes constant 
diplomatic effort to coordinate and keep the momentum in each 
of these areas. But the solution you would want in Somalia is a 
solution that has developed in terms of the troop-contributing 
countries to AMISOM. It is an AU-led mission, the region 
addressing its own problems.
    Of course, the bigger challenge there also is that these 
are governments also that are, generally speaking, in many 
cases weak and poor and lack in capacity. And a sustained 
solution over time that addresses the radicalization and the 
root causes will require improved governance. So it is a long-
term effort here, but the buy-in and the commitment of the 
countries themselves to solving the problem is a virtue in my 
view.
    Senator Coons. Absolutely. I think the fight against 
terrorism across Africa is every bit as urgent and every bit as 
large in scale as it is in the Middle East. A key difference is 
we have allies who are putting their soldiers into the fight. 
African soldiers are fighting and dying against terrorism in 
Somalia, in Nigeria, in Mali, and we are providing critical 
support, training, funding, and resources, but unlike other 
places in the world, we have significant numbers of willing 
allies who are sending their troops into the fight. And it has 
made a real difference, and we should be grateful for their 
partnership.
    And I am grateful for your service and the chance to ask 
questions today. Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to follow up on some of the questions that Senator 
Markey asked regarding the interaction of security assistance 
and assistance provided by the State Department. In 2014, it 
was the first time that DOD funding for security assistance in 
Africa surpassed that provided by the State Department. And it 
comes through a lot of different places, but in particular, a 
rather opaque fund that the Pentagon runs called Building 
Partner Capacity, which is about $10 billion globally, is 
increasingly the source of DOD funds to help promote foreign 
military sales and stand up military capacity.
    And so, Ambassador Thomas-Greenfield, I wanted to ask you 
about to what extent the State Department and the Africa Bureau 
is read into the decisions made at the Department of Defense to 
spend Building Partner Capacity dollars. Again, this is a huge 
amount of money globally, $10 billion, a lot of it spent in 
Africa. To the extent to which you are read in, the extent to 
which individual ambassadors have a say as to how that money is 
spent to make sure that it is not counteracting the work that 
they are doing on the ground, and your broader thoughts on this 
sort of long-term transition away from the majority of money in 
these countries being State Department money to Department of 
Defense money.
    Ambassador Thomas-Greenfield. Thank you for that question.
    We work closely with AFRICOM on any activities that they 
are involved in in Africa. We have an annual strategy review 
meeting with them where our DCMs from across Africa and USAID 
mission directors are invited to come to Stuttgart. I am there. 
My colleague from USAID, Linda Etim, is there as well. And we 
look across the board at what they are planning to do and look 
at what they are planning to do in the context of our mission 
programs in terms of our own strategy. So we do work closely 
with them. Our ambassadors have veto power on any actions that 
they are taking, any programs that they are doing. And in 
general, if there is any disagreement, General Rodriguez and I 
work those disagreements out between ourselves. So we are very 
much in sync with them.
    We wish we had that $10 billion to program on the continent 
of Africa, and we would be doing some different things. They 
have the money, so we want to help them channel that money to 
places where it will make a difference on the continent as we 
work to fight insecurity and terrorism together. But $10 
billion would be a huge contribution to democracy and 
governance. I describe my democracy and governance funding as 
scraping the mayonnaise jar to get just enough to do the job 
that we have to do.
    Senator Murphy. Just tell me how much do you have in 
democracy and governance.
    Ambassador Thomas-Greenfield. Let me get back to you with 
that figure. It is a moving target.
    Senator Murphy. So I would submit that it is probably well 
less than----
    Ambassador Thomas-Greenfield. Oh, yes, it is.
    Senator Murphy.--what the Department of Defense is spending 
in the Building Partner Capacity account which, by the way, is 
not broken down on a country-by-country basis. So as members of 
the Foreign Relations Committee, all we know is that there are 
$10 billion spent at the Department of Defense.
    I am glad that you are optimistic as to the degree of 
coordination that is happening. But for members of the 
Appropriations Committee, it is probably a topic that should 
get more attention.
    Senator Cardin. Would my colleague yield for one second? We 
will give you some extra time.
    I think you are raising a very fundamental point. We have a 
couple members of our committee that serve on Armed Services. 
It has been a growing problem, and as we get to the NDAA bill, 
there is another effort, as the Ambassador already pointed out. 
There may be efforts made to even expand DOD's role in 
traditional State Department areas. It is a matter that I think 
our committee needs to take a look at on a broader scale than 
just Africa.
    Senator Murphy. And, listen, there has obviously been a 
long-term shift of diplomacy away from the State Department to 
the Defense Department. That is happens when you are engaged in 
very dangerous places. But I guess I am not as optimistic as 
the witness is as to the ability to coordinate this work on a 
country-by-country basis.
    Ambassador Thomas-Greenfield. It is an effort. I actually 
have the figures here. We are actually looking at increasing 
that funding in the President's request, increasing support for 
D&G programs in Africa. In fiscal year 2017, the request for 
that sector is 20 percent above what we did in 2015. Our figure 
for 2015 was $286 million, and our figure for our request for 
2016 was $311 million. So it is really a drop in the bucket 
when you compare that to $10 billion.
    Senator Murphy. Listen, it is just another way by which we 
communicate our priorities to these countries. So when we are 
looking at $300 million on a good day in democracy assistance 
and then we are handing out potentially 10 times that amount of 
money in an account that has very little oversight from the 
United States Congress, it tells these countries what we think 
is most important. As part of this balance, it is difficult to 
do when the numbers are that skewed in favor of military and 
security assistance.
    To that end, I do not know exactly who to put this question 
to, but maybe, Mr. Siberell, I will ask it to you and to 
others. In these three conflict zones that we are talking 
about, can you talk a little bit about this mystery, which is 
the attractiveness of a Wahabi-oriented, Salafist Sunni 
ideology amidst areas that are often dominated by Sufi Muslims? 
And the story has to be partially about schools that are on the 
ground, funded by some of our allies in the Middle East. Some 
of it has to do with young men who go to the Middle East to get 
taught in schools funded by our allies in the Middle East. What 
is the level of seriousness about the countries on the ground 
in understanding and trying to tackle this problem of 
radicalization that happens in these Wahabi-funded or Salafist-
oriented schools either in theater or back in the Middle East?
    Mr. Siberell. I think it is a real concern on the part of 
many governments in the region, and we hear that from those 
governments.
    As you pointed out, there are likely a variety or a number 
of different vehicles through which these ideas or this 
ideology penetrates a society. This is not something that is 
limited, unfortunately, to areas of Africa. We see it in 
Southeast Asia. We see it in other places where you have had 
historically kind of an animist approach or an approach to 
religion and faith that is tolerant of other traditions, and 
that is being kind of worn down by this Salafi ideology. And 
then that causes polarization and that causes intolerance. It 
causes even sectarian conflict. And so it is a problem 
globally.
    It also relates probably to the spread of media. People 
have access to media coming from different parts of the world, 
and there have been media funded through--coming out of certain 
regions that have propagated or emphasized a particular view.
    So there are a number of different vehicles, and it is a 
major concern in these countries.
    I think, though, that when we talk about--you have to look 
at the particular circumstances almost at the community and the 
village level sometimes or what are those influences. And that 
is where the very difficult work of countering violent 
extremism will be, will be identifying through research and 
through data understanding of the drivers at a local level. It 
is a very hard issue to address, but especially amidst what is 
really a global phenomenon of the infiltration of this 
particular religious view.
    Senator Murphy. I will just say in handing back my time we 
can spend money chasing these dollars around the world, but we 
are never going to be able to keep up. It is probably a better 
strategy for us to ask about why these dollars are moving into 
areas like Africa out of the Middle East, out of the pockets of 
many of our friends, probably a better use of our time and 
money.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I want to thank our panelists, and I think you can see 
there is a lot of interest in what we had to talk about today. 
If you could, we will have questions, I know, after this, if 
you could respond fairly quickly. We will take questions until 
the close of business on Thursday. But we thank you for your 
service to our country. And if you could with your crew, we 
would like to shift out now to another panel. Thank you very 
much.
    Our second panel will consist of two witnesses. The first 
witness is Mr. Abdoulaye Mar Dieye. Any corrections needed 
there, sir? Okay, thank you. Assistant Administrator and 
Director for the U.N. Development Program, Regional Bureau for 
Africa. Our second witness will be Mr. Christopher Fomunyoh, 
Senior Associate and Regional Director for Central and West 
Africa at the National Democratic Institute.
    We will recognize Mr. Dieye first with his opening 
comments, and if you would follow. We thank you both for 
sharing your expertise and knowledge with us today. Go ahead, 
sir.

 STATEMENT OF ABDOULAYE MAR DIEYE, ASSISTANT ADMINISTRATOR AND 
     DIRECTOR, REGIONAL BUREAU FOR AFRICA, UNITED NATIONS 
            DEVELOPMENT PROGRAM, NEW YORK, NEW YORK

    Mr. Dieye. I am really honored as Director of the Regional 
Bureau for Africa at the United Nations Development Program, 
UNDP, to be invited as a panelist before the U.S. Senate 
Committee on Foreign Relations. This is my very first 
appearance. I have submitted a longer text. So I will try to 
limit my remarks within 5 minutes.
    My purpose today will be twofold. First, I want to briefly 
update you on what we at UNDP have learned about instability in 
Africa, and second, I will share our view on the possible 
developmental approach to mitigate the threats to peace and 
stability in what is often referred to as Africa's arc of 
instability, which encompasses the Sahel, the Lake Chad region, 
and the Horn of Africa.
    But let me, before I start, put a sense of perspective even 
though we are discussing instability in Africa. As one Senator 
stated the continent is doing extremely great. For the last 15 
years, it has grown GDP-wise 5 percent a year since 2000.
    Violent extremism is amongst the major risks to economies 
in parts of Africa. Tunisia's GDP growth has been cut from 3 
percent to 1 percent. Chad's GDP contracted 1 percent in 2015 
from a growth of 5 percent in 2014. And countries like Kenya 
and Nigeria saw a reduction of 25 percent of tourism following 
terrorist attacks. We in UNDP estimate that at least 33,000 
people have died on African soil since 2011 as victims of 
violent extremism, and 6 million are currently internally 
displaced due to radicalization.
    Mr. Chairman, over the last 2 years, UNDP has held a number 
of consultations, conducted a series of studies, and 
commissioned research to better understand the violent 
extremism scourge in Africa. These various studies and research 
converge in showing three major findings.
    One, while the drivers of radicalization are multifaceted 
and defy easy analysis, their major roots are found in the 
combination of poverty and low human development, an endemic 
sense of economic and political exclusion and marginalization, 
and weak social contracts with a high level of societal 
divisions along ethnic or religious lines.
    Two, the most fertile grounds for radicalization are the 
border areas, which are in most of the countries neglected, 
ungoverned, weak governance, and low socioeconomic and 
institutional infrastructure.
    Three, while there are a number of commonalities which 
drive radicalization, there are also some important differences 
between countries. For example, socioeconomic factors tend to 
be the prominent drivers in the Sahel, the Lake Chad Basin, 
Somalia, and Nigeria, whereas political grievances are a much 
more prominent factor in Kenya.
    It is with this research and analysis in mind that UNDP 
embarked on a development-led approach which seeks to address 
the multiple drivers and enablers of radicalization and violent 
extremism.
    We have launched a 4-year regional initiative on preventing 
and responding to violent extremism in Africa, which focuses on 
supporting regional institutions, governments, communities, and 
at-risk individuals to address the drivers and related factors.
    We are working in epicenter countries, in spillover 
countries, and in at-risk countries supporting partners to 
develop and implement integrated regional and national policies 
and strategies, rule of law, community and faith-based 
interventions to prevent youth radicalization and deescalate 
local conflicts. We also promote social cohesion at the 
community level, working with local and national governments to 
provide basic social services to citizens. We support 
employment creation and we work with local governments to 
strengthen public administration and the extension of state 
authority.
    We have learned that well-resourced, comprehensive, and 
integrated programs combining security and development 
responses offer the best approaches to combating violent 
extremism.
    Let me conclude my remarks by emphasizing that for Africa 
to meet its full development potential, preventing and 
responding to violent extremism is key. This will require 
coordinated and collaborative partnerships between governments, 
development partners, and civil groups.
    I thank you.


    [Mr. Dieye's prepared statement is located at the end of 
this hearing transcript.]


    The Chairman. Thank you very much.
    Mr. Fomunyoh? Is that a correct pronouncement?

  STATEMENT OF DR. CHRISTOPHER FOMUNYOH, SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
             DEMOCRATIC INSTITUTE, WASHINGTON, D.C.

    Dr. Fomunyoh. Yes, it is correct, Chairman.
    Mr. Chairman, Ranking Member Cardin, and distinguished 
members of the committee, on behalf of the National Democratic 
Institute, NDI, I appreciate the opportunity to discuss 
terrorism and instability and make the case for why democracy 
and good governance should be a central component of any 
counterterrorism and stabilization strategy in Sub-Saharan 
Africa.
    For more than 30 years, NDI has worked around the world to 
establish and strengthen political and civic organizations, 
safeguard elections, and promote citizen participation, 
openness, and accountability in government. The institute has 
conducted programs in or worked with participants from 
approximately 50 of Africa's 54 countries and I have been 
fortunate to be part of our efforts in many of those countries 
for the past 2 decades.
    Terrorist activity in Sub-Saharan Africa over the past 
decade threatens to destabilize the continent and roll back 
some of the gains in broadening political space and 
participation since the third wave of democratization that 
began in the 1990s. Groups such as Boko Haram in northeastern 
Nigeria and the Lake Chad Basin, Al Qaeda in the Islamic 
Maghreb in northern Mali and the Sahel, and Al Shabaab in 
Somalia and the Horn of Africa have caused tens of thousands of 
deaths and tremendous economic and social dislocations for 
civilian populations. Some of these extremist organizations 
operating in Africa are eager to establish alliances with 
violent extremist organizations in other parts of the world, 
notably Al Qaeda and the Islamic State of Iraq and Syria, ISIS. 
The international community is right in supporting 
counterterrorism efforts that seek to defeat these extremist 
groups militarily and must, at the same time, assist the 
affected countries to address the root causes and triggers of 
the rise in extremism and violence.
    The principal motivation of today's terrorists in Sub-
Saharan Africa is deeply rooted in a pattern of religious 
beliefs. However, it is noteworthy that governance failures 
have exacerbated the impact of this phenomenon and created an 
enabling environment in which extremism thrives. When a state 
collapses, as was the case with Somalia prior to the emergence 
of Al Shabaab, or allows for huge swaths of ungovernable 
spaces, as was the case in northern Mali, or fails to fulfill 
its basic purpose of providing citizens with access to a 
meaningful life, liberty, and property as in northeastern 
Nigeria, the social contract between the state and the 
citizenry is broken. Discontent with governments that are 
viewed as illegitimate or ineffective is a fertile ground for 
recruitment as disaffected individuals may easily embrace 
extremism hoping to access a better life, political power or 
voice, and the resources linked to these attributes in 
transition environments. Moreover, oppressed citizens and 
marginalized groups that are denied access to basic public 
goods and services and opportunities are more vulnerable to 
extremist appeals and indoctrination by non-state actors who in 
return promise to fulfill their needs.
    Efforts to counter violent extremism and terrorism in Sub-
Saharan Africa must, therefore, address poor governance as a 
part of the overall strategy. Based on institutional lessons 
learned through NDI's work, my own experience and expertise as 
an African, and what I hear loud and clear from African 
democrats, leaders and activists alike, across the continent, I 
will strongly offer the following three recommendations for 
your consideration.
    Any counterterrorism strategy for Africa should be grounded 
in the consolidation of democracy and good governance such that 
short-term military victories can be sustained in the medium to 
long term. We cannot afford to defeat violent extremism now 
only to take up the same fight 5, 10 years down the road.
    Two, autocratic regimes should not get a pass from the 
international community solely because they are good partners 
in the fight against terrorism. Shrinking political space, 
frequent and overt violations of citizen rights and freedoms, 
and the undermining of constitutional rule and meaningful 
elections breed discontent and disaffection that form the 
fertile ground for recruiters and perpetrators of violence and 
extremism. Good partners in countering violent extremism and 
terrorism can and should be good performers in democratic 
governance. These two principles are not mutually exclusive. In 
fact, they are mutually reinforcing.
    Africans of this generation are jittery and extremely 
fearful of reliving the experience of the Cold War era during 
which dictatorships thrived amidst grave human deprivation and 
gross human rights abuses just because some leaders were allies 
of the West at the time. The fight against terrorism should not 
become a substitute for the Cold War paradigm of this century 
with regard to Sub-Saharan Africa.
    Democratic governance is critical to every counterterrorism 
strategy before, so citizen grievances are not allowed to 
fester and breed extremism, dissatisfaction, and alienation 
from the state; during, to deprive extremists of possible 
recruitment grounds; and after, to sustain the peace that would 
have been gained militarily for the medium to long term. 
Excessive deprivation in both economic terms and in access to 
political voice, freedoms, and civil liberties make young 
people vulnerable to the recruitment incentives of extremist 
movements.
    To conclude, let me say that despite the enthusiasm of a 
few years ago and some remarkable accomplishments in the last 2 
decades, democracy and democratic governance in Africa is under 
attack. On the one hand, it is challenged by external threats 
from extremist terrorist organizations and, on the other hand, 
in some cases, by internal threats from autocratic regimes that 
fail to deliver public services, combat corruption, and protect 
rights and freedoms. The international community should do 
everything in its power to help rid the continent of both 
existential threats. Friends of Africa must make sure that they 
do not, willingly or inadvertently allow themselves to become 
accomplices in denying Africans their basic rights and freedoms 
and a secure, prosperous future.
    Thank you, Mr. Chairman and members of the committee, for 
this opportunity. This is a brief summary of my statement, and 
a longer statement will be submitted for the record.
    The Chairman. Without objection, it will be entered into 
the record.


    [Dr. Fomunyoh's prepared statement is located at the end of 
this hearing transcript.]


    The Chairman. We thank you both for your testimony.
    And I want to turn to our distinguished ranking member, 
Senator Cardin.
    Senator Cardin. I want to thank both of you for your oral 
presentations, as well as your full statements that are being 
made part of our record. I have had a chance to look through 
it, and it certainly reinforces the concerns that I have had. 
So I want to get a little bit more granular here.
    Both of you mentioned the importance of the underlying 
causes of radicalization, and although we have to deal with the 
immediate issues, if we do not deal with the underlying causes, 
it will be short-term success.
    We have incredible tools. UNDP is an incredibly important 
part of our international efforts to help develop the 
prosperity in countries that we hope would provide the long-
term stability. NDI has done incredible service in developing 
democratic opportunities around the globe. And of course, the 
United States and our development assistance and our security 
assistance--these are tools that can provide incredible 
opportunities for stability globally. And yet, we point out 
that in Sub-Saharan Africa we have not been as successful as we 
need to be.
    So, therefore, my question to both of you, what has worked 
that we should build on? I see your specific recommendations. I 
understand. Incorporate good governance, deal with education, 
deal with the underlying economic issues. But how do you take 
the current programs that are available either through the 
United Nations or through private organizations or through 
government--how do you take those programs and build on the 
ones that are the most relevant to the stability of Sub-Saharan 
Africa? And what programs need to be reconfigured because they 
are not providing the returns for the investments that are 
being made? Can we be a little more specific here?
    Mr. Dieye. Thank you, Senator.
    Let me first say that when I was listening to the previous 
panel, what you said was music to my ears. And you said that it 
boils down to good governance. This is the fight that we are 
doing first in Africa, but in UNDP. The major portfolio of UNDP 
is good governance. And in these countries, we have seen that 
poor governance, and ungoverned spaces, have been the major 
root causes of not only on the development but the insecurity 
that we are seeing in the continent.
    And you are right. We have good practices. The issue that 
we are seeing here is that most of these countries have very 
limited fiscal space and hence cannot deliver to scale the good 
practices that we are doing. I think the solution is, number 
one, not only limit ourselves to military solutions, but blend 
them, military and human rights and then development. But the 
good practices that we are having, put them to scale. And to do 
so, I think we, the international community, have to understand 
that the issue of terrorism is a global public bad, and these 
countries with limited fiscal space cannot do it alone. In the 
spirit of partnership, we can scale up the good practices.
    I am just coming from Kenya and Ethiopia where I saw an 
excellent partnership between the two countries in the Marsabit 
region where they are doing cross-border initiatives. We have 
not discussed it a lot during the first panel. It is at the 
border that we see problems. So if we invest in creating 
resilience for communities at the border areas, we could have 
beneficial results. And I think with good funding, we can scale 
up those excellent initiatives.
    Dr. Fomunyoh. Senator, the National Democratic Institute, 
obviously, does not have the luxury of governmental entities 
such as USAID or the Department of State or even a 
multinational organization such as UNDP. But with the resources 
that we have always received graciously from some of these 
agencies, we have tried to put a lot of emphasis on developing 
civil society because when you look at statistics or the 
studies done by organizations such as Afrobarometer--and I 
referenced that in my written statement--75 percent of Africans 
aspire to live in democratic societies, believe in democracy. 
And so the demand for democracy and good governance continues 
to arise on the continent.
    Unfortunately, the supply is shrinking. And so programs 
that can allow the expansion of political space would bring 
more citizens into the process. It would also allow the 
citizens to advocate for the proper management of resources 
that are channeled to governments or that are created within 
these countries.
    And so I would put a lot more emphasis on strengthening 
civil society, strengthening citizen-based organizations 
because some of them are very active, especially even including 
in rural areas and some of the areas that have been impacted by 
these grievances. I understand that in northeastern Nigeria, 
for example, there are a number groups that are engaging with 
internally displaced persons that are engaging with some of the 
people that are dealing with trauma and some of the impacts of 
Boko Haram, and organizations such as those sometimes have 
received support from NDI and other organizations in helping 
build their capacity to be effective advocates on behalf of 
citizens.
    Senator Cardin. I agree with both the points you made. I 
think border issues are--it is a good point and we need to 
concentrate. They are more complicated because the problems can 
go across borders, and therefore, the country--we are not sure 
what host country is responsible. Unless you have partnerships 
between the two countries, it makes it complicated and 
difficult.
    And I certainly agree with you on civil society. I think 
civil society is a critical factor in good governance, and if 
you do not have a healthy civil society, it breeds these 
problems.
    Let me try to get to a third point for your view on that, 
and that is the reality or perception that you can get a free 
pass from the United Nations or from the United States if you 
are working with the international coalition to counter 
terrorism and that what you do internal in your country will 
not really be of major importance to the international 
participation and support. That to me, whether it is real or 
perceived, could be a huge problem in dealing with civil 
society or dealing with good governance or dealing with 
democratic institutional development.
    Just share with me your concern as to whether the leaders 
of countries that are working with us have the view that the 
international community will give them a free pass on 
governance issues as long as they are part of our coalition 
against violent extremism.
    Mr. Dieye. Thank you, Senator.
    For us human rights is the bedrock of whatever we do and it 
is not negotiable.
    Senator Cardin. So you are willing to pull out of a country 
if you cannot get the cooperation you need from their leaders?
    Mr. Dieye. What we do is we support capacity building.
    Senator Cardin. I understand that, but are you willing to 
pull out of a country--if you said it is the bedrock, it is the 
most important point, if you have a corrupt regime and you are 
doing some good work in that country, but at least part of that 
is going to support a corrupt regime, are you prepared to pull 
out?
    Mr. Dieye. When you pull out, there is a cost to the 
communities served. So what we do is make a strong 
declaration--the Secretary-General and the High Commissioner of 
Human Rights make these kind of strong declarations. And I 
think we as the U.N. could be better off to support the 
capacities and support communities and help countries deal with 
human rights. This is a voice that we have to put strongly. But 
whatever we do, human rights is embedded in our programs. So it 
is a culture we have to infuse into societies and into 
government. It takes time. It may not happen overnight, but it 
is embedded in all of what we do.
    Dr. Fomunyoh. Senator, I would say that the perception is 
real and that you hear it as you travel across the continent 
even with partner organizations within civil society that when 
you go through the list of countries that have become poor 
performance, some that were initially on a positive trajectory 
but that have been backsliding, that those countries 
coincidentally happen to be partners in the fight against 
terrorism. And it is a perception that then undermines all of 
the declarations and all of the work that has been done to 
support civil society in the past.
    The example that you raised earlier about Ethiopia is very 
clear. It is obvious that Ethiopia has been backsliding on the 
democratic governance front, but it is still viewed as a good 
ally. And what many civic leaders then pose is the question of 
whether these regimes are getting a pass solely because of 
their cooperation on that front, whereas these two undertakings 
are really mutually reinforcing, and you could be a good 
partner on the counterterrorism front and still be a good 
performer on the democratic governance front.
    Senator Cardin. Well, I agree. It is not a choice of 
either/or. It has got to be both. There is no question because 
otherwise, again, you get short-term gains, but long term you 
are not going to succeed with the type of stability that will 
provide not only an opportunity for its citizens but also 
eliminate the gap that is used for recruitment of extremists. 
So you got to do both.
    And I am afraid that we have focused on the 
counterterrorism from a military point of view with partners at 
times to the exclusion of dealing with the development of good 
governance in a country. It seems like this hearing has only 
put a spotlight on that. So hopefully we can figure that out.
    And just in response to the U.N., you have got to be 
prepared to walk away if you do not have a partner that is 
providing a fair opportunity to the people of their country. 
And it is sometimes difficult because you know that there are 
needs out there that you have to deal with, but if it is not 
getting through and if it is supporting corruption, then the 
better alternative is to look for a new opportunity rather than 
continuing the existing partnership.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Now, what he just said, though, is unlikely to ever occur. 
Is it not? Let us just be honest with each other.
    Mr. Dieye. Do you want me to answer that?
    The Chairman. I think you answered with your laugh, but it 
is not going to occur. Is it?
    Mr. Dieye. But there is way--a suboptimal way of doing it 
is not to walk away from a country but go to the communities 
and invest in the communities. We say it is rebuilding the 
social contract, empowering the communities for them also to 
fight for human rights. So that is an investment I think is 
worth doing.
    Senator Cardin. And just to underscore the point, look, we 
always look for a way of providing humanitarian help. We always 
look for a way to deal with the human crisis that exists. But 
if the host country believes that they are always going to have 
a partner regardless of their own activities, you lose the 
ability to change the underlying problems within that country.
    The Chairman. You know, the first panel was here and we 
went down this same line of discussion. There is no question--
is there--that the fact that citizens understand that we are 
going to hang in there because the terrorism issue is acute, 
the other issues are longer-term--they know that we are going 
to hang in there with them on the counterterrorism piece. There 
is no question as they see malfeasance relative to governance 
and other issues that that creates ill will towards the United 
States. Is there?
    Dr. Fomunyoh. Obviously, it creates a lot of doubts in the 
minds of the people, and we are also dealing with a segment of 
the population that is only going to increase. It is the young 
people. It is the activists. It is the journalists. And we know 
that Africa is a young continent. So the bulk of the population 
is in this category of people who aspire to be governed 
differently, who aspire to democracy, and who love and respect 
the United States for these values. And they are the ones being 
put in the position of askance when government enacts anti-
terrorism legislation that has been used to shrink political 
space and silence voices. And so we end up not creating friends 
with the segment of the population that is the continent of the 
future.
    The Chairman. And that spurs, by the way, a magnet for 
folks to be attracted more so to terrorism. Right? So it just 
feeds on each other.
    Let us just step back. We all understand there is a 
presidential race underway. And we understand--those of us here 
understand--that we spend 1 percent of our U.S. budget on 
foreign aid. 1 percent. But there is no question that during 
the presidential race, there will be discussions about foreign 
aid. I mean, I do not think that is possible for that not to 
occur. And so people listening to this testimony today, 
listening to the fact that we are, on one hand, dealing with 
corrupt leaders that are not treating their populations 
properly, sending them money that in many ways keeps them in 
power, and if they partner with us on counterterrorism, even 
more so. On the other hand, we have terrorism. We have people 
that are being treated unfairly. And we actually have one of 
our committee members here that constantly is focused on this 
issue.
    So just stepping back and as we debate our Nation's fiscal 
issues and our Nation's interest, which I think maybe more so 
in this presidential year may be discussed than at times in the 
past, if you would, both of you, advocate to me why you believe 
that our continued involvements in countries like the ones we 
are discussing is an important thing for the United States to 
be doing.
    Mr. Dieye. Well, Mr. Chairman, simply put, as I said 
earlier, although terrorism could be generated by poor 
governance in a country, it is a global public good or a global 
public bad. It belongs to all the international community. That 
is why it behooves us as the international community to fight 
them wherever they are.
    I am not saying that we should give a free pass, but we 
have to fight it and fight also the root causes. That is why 
foreign aid is still critical, catalytic, and important in this 
fight.
    Dr. Fomunyoh. Mr. Chairman, I agree with what my co-
panelist just said, and I will simply add that in many of these 
countries American lives, American interests are also at stake. 
We may remember the initial bombings of embassies in Kenya and 
in Tanzania, that the terrorists did target American 
institutions, embassies, and a lot of Americans died in that 
process. And so terrorists are a threat to Americans whether 
they are on the homeland or trying to operate overseas because 
their ultimate goal is probably larger targets than the 
villages that get destroyed in a number of African countries. 
And so I think it is important to send forth the message that a 
stitch in time is worth nine and that we are all threatened by 
this phenomenon irrespective of where it finds itself at the 
present moment.
    The Chairman. But I think that the challenge--you know, I 
think some of the debate around--let us go to the Middle East--
ISIS and people act as if we are going to do away with ISIS in 
the next year or 2--are missing the fact that the root causes 
are long long-term--a long long-term--issue.
    The same is true in Africa. The root causes there are a 
long-term issue. And I think as Americans look at the resources 
that we have and the needs within our own country, sometimes 
the simple thought that we can deal with terrorism like that 
and maybe the lack of understanding that there are root causes 
within Africa, within the Middle East that are going to mean 
that if this group is gone, another group is going to be coming 
right behind it unless we are dealing with both sides of the 
equation. I think people in many cases miss that point because 
of the dialogue that is taking place. Would you all agree or 
disagree with that?
    Mr. Dieye. Absolutely, Mr. Chairman. It is not instant 
coffee dealing with the root causes of terrorism. It has 
started years ago. It will take some more years to deal with. 
And as we said earlier, it is the toxic combination of poor 
governance, low human development, and weak social contracts 
that has created this. And this will take time to deal with. It 
is a long-term investment. And again, if we put scale into that 
long-term investment and combine it with good security--
security has to be still there--I think we will win over time. 
But it will take time. It is not an instant coffee battle in my 
view.
    Dr. Fomunyoh. I agree with you, Mr. Chairman. And I think 
that the message can also be conveyed that, first, you have to 
stop the bleeding and then you can use democracy and good 
governance to build up a lot of the societies in a lot of these 
countries. And the example that I have used in the past with 
regard to the Sahel, for example, is the difference that 
democracy and good governance made in the situation of two 
countries that were both bordering countries to Libya but that 
dealt with the post-Libya crisis in a very different fashion.
    Mali was being poorly governed. The government was accused 
of being very corrupt, of maltreating minorities, the Tuareg 
minorities, in northern Mali, marginalizing them and causing a 
lot of grievances. It was not able to control its borders, and 
there was a lot of illicit activities already taking place in 
northern Mali prior to the terrorist attacks that really peaked 
in 2012.
    On the other hand, Niger Republic, which is a neighboring 
country to Mali and which even shares a direct border with 
Libya, because the government had better control of its 
borders, because the government had come up with a policy to 
integrate the Tuaregs of Niger into its governance processes, 
because the Government of Niger was dealing with 
disinternalization and allowing people at the grass roots level 
to make decisions that impact their lives directly, Niger was 
better able to deal with the after effect of the Libyan crisis 
than Mali. And until today, Niger is not a very wealthy 
country, but it is surviving in a neighborhood that is infested 
by terrorists to its northern border with Libya, to its 
northeastern border with northern Mali, and to its southern 
border with northeastern Nigeria. And Niger is to be commended 
for its effort. This is one example where an African country 
that is not necessarily resource-endowed is better able to 
manage its economic resources and its human capital in a way 
that gives people confidence that the government can respond to 
citizen needs and grievances and the country is still doing 
well today.
    The Chairman. Well, thank you. We are way beyond time. If I 
could just ask one last question.
    This is a little bit off topic, but we had a really sort of 
harrowing hearing, if you will, about U.N. peacekeepers and the 
abuses that are taking place. And I would just like to ask in 
closing when this is happening, what does that also do relative 
to populations and their feelings about people who are working 
with them to keep peace, but also, how does that fuel, if it 
does--how does that fuel additional attraction to terrorist 
groups?
    Mr. Dieye. It is a horrible situation. It is not a wide-
scale phenomenon but horrible. Whenever it happens, it puts 
discredit on the good work that other soldiers are doing and 
even at large. And you have seen the Secretary-General condemn 
it strongly.
    The Chairman. He condemns, but it still happens. And we see 
almost no action taken against peacekeepers. So condemning it 
does not mean anything to me.
    Mr. Dieye. He has condemned it when it happened lately in 
Africa. He has dismissed the head of the mission. He has named 
the countries where the soldiers--the perpetrators are coming.
    The Chairman. Who has gone to jail?
    Mr. Dieye. I think it behooves us to prosecute those 
soldiers.
    The Chairman. Who has gone to jail?
    Mr. Dieye. And I think once the Secretary-General has named 
those countries whose soldiers have done it, it behooves the 
countries to prosecute----
    The Chairman. You understand from my perspective that would 
be like us naming the terrorists as bad guys but doing nothing 
about it.
    Mr. Dieye. And the Secretary-General has also nominated 
lately a special coordinator, Jane Lute from the U.S., to 
coordinate the efforts of the U.N. to address this despicable 
and malign acts that should not happen.
    The Chairman. Prosecutions are what will end it, not naming 
people, not naming countries, not----
    Mr. Dieye. But, Mr. Chair, you would know that the U.N. has 
no space for prosecuting soldiers given by contributing 
countries. That is why I said it behooves those countries to do 
the prosecution once they are named.
    The Chairman. Yes.
    Senator Cardin. If I might, I want to just join with the 
chairman. I am not satisfied that the United Nations has done 
everything it needs to do. I understand you do not have 
independent ability to do that, and I understand you have the 
politics of dealing with all your member states. But with the 
peacekeepers, it was very, very late in the game, and the 
action was not adequate. We know that the Secretary-General is 
very sincere, and we know that the Security Council has taken 
action. But we have not seen the type of enforcement that we 
expect.
    And I think the same thing is true with the various 
programs under the United Nations. That is, the development 
programs are critically important. But if you are not prepared 
to break your partnership with a corrupt regime, then I think 
you are doing a disservice. I understand the humanitarian 
needs. I understand dealing with particularly NGO types where 
we can do direct humanitarian service. But contracts with 
governments that are corrupt need to be prepared to walk away 
if we cannot get the type of progress. We do not expect 
progress overnight.
    So if I can, Mr. Chairman, with your patience, just one 
quick question to Mr. Fomunyoh, and that is, what would you 
like to see the United States do in order to respond to the 
perception that we give free passes to coalition partners in 
regards to their human rights violations? Is there something 
specific you would like to see us do?
    Dr. Fomunyoh. Senator, I think you touched on some of those 
issues in the first panel. I think speaking out more publicly 
against some of these violations, but also taking actions that 
can assure or reassure the vast majority of Africans in these 
countries that when the United States says that democracy is 
one of its core pillars of its Africa policy, that it really 
means it so that there is not a sense of leaders acting with 
impunity even at the highest level because then it undermines 
everything else.
    I would also mention what you discussed in terms of 
resources, additional resources for democracy and good 
governance programs or democracy support programs and also a 
sense that these programs to be effective, because you are 
talking about changing attitudes and changing behaviors and 
dealing with people who have acted one way for decades and who 
now need to act differently, that a sustained level of support 
is more likely to pay dividends than short-term, surgical-type 
interventions because you need time to be able to create 
relationships of trust. You need time for people to trust that 
your technical assistance is nonpartisan and means well in 
terms of raising the well-being of citizens and putting in 
place systems and processes that can endure beyond one 
government or one leader. And that requires time and sustained 
resources. I think that will go a long way because, 
fortunately, for the 3 decades that NDI and the International 
Republican Institute, and IFS, and other organizations have 
been doing this line of work, we have established the 
relationships in these countries that could have a huge impact 
if the resources were available.
    Senator Cardin. Thank you.
    I thank you, Mr. Chairman.
    The Chairman. No, thank you.
    And thank you, Mr. Dieye. I know this is not your--speaking 
up regarding the U.N., it was not your area of expertise nor 
purview. And I appreciate it. But I think you can understand 
none of us at the panel are particularly thrilled with the way 
the U.N. has handled the peacekeeping issues and prosecuted. 
Calls for prosecution should take place.
    Let me just close with this. Look, certainly this hearing 
has given us a good sense of the complexities that exist. We 
have similar complexities in the Middle East where we are 
dealing with countries that leave these vacuums, discriminate 
against various sects that are not of their own. And so this is 
a challenge we have throughout the world when we are dealing 
with issues like this.
    But we thank you for your focus today on Africa. As you 
heard me mention in the last panel, if you would, there will be 
some questions from members in writing. We will close that as 
of Thursday afternoon. If you could respond fairly briefly, we 
would appreciate it. We thank you both for your expertise and 
knowledge and your willingness to share it with us today.
    And with that, the meeting is adjourned. Thank you.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

                     Witnesses' Prepared Statements

           Joint Prepared Statement Submitted by Hon. Linda 
                 Thomas-Greenfield and Justin Siberell

    Thank you, Chairman Corker, Ranking Member Cardin, and members of 
the committee, for the opportunity to testify on sources of instability 
in Africa and our ongoing work with our African partners to address 
these challenges.
    The United States is committed to partnering with the people and 
governments of Africa to promote democracy, peace and prosperity. 
Africa is home to the world's youngest and fastest growing population. 
It presents significant opportunities for transformation and growth as 
well as significant challenges. The overall trends in sub-Saharan 
Africa point to accelerated democratization, development, and economic 
opportunity. Serious and seemingly intractable conflicts in Angola, 
Liberia, Cote d'Ivoire, and Sierra Leone have ended and those countries 
are in the process of rebuilding. We have seen several significant 
electoral successes during the past year. Although Africa remains the 
world's least developed continent, average real per capita income has 
been increasing steadily over the last decade and a half and the middle 
class is slowly growing.
    However, in spite of these positive trends, instability and 
conflict persist in parts of the continent. This instability has a 
direct bearing on U.S. national interests and those of our closest 
allies. Poorly governed localities have been and remain a breeding 
ground for extremists that seek to do us harm. Underlining the scale of 
the stability challenges facing Africa, eight of the ten largest United 
Nations (UN) peacekeeping missions in the world are currently deployed 
in Sub- Saharan Africa. Added to these, the African Union Mission in 
Somalia (AMISOM) is the largest peace support mission in the world.
    In response, Africa's leaders have intensified individual and 
collective efforts to address these challenges and take greater 
ownership of their own security. The African Union (AU), sub-regional 
organizations and individual African governments are taking important 
roles in addressing security and political challenges in Africa. 
African governments are deploying forces for regional missions to 
counter terrorism, promote stability, and support post-conflict 
peacebuilding. They are also working to better organize themselves to 
confront persistent challenges that require multi-faceted solutions. A 
recent manifestation of this drive for stronger regional coordination 
and integration is the formation of the G-5 Sahel in 2014 by Burkina 
Faso, Chad, Mali, Mauritania and Niger.
    The United States is pursuing comprehensive and coordinated whole-
of- government approaches to help our African partners build and 
sustain their security capacity and cooperation. The drivers of 
conflict and instability in Africa are diverse, and our approach to 
these threats reflects a range of perspectives, priorities and 
capabilities. Military, intelligence and law enforcement tools are 
vital to defend against a range of threats, but cannot replace robust 
diplomacy and engagements promoting broad-based economic and political 
opportunity. We must work with our partners, including civil society, 
to address the root causes of conflict, strengthen accountability, and 
promote good governance. Stability in Africa ultimately requires 
leaders with the will and the capacity to respond to the needs and 
aspirations of their people.
               countering terrorism and violent extremism
    Terrorism and violent extremism are major sources of instability in 
Africa. Terrorist organizations such as al-Shabaab, Boko Haram (which 
now calls itself the Islamic State in West Africa), al-Qaeda in the 
Islamic Maghreb (AQIM), and al-Murabitoun are conducting asymmetric 
campaigns that cause significant loss of innocent life and create 
potentially long-term humanitarian crises. They are adept at exploiting 
state fragility and political and economic vulnerabilities. Terrorists 
gain an advantage when security forces and border guards lack the 
necessary leadership, training, equipment, intelligence, and mobility 
to disrupt their activities. They also gain an advantage when security 
forces fail to carry out operations in accordance with international 
human rights standards. When governments break the bond of trust and 
fail to protect civilians, terrorists can and do exploit these actions 
and feed their narrative.
    Terrorists and criminal organizations also take advantage of weak 
and corrupt criminal justice systems unable to effectively investigate, 
prosecute, and incarcerate criminals. Violent extremist ideology and 
tactics may be alien and illegitimate to the vast majority of Africans, 
but individuals and communities are increasingly vulnerable to 
recruitment by violent extremists in a growing number of locales over 
the last decade. While the motives for tolerating, or for joining, 
violent extremist activities are complex, overlapping, and context-
specific, we see violent extremists focusing their recruitment efforts 
where there is a lack of education and economic opportunity, political 
and social alienation, poor governance, corruption of elites, and lack 
of accountability for abuses by security forces. These terrorist groups 
use increasingly sophisticated means to exploit these weaknesses on 
social media developing and propagating violent extremist messaging and 
narratives.
    In the Lake Chad Basin region, despite significant progress over 
the past year--due in large part to bolstered Nigerian and regional 
efforts--more work remains to end the savage atrocities and ongoing 
violence perpetrated by Boko Haram. Boko Haram, which declared its 
affiliation with ISIL in 2015, conducts recurring attacks in 
northeastern Nigeria and the neighboring countries of Cameroon, Chad, 
and Niger, and they have increased the ghastly practice of forcing 
women and children to act as human bombs. The conflict has affected the 
lives of communities across the Lake Chad Basin region, with some 2.6 
million internally displaced persons (IDPs) and nearly 170,000 Nigerian 
refugees forced to flee their country. Since 2009, the conflict has 
caused approximately 18,000 deaths.
    In the Sahel, AQIM and al-Murabitoun continue to operate in parts 
of northern Mali and along the border corridor between Mali, Niger, and 
Libya. In recent months, they have responded to military pressure by 
turning to more asymmetric tactics. They have increased high-profile 
attacks against so-called ``soft targets,'' including a series of 
attacks against international hotels, cafes, and resorts in Burkina 
Faso, Mali and Cote d'Ivoire.
    In East Africa, al-Shabaab last year became increasingly aggressive 
in conducting large-scale attacks against African Union Mission to 
Somalia (AMISOM) forward operating bases and a range of targets 
throughout Somalia. In 2015, al-Shabaab also launched a series of 
attacks across the border in northern Kenya, including one against a 
university in Garissa that left nearly 150 people dead. Al-Shabaab 
reportedly maintains a network of operatives and recruiters across the 
wider region who seek to exploit long-standing divisions between 
communities and security forces along the Swahili Coast.
    We are concerned about the risk that the presence and potential 
expansion of the Islamic State of Iraq and the Levant (ISIL) on the 
continent will grow. As we have seen elsewhere in the world, ISIL seeks 
to co-opt existing terrorist groups, as well as local insurgencies and 
conflicts to expand its network and advance its agenda.
    As President Obama has said, effectively addressing evolving 
terrorism challenges requires strong, capable, and diverse partners who 
have both the political will and the ability to disrupt and degrade 
terrorist networks. Over the past several years, we have seen African 
governments and African communities come together and show leadership 
in fighting terrorist groups. In Somalia, AMISOM and the Somali 
National Army have pushed al-Shabaab from some of its major strongholds 
and supported efforts by the Federal Government of Somalia to promote 
stability, but significant shortfalls to stability remain in Somalia. 
In the Lake Chad Basin region, military forces have undertaken to work 
together through the Multinational Joint Task Force (MNJTF) to counter 
Boko Haram. Similarly, forces from eleven Economic Community of West 
African States (ECOWAS) states initially responded to the security 
crisis in Mali and worked alongside the French military to destroy 
terrorist safe havens in northern Mali and provide the stability 
required for the peace process to advance. We recognize that progress 
has been made, but more needs to be done to maintain momentum against 
evolving and adaptive terrorist threats that exist across the 
continent.
    The United States seeks to promote comprehensive, whole-of-
government capabilities to respond to terrorism. Our primary multi-year 
mechanisms for promoting coordinated multi-year interagency approaches 
are the Partnership for Regional East Africa Counterterrorism (PREACT) 
and, in West Africa, the Trans-Sahara Counterterrorism Partnership 
(TSCTP). Led by the State Department, USAID, and the Department of 
Defense, PREACT and TSCTP advance U.S. law enforcement, military, 
development, and public diplomacy expertise and resources to support 
the efforts of willing regional partners to build and sustain their own 
CT capability. Through PREACT, TSCTP, and related initiatives, the 
United States uses a wide range of tools and programs to build capacity 
and assist regional CT efforts. Areas of support include: (1) enabling 
and enhancing the capacity of African militaries to conduct CT 
operations; (2) improving the ability of military and civilian security 
services to operate regionally and collaboratively on CT efforts; (3) 
enhancing individual nations' border security capacity to monitor, 
restrain, and interdict terrorist movements; (4) strengthening the rule 
of law, including access to justice, and law enforcement's ability to 
detect, disrupt, investigate, and prosecute terrorist activity; and (5) 
reducing the limited sympathy and support among communities for violent 
extremism.
    While military efforts remain critical, the success of 
counterterrorism efforts in Africa depends fundamentally upon capable 
and responsible civilian partners--police, prosecutors, judges, prison 
officials, religious and community leaders--who can help address 
terrorism through a sustainable framework that advances rule of law and 
respect for human rights. In that regard, we seek to increase our 
capacity-building support for law enforcement, judicial, and other 
criminal justice sector institutions. We greatly appreciate the funding 
provided by Congress in Fiscal Year 2016 for the Counterterrorism 
Partnerships Fund (CTPF). We expect to use this funding to 
significantly expand our civilian counterterrorism assistance for law 
enforcement and justice sector efforts in several key African 
countries.
    At the same time, the State Department and USAID are increasing our 
focus on preventing the spread of violent extremism in the first 
place--to stop the recruitment, radicalization and mobilization of 
people, especially young people, to engage in terrorist activities.
    In February 2015, President Obama convened the White House 
Countering Violent Extremism (CVE) Summit, which brought together over 
60 countries, 12 multilateral bodies, and representatives from civil 
society, business, and the religious community. This was followed by 
locally-hosted regional summits that advanced the conversation with 
more African stakeholders, including in Kenya and Mauritania. The CVE 
summit process sparked a broad-based effort to better understand and 
address the factors that drive radicalization and recruitment to 
violence within specific communities and called for a more integrated 
and holistic approach with a broader array of actors--government and 
non-government.
    As such, we are expanding engagement with African governmental and 
non-governmental partners to better understand the drivers of violent 
extremism and design effective responses. We are working closely with 
government partners--at both the national and sub-national level--to 
adopt more effective policies to prevent the spread of violent 
extremism. This includes promoting greater trust and partnership 
between communities and law enforcement--a key area that contributes to 
resilience against violent extremism.
    As we announced during President Obama's visit to East Africa last 
year, the United States is providing over $40 million in FY 2015 
assistance for expanded programs to help counter and prevent the spread 
of violent extremism in East Africa. Since then, State and USAID have 
analyzed the underlying drivers of violent extremism and are employing 
a new approach to programming pooled funds to incentivize collaborative 
problem diagnosis and integrated program design. To better understand 
al-Shabaab's efforts to recruit and expand in areas beyond its control, 
we studied communities at greatest risk to identify key factors that 
contribute to both their vulnerability and resilience to violent 
extremism. We are expanding ongoing USAID programs and designing new 
programs tailored to address those factors and provide funding to 
actors in government best suited to do the job. Further to this, the 
President's FY 2017 budget request includes increased resources for 
CVE, including an additional $59 million as part of the overall request 
for the CTPF. These resources would enable us to expand programs in 
Africa to engage high-risk communities and youth susceptible to violent 
extremist recruitment.
    Our approach to supporting regional efforts to counter Boko Haram 
provides an excellent example of how we pursue a comprehensive, multi-
sector approach to help address terrorism on the continent. Our ongoing 
programs for victim support, CVE, and humanitarian assistance provide 
advisors, intelligence, training, logistical support, and equipment. 
Specifically, the Department of State is providing $71 million worth of 
equipment, logistics support, and training, including human rights 
training, to the countries participating in the Multinational Joint 
Task Force (MNJTF)--Benin, Cameroon, Chad, Niger, and Nigeria. In 
addition, in September 2015, the administration directed the use of up 
to $45 million in support under the Presidential Drawdown authority to 
provide airlift, training, and equipment. We are also providing 
training and equipment--through a $40 million Global Security 
Contingency Fund program--to build cooperation and capacity across 
regional military and law enforcement forces to enhance border security 
and disrupt terrorist transit.
    These counter-Boko Haram efforts reflect our understanding that 
security measures alone will never be sufficient. The Department of 
State is also expanding support for law enforcement forces to conduct 
investigations and respond to attacks, especially attacks that involve 
suicide bombings and improvised explosive devices. We must help our 
partners to establish effective criminal justice institutions to handle 
terrorism cases in a rule of law framework. That is why we have 
deployed Department of Justice legal advisors to assist legislators, 
prosecutors, judges, and corrections officials. Furthermore, we must 
help countries to make progress in stabilizing liberated areas, improve 
delivery of government services, and reducing support for violent 
extremism. With USAID's leadership, we are expanding support for 
programs to strengthen governance and mitigate conflict in areas 
threatened by Boko Haram. In Nigeria and Niger specifically the Office 
of Transition Initiatives is working to improve governments' 
responsiveness to citizens' expectations and increasing civic 
engagement with governing authorities. In Nigeria, we are also advising 
the government on developing a reconstruction and long-term development 
plan for the northeast, and USAID is delivering urgent education 
services to IDPs and conflict-affected communities in the northeast.
    We are also responding to the humanitarian crisis caused by Boko 
Haram's assault on the people of the Lake Chad Basin. In Nigeria alone, 
approximately seven million people are suffering displacement, 
deprivation, and/or disease from the consequences of armed conflict and 
the UN estimates that 9.2 million are in need of immediate assistance 
across the region. In 2015, and thus far in 2016, we have provided a 
total of nearly $244 million in humanitarian assistance for Boko Haram-
affected populations throughout the Lake Chad Basin, including for IDPs 
and refugees. USAID and the State Department are supporting projects to 
increase civilian protection, enhance early warning capabilities, 
deliver humanitarian relief, and strengthen the overall resiliency of 
communities.
                addressing other sources of instability
    We are also focused on addressing other sources of instability in 
Africa. Several parts of Africa remain plagued by instability, internal 
conflict and violence, including Mali, South Sudan, Burundi, the 
Central African Republic (CAR) and the Democratic Republic of the Congo 
(DRC). We are engaged in aggressive diplomatic efforts to help resolve 
these conflicts and support the implementation of peace agreements. We 
are actively supporting ongoing peacekeeping missions. We are also 
providing significant assistance to address humanitarian needs, prevent 
mass atrocities, and address underlying causes of instability. Finally, 
we assist African efforts to get ahead of crises through support of 
conflict early warning systems and diplomatic responses.
    In Mali, we are urging all sides to accelerate their efforts to 
implement the peace accord signed in June 2015. Significant delays in 
the accord's implementation have prolonged the security vacuum in 
northern Mali, undercut our long-term counterterrorism objectives, and 
made it difficult to advance reconciliation, reintegration, and 
development. Despite these obstacles, we remain committed to advancing 
an inclusive peace in Mali through dialogue with all actors and our 
support to the United Nations Multidimensional Integrated Stabilization 
Mission in Mali (MINUSMA).
    In South Sudan, the U.S. government's overriding focus is 
supporting implementation of the August 2015 Agreement on the 
Resolution of Conflict in the Republic of South Sudan (ARCISS) so that 
the civil war may end and peace, stability, and prosperity take root. 
We are currently supporting the Ceasefire and Transitional Security 
Arrangement Monitoring Mechanism (CTSAMM) to ensure that the parties 
are adhering to the ceasefire and security arrangements for Juba and 
other cities, in accordance with the agreement.
    In the CAR, the recent peaceful election and democratic transition 
were positive steps, but sustained engagement is essential to end the 
cycle of violence there. We are working both bilaterally, and with the 
UN, AU, and European Union to support inclusive, representative, human-
rights based approaches to security sector reform and governance that 
facilitate post-conflict stabilization and recovery. Since the crisis 
in CAR began in late 2013, the U.S. provided over $79 million to train 
and equip troops deploying into CAR to provide peace and stability, as 
part of the original AU mission and the subsequent UN mission. We are 
working to develop activities and programs to prepare the security 
forces of CAR to provide citizen security in their country, with full 
respect for the law. Ensuring rule of law and accountability are 
essential pillars for CAR's future, we are helping to build CAR's 
judicial structure, including the development of their Special Criminal 
Court. We are also working to help communities throughout CAR by 
focusing our long-term development programming on grassroots peace and 
reconciliation and expanding access to justice through sexual and 
gender-based violence legal training and mobile courts. The United 
States is committed to assisting the people and the government of the 
CAR with its transition from recent violence to a democratically 
elected government that serves CAR's people.
    In the DRC, we seek to preserve security gains made over the last 
10 years and to continue countering armed groups in the eastern DRC, 
while preserving civil society space to foster free and fair elections 
and a peaceful transition of power. We have supported defense sector 
and law enforcement reform programs for the last decade. Our efforts 
include increasing military justice capabilities to hold accountable 
human rights violators and criminals in the military. We are very 
concerned, however, that a delay in the November elections this year, 
and an effort by President Kabila to remain in office after December 20 
when he is required by the DRC Constitution to step down, will lead to 
widespread violence and instability; such instability could have an 
impact on the entire region.
    In Burundi, we are using diplomatic engagement at all levels to 
urge support for a regionally-mediated dialogue that brings all parties 
to the table to peacefully resolve the current conflict. We have also 
encouraged accountability for abuses and violations of human rights and 
attempts to undermine democracy in Burundi by sanctioning eight 
individuals responsible for such activities from both sides of the 
conflict. In March, we announced $31 million in humanitarian assistance 
to support more than 260,000 refugees who have fled Burundi over the 
last year and Congolese refugees and others food-insecure individuals 
still in Burundi. This brings the total U.S. humanitarian assistance 
for the regional response to the Burundi crisis to more than $86 
million. Thomas Perriello, the Special Envoy for the Great Lakes 
Region, has made frequent visits to Burundi, DRC, and to other 
countries in the region, seeking a diplomatic solution to the current 
crisis in Burundi and to the impending crisis in the DRC.
    In collaboration with the AU and the UN, we continue to support 
regional efforts to end the threat posed by the Lord's Resistance Army 
(LRA) and bring the remaining LRA leaders to justice. We are pursuing a 
comprehensive strategy to build partner capacity, empower local 
communities, promote defections from the LRA's ranks, and mitigate the 
consequences of the LRA's atrocities. With U.S. support, the regional 
forces from Uganda, the DRC, CAR, and South Sudan who comprise the 
African Union Regional Task Force have significantly degraded the LRA's 
capacity to attack communities and wreak havoc, but the job is not 
done.
    Increasingly, our African partners recognize the importance of 
maritime security. They have begun to lead initiatives to protect 
maritime traffic, reduce the loss of national revenue, and increase 
economic opportunities. These increased benefits can positively 
contribute to environmental and socio-economic development, as well as 
increased national, regional and continental stability. By the same 
token, they make a substantive contribution to global security. A 
comprehensive U.S. policy on maritime security in sub-Saharan Africa 
supports not only U.S. security interests but the administration's 
broader sub-Saharan Africa policy objectives. The U.S. Government will 
encourage and support greater African stewardship of maritime safety 
and security at the continental, regional, and national levels.
    The Department of State, our interagency colleagues and our 
international partners also recognize the serious threats posed by 
drug-trafficking. Foreign drug traffickers usually prefer fragile 
countries with weak law enforcement and judicial systems. They thrive 
in areas where they can operate with impunity--either because legal 
systems do not work, or because they can be easily corrupted. The 
creation of resilient institutions takes time and the lack of 
governance attracts transnational criminal networks. The flow of drugs 
through a region risks undermining the States by weakening their 
institutions, their local communities, and their social fabric. With 
our interagency colleagues, we have collaborated to develop the West 
Africa Cooperative Security Initiative.
    Through the Early Warning and Response Partnership (EWARP) and 
other programs, the U.S. is assisting the Economic Community of West 
African States (ECOWAS), and soon individual member states with 
programs to improve networks for early warning of conflict or other 
stability challenges. This will allow our African partners to better 
prevent instability so they do not require costly and long term 
security and humanitarian responses.
      building strong and accountable security sector institutions
    We recognize that strengthening the security and justice 
institutions of our African partners is vital for long-term stability 
on the continent. This includes both military and civilian security 
services, and the entities that oversee them. We are partnering with 
African countries and organizations to develop capable and professional 
security services, improve security sector governance, and enhance 
regional coordination and interoperability. In August 2014, President 
Obama announced the Security Governance Initiative (SGI), an 
innovative, multi-year effort between the United States and African 
partners to improve security sector governance and capacity by 
collaborating with partner governments to develop sound policies, 
institutional structures, systems, and processes to more efficiently 
and effectively deliver security and justice to citizens. SGI 
complements our other security sector assistance programs by building 
underlying institutional capacity, and furthers our efforts to combat 
terrorism and instability in sub-Saharan Africa by focusing on 
opportunities to address institutional gaps. In SGI's six initial 
partners are Ghana, Kenya, Mali, Niger, Nigeria, and Tunisia.
    The State Department's International Military Education and 
Training (IMET) program supports the professionalization of African 
militaries through training in the United States with a heavy focus on 
human rights, military justice and civilian control of the military. As 
a complement to IMET, the Department also funds the Africa Military 
Education Program (AMEP), which supports instructor and/or curriculum 
development of select African military education institutions to help 
further professionalize African militaries.
    The U.S. Government is also helping to resolve conflicts on the 
continent by building the institutional capacity of Africans to train 
and equip peacekeepers and respond rapidly to conflict. We are training 
and equipping African peacekeepers through programs such as the Global 
Peace Operations Initiative (GPOI) and, the Africa Contingency 
Operations Training and Assistance (ACOTA) program. We are also 
building rapid response capabilities through the Africa Peacekeeping 
and Rapid Response Partnership (APRRP). ACOTA has trained 297,071 
peacekeepers since 2004. We are working to develop professional 
security forces that respect human rights, recruit and retain a 
representative corps of professionals, and safeguard democratic 
institutions in countries emerging from or affected by conflict. 
Through APRRP, the United States is strengthening the capacity of 
security forces in six partner countries to deploy rapidly to emerging 
African crises. The inaugural APRRP partners are Ethiopia, Ghana, 
Rwanda, Senegal, Tanzania and Uganda.
promoting good governance, economic growth, opportunity and development
    Countering instability requires a broad and multi-faceted strategy. 
Given the multiple drivers of instability and conflict in Africa, our 
responses must be innovative and dynamic. We cannot focus solely on the 
security aspect of the solution. As outlined in President Obama's 2012 
Policy Directive for Africa, the United States has four overall 
strategic objectives in Africa: (1) strengthen democratic institutions; 
(2) spur economic growth, trade and investment; (3) advance peace and 
security; and (4) promote opportunity and development. Progress on all 
of these objectives is required to improve stability throughout the 
continent.
    We continue to stay focused on supporting free, fair, and 
transparent electoral processes that are inclusive and representative. 
We have seen some major electoral successes, for example in Nigeria, 
Burkina Faso, and CAR, but there have been setbacks as well. We will 
continue to support regular democratic transitions, because they can 
help vaccinate a country against feelings of injustice and alienation 
that can lead some to heed the siren call of extremism and violence. We 
will continue to support democratization efforts through electoral 
assistance programs, diplomatic engagement, public outreach, and 
election monitoring. We will continue to promote respect for universal 
human rights, promote space for civil society to operate freely, and 
fight corruption. And we are working with our African partners to 
ensure that governments deliver essential services, independent 
judiciaries enforce the rule of law, and that professional security 
forces respect human rights.
    President Obama has highlighted that the most urgent task facing 
Africa today and for the decades ahead is to create opportunity for 
Africa's next generation. Young people constitute a majority of 
Africa's population and stand to gain, or lose, tremendously based on 
the continent's social, political, and economic trajectory. They also 
represent the next generation of African leaders. Through programs like 
the Young African Leaders Initiative (YALI), we are investing in the 
future by building leadership skills, bolstering entrepreneurship, and 
connecting young African leaders with one another, the United States, 
and the American people. This program will have a long-lasting positive 
impact on the continent. Due to YALI's success, we are expanding the 
number of Mandela Washington Fellows from 500 to 1,000 this year.
    To support economic opportunity and growth in Africa, in 2014, 
President Obama also tripled the goals of his Power Africa initiative, 
pledging to add 30,000 megawatts of new, cleaner energy generation 
capacity and to expand access to at least 60 million households and 
enterprises across Sub-Saharan Africa. We thank Congress for its 
leadership in passing the Electrify Africa Act of 2015 in February of 
this year, which codified the strong bipartisan support for the vision, 
goals and approach behind Power Africa, and sends a strong signal of 
the United States' long-term commitment to reducing energy poverty in 
sub-Saharan Africa.
    In addition, we thank Congress for its leadership in reauthorizing 
the African Growth and Opportunity Act (AGOA) for an additional ten 
years. We are encouraging our African partners to make the most of this 
ten-year reauthorization by developing AGOA utilization strategies, 
while at the same time laying the ground work to move our trade and 
investment relationship forward, beyond AGOA.
    YALI, Power Africa, AGOA, and other programs like these are crucial 
to creating opportunities for the youth of Africa and ensuring that 
they are less susceptible to recruitment by extremists, criminal 
enterprises, and human traffickers. Global Health is another top 
priority. Through our work under the President's Emergency Plan for 
AIDS Relief and the President's Malaria Initiative, we are turning the 
tide against these insidious diseases and saving lives. Other 
presidential initiatives such as the, Feed the Future, and the 
Partnership for Growth are also focused on building the sustainable 
development needed to support a rapidly growing populations.
                               conclusion
    We appreciate the committee's interest in addressing instability in 
Africa and again ask for your help in supporting our relevant funding 
requests. We know that the challenges are great, but we believe that 
the comprehensive approach that we are pursuing is making progress and 
promoting stability that will ultimately benefit the United States and 
all of Africa. This will be a long-term process that requires 
persistence and sustained partnerships. With your help we have made 
significant strides over the past few years, but more work remains to 
be done.
    Thank you and we look forward to your questions.


                               __________

                 Prepared Statement of Hon. Linda Etim

    Good afternoon, Chairman Corker, Ranking Member Cardin. Thank you 
for the opportunity to discuss USAID's work with this committee.
    Throughout Africa, our efforts to end extreme poverty, promote 
resilient, democratic societies and create economic opportunity while 
advancing our security and prosperity are increasingly threatened by 
instability and the emerging forces of violent extremism. This is a 
global phenomenon and no part of the world is immune.
    The United States has a powerful tool to prevent conflict and 
instability: international development. As the U.S. Government's 
primary development agency, USAID has long recognized the critical role 
of development in addressing social, economic, governance, and other 
legitimate grievances that can fuel violent extremism and promote 
radicalization of individuals and communities. It is also important to 
build counter-violent extremism messaging into programming, especially 
in local languages that can reach vulnerable populations. Our 
activities and interventions are designed to reduce extremists' 
opportunities to exploit social injustice, lack of political 
integration, economic inequality, religious persecution, and 
ideological extremism to recruit followers to violent agendas or 
criminal networks.
    Violent extremism impedes development. It can slow investment, 
prevent children from attending schools, place additional burdens on 
already fragile healthcare systems, and undermine political systems. 
Today, I'll discuss our programs that help prevent violent extremism in 
the Sahel and Horn of Africa and focus on the strategic thinking, 
analysis, and approach that form the core of our results-oriented 
programs. I'll also touch on the importance of USAID's governance 
programs, which seek to address the social inequities, corruption and 
weak institutions that often foster instability.
                           addressing drivers
    USAID uses our analytic capabilities and draws upon our knowledge 
of the local context to examine the drivers of fragility. Our 
assessments carefully consider the ``push factors'' that can drive 
people toward supporting violent extremism, such as social 
fragmentation, a sense of injustice, perceptions of marginalization, 
and distrust of government. We also examine the pull factors that can 
attract those vulnerable to recruitment, including social and peer 
networks that provide an ideological foundation, and the promise of 
financial benefit. We have learned that attitudes of potential recruits 
are heavily influenced by their environment, information channels, peer 
group norms, and what they hear from trusted sources.
    In 2011, USAID issued, ``The Development Response to Violent 
Extremism and Insurgency,'' which recognizes development's role in 
identifying and addressing drivers of extremism in support of U.S. 
national security objectives. This Agency notes that much of U.S. 
foreign assistance goes to countries in the midst of, or trying to 
prevent, conflict or state failure. Our efforts to prevent and respond 
to violent extremism are guided by ongoing research and analysis of the 
factors associated with radicalization and recruitment to violence.
    USAID helps prevent the spread of violent extremism through 
targeted efforts to promote good governance and the rule of law, 
respect for human rights, and sustainable, inclusive development, among 
other programs. Together with State, USAID is bringing its development 
expertise and more than a decade of experience in countering violent 
extremism programming to bear--harnessing the full range of analytic 
tools to design, support, and measure programs that reduce the 
vulnerabilities of communities and build local capacity to resist 
extremist groups. This is an essential element of the Agency's 
integrated approach, which begins with prevention.
    Youth are a key demographic targeted by our programming. According 
to the United Nations, in 2015, 226 million youth aged 15-24 lived in 
Africa. By 2030, it is projected that the number of youth in Africa 
will have increased by 42 percent to more than 320 million.
    While there is no one profile of those most at-risk, unemployed 
youth who have migrated to peri-urban and slum areas, university 
graduates whose expectations have not been met, or youth who have lived 
through conflict can be at great risk. Slow economies and an education 
that is not tied to market demand leave many youth feeling that they 
have no role in their community. They lack a sense of belonging and 
feel marginalized. Such perceptions can drive youth to involvement in 
destructive or illicit activities.
    Gender is a critical element in addressing violent extremism. We 
work to move beyond generalized assumptions about men and women based 
on common gender stereotypes, recognizing that gender norms for men and 
women manifest differently in various social, political, and economic 
contexts. For example, women are not only victims of violent extremism 
but can be both perpetrators and critical to prevention. As such, a 
nuanced and context-specific understanding of gender is needed to 
accurately diagnose the push and pull factors that drive both men and 
women to participate in violent extremism, a dynamic that has been 
largely unaddressed in the research.
    Intrinsic to the design of all USAID activities is the belief that 
our development assistance has the greatest impact on the drivers of 
extremism by increasing resilience. At the local level, we focus on 
social cohesion and fostering stronger, more resilient communities. We 
support individuals, particularly youth, through employment and 
outreach programs, vocational skills training, and community 
development activities.
                           the horn of africa
    Terrorist threats in East Africa continue to evolve and spread. The 
regional dynamics and conditions that propel extremism in the Horn of 
Africa are inextricably linked to neighboring countries. Through the 
Partnership for Regional East Africa Counterterrorism (PREACT) and 
related programs, the U.S. Department of State, the Department of 
Defense, and USAID fund projects in Kenya, Somalia, Tanzania, Ethiopia, 
Uganda and along the Kenya-Somalia border to promote civic engagement 
and political participation, strengthen civil society organizations, 
amplify moderate voices, mitigate conflict, and empower youth and 
women; this is a coordinated interagency approach.
    In Somalia, al-Shabaab threatens not only the country's viability 
as a state but also the region's stability. USAID supports peace and 
stability in 17 of 18 regions through targeted community- vetted 
interventions that foster good governance, economic recovery, and 
reduces the appeal of extremism. USAID also promotes the women, peace, 
and security agenda in Somalia. Since 2011, USAID constructed and/or 
equipped 12 women's centers across Somalia which are neutral venues 
utilized by women for community planning, conflict mitigation and 
resolution, counseling services, adult literacy classes, and public 
health and safety purposes.
    One of USAID's flagship programs, the Transition Initiatives for 
Stabilization Plus, improves community resistance to the influence of 
al-Shabaab and the Islamic State of Iraq and the Levant (ISIL), by 
creating effective local governance, and proactively engaging 
communities. We know that communities that realize positive social, 
cultural, and economic benefits in recovered areas are more likely to 
resist extremism.
    This program serves as the bridge between our immediate 
humanitarian assistance and our medium- to longer-term development 
programs in Somalia. Development programs need peace and stability to 
be sustainable and effective. We conduct rapid-impact, high-visibility 
work that creates short-term employment opportunities for at-risk 
youth, displaced people, and other vulnerable groups. All projects are 
carried out in a consultative process between the local authorities and 
the community, enabling the civilian population to do something good 
for their communities while interacting and engaging with a legitimate 
governance structure. This further mitigates conflict, promotes 
stability and community cohesion, and strengthens and supports 
relationships between residents and their government officials.
    In Kenya, USAID targets at-risk youth populations through 
Generation Kenya, which closes the gap between young people who are out 
of work and employers who are short of skilled employees. By partnering 
with the private sector, we provide training and meaningful employment 
to vulnerable young people. Generation Kenya has produced impressive 
results--100 percent of Generation Kenya's 490 graduates were placed 
with employers and 90 percent are still in these jobs. Generation Kenya 
plans to place more than 50,000 youth in stable careers by the year 
2020. Going forward, USAID will expand its programming in violent 
extremism ``hot spots'' working hand and hand with communities, local, 
and national governments.
    In the Horn of Africa, the Intergovernmental Authority on 
Development has emerged as the leading regional actor in countering 
violent extremism. In 2015, it announced a decision to establish a 
regional Countering Violent Extremism Center of Excellence, based in 
Djibouti. The center will focus on practical and tangible outcomes that 
will strengthen countering violent extremism capacities and cooperation 
across the region. USAID will support the implementation of the Center 
of Excellence's key priorities to ensure that governments, civil 
society organizations and other actors have the tools and information 
on ``best practices'' to effectively carry out their efforts.
                       west africa and the sahel
    In West Africa, violent extremism is a potentially destabilizing 
force which threatens the tenuous progress of the region's development. 
In the Sahel, vast porous borders fostering centuries-old socioeconomic 
and ethno-tribal ties exist alongside post-colonial boundaries and 
enhance the likelihood of spreading tension and instability. 
Modernization, urban migration, and the breakdown of social cohesion 
and familial and communal interdependence have disrupted historically 
strong community and regional ties.
    USAID counters this force through our role in the Trans Sahara 
Counter Terrorism Partnership. Our programs and initiatives are 
designed to reduce the threats of violent extremism and armed conflicts 
within the Libya-Niger-Mali corridor and in Nigeria, along Niger's 
southern border. By improving national and regional capacities to 
resist terrorist organizations, we help disrupt efforts to recruit and 
train new members, particularly youth. Our efforts also make it harder 
for extremists to establish safe havens. Through the USAID Peace 
through Development and Expanded Regional Stability program, we support 
Niger, Chad, and Burkina Faso's community leaders to engage with 
marginalized communities and work with government officials to make 
local governance more inclusive and transparent. We engage youth 
through vocational and entrepreneurial skills training, civic 
education, and leadership training to increase participation in local 
decision making, encourage greater citizen participation, advocacy, and 
government outreach.
    In Niger, our Community Cohesion Initiative engages communities 
through small-scale, targeted activities involving local civil society 
organizations, governments, and community members. The Niger Education 
and Community Strengthening Program works in 150 schools across 22 
municipalities to improve educational opportunities for children in at-
risk communities. This support increased school attendance rates from 
62 percent to 93 percent in targeted communities. Investments in these 
learning opportunities are focused on ensuring an increasingly educated 
population is paired with economic opportunity.
    The USAID Peace through Development II project has reached 40 
Nigerien communities across the regions of Agadez, Diffa, Maradi, 
Tahoua, Tillaberri, Zinder and the capital district of Niamey. By 
producing and delivering original radio content aimed at countering 
extremist narratives that was broadcast across 33 partner stations, the 
program has reached over 1.7 million people from groups at risk of 
violent extremism. It has directly engaged nearly 100,000 people 
through civic education, moderate voice promotion and youth empowerment 
themed events. We also facilitate local dialogue and reduce community 
tensions by tackling small yet important development projects such as 
rehabilitation of a well or brush-clearing that makes it harder for 
terrorists and other criminal elements to conduct attacks along popular 
roads. Our programs increase civic engagement among Nigerien government 
authorities and citizens and decrease the interest of young people to 
take part in illegal or extremist activities. These activities also 
increase the community's knowledge of the Government of Niger's efforts 
to promote security and stability throughout the region.
    Across Mali, USAID supports the Government's roadmap for political 
transition. Following the successful July 2013 presidential elections, 
we are focused on supporting the peace accord that brought an end to 
the conflict with the Northern Armed Groups, restoring a sense of 
normalcy in strategic areas in the North, and countering violent 
extremism through inclusion of marginalized communities. Our assistance 
increases the effectiveness and legitimacy of government institutions. 
By strengthening the government's public financial management systems 
we help ensure that public funds are distributed equitably and justly 
throughout Mali, and that decentralization efforts are accompanied with 
sufficient skills, training, and oversight to prevent corruption. Mali 
is also a partner country Security Governance Initiative, the United 
States' joint endeavor with six African partners to improve security 
sector governance and capacity to address threats. We've just embarked 
on the first-ever Rule of Law program to ensure the Ministry of Justice 
obtains and maintains qualified staff to carry out its mission. In 
addition, our newest program, the Mali Peace Initiative, builds upon a 
three-year, Office of Transition Initiatives program that operated 
across Northern Mali to strengthen targeted communities' resilience to 
conflict and radicalization. Still, the tragic loss of USAID friend and 
partner, Anita Datar, during the November 2015 terrorist attack on the 
Radisson Blu hotel in Bamako, Mali underscores the challenges that 
remain as we continue our efforts to bolster the fragile peace process 
and provide assistance to vulnerable communities.
    In nearby Nigeria, a surge of violence perpetuated by the terrorist 
group Boko Haram, which now calls itself the Islamic State in West 
Africa continues. The insurgency has forced large populations to 
migrate to more secure areas, disrupting homes and livelihoods and 
burdening already stressed basic public services such as education and 
health. USAID's programming improves the Nigerian government's 
responsiveness to community needs, reducing perceptions of 
marginalization and addressing youth vulnerability to violent extremist 
influence. Women and girls are not only victims of violent extremism, 
but have the ability to prevent recruitment and serve as mediators and 
peace-builders. Christian and Muslim women have used the skills 
received during USAID-supported training to help citizens in Boko Haram 
affected communities manage the effects of trauma and stress and to 
conduct inter-religious dialogue to promote conflict prevention and 
peaceful coexistence. This is integral to a more holistic and practical 
healing process.
    The Nigeria Regional Transition Initiative focuses on diminishing 
conditions that allow Boko Haram to exist and flourish in the 
Northeast. It provides small-scale, strategically targeted assistance 
to local partners. For example, we supported UNICEF and other 
implementing partners to provide education activities for conflict-
affected children, including internally displaced persons and children 
in host communities, in Adamawa, Bauchi, Borno, and Gombe states. We 
provide child-friendly spaces, psychosocial support, and peer mentoring 
opportunities for children, while also training teachers in conflict-
sensitive instruction. These activities build a stronger sense of 
community and belonging in these traditionally marginalized areas by 
facilitating peaceful interactions between the internally displaced and 
host communities. We are promoting conflict mitigation, expanding a 
sports-for-peace program, and launching a local language radio program 
to counter the appeal of terrorist or criminal organizations.
                               conclusion
    We have seen real progress in our efforts. Through program 
assessment, implementation and evaluation, we are learning what works 
and what doesn't. As we gain experience, we improve our monitoring and 
evaluation and gather more baseline data so that we can more 
effectively measure program impact.
    A central tenet of our development approach is the transfer of 
knowledge and skills to stakeholders and partners in African countries. 
Through our Missions' work and through USAID-funded resource centers, 
such as those referenced above, we train individuals and communities to 
own and address violent extremism in their own countries.
    At USAID, we're committed to this work. We've increased the number 
of individuals dedicated to programming focused on countering 
extremism, trained employees on its principles and incorporated 
countering violent extremism objectives into our country program 
strategies.
    Instability in some areas is the product of generations of neglect 
and corruption; solutions to these challenges will be the product of 
generations of concerted focus, legitimate engagement, and expectations 
of results. For our development programs to succeed we must invest in 
strong local partnerships and our methods of engagement must be nimble 
and creative. Because trends in extremism are fluid, we must constantly 
reassess our priorities, our progress, and our policies to ensure that 
our work is based on the realities of today.
    Toward this end, we are pleased with our strong and productive 
partnership with the Departments of Defense and State on the planning 
and implementation of programming, as well as our work with other 
donors on coordinating efforts to counter extremism. Sustained 
engagement--within the U.S. Government, with other donor governments, 
and with our partners in the region--will be the key to combating 
extremism today and securing peace and stability for years to come.
    Thank you, Mr. Chairman and members of the committee. I look 
forward to your questions.


                               __________

               Prepared Statement of Abdoulaye Mar Dieye

    Mr. Chairman, Mr Ranking Member, members of the committee, I am 
honored, as Regional Director for Africa at the United Nations 
Development Programme (UNDP), to be invited as a panelist before the 
U.S. Senate Committee on Foreign Relations.
    UNDP is the lead UN development agency. We are active in 168 
countries and territories across the world, including all 53 countries 
in Africa. Our mission, as set by Member States through our Executive 
Board, is to assist countries to eradicate poverty and, at the same 
time, achieve a significant reduction of inequalities and exclusion. We 
do this by supporting inclusive growth and development, fostering 
democratic governance and building resilient institutions and 
communities that are better able to manage risks that can endanger 
peace and development.
    My purpose today is two-fold.
    First, I want to briefly update you on what we, as UNDP, have 
learned about instability in Africa.
    Second, I will share our view on the possible developmental 
approaches to mitigate the threats to peace and stability in what is 
often referred to as ``Africa's Arc of Instability'' which encompasses 
the Sahel, the Lake Chad Region and the Horn of Africa.
    But let me first recognize and celebrate that Africa has made 
significant strides on the social, political and economic front since 
the turn of the century.
    Figures show that Africa's rate of extreme poverty fell from 56% in 
1990 to 43% in 2012; steady economic growth and macroeconomic stability 
have resurged; and protracted armed conflicts are on a downward trend. 
We have seen that these successes tend to be driven by countries that 
invest in the safety, security and productive lives of their citizens. 
We have also seen, in many instances, genuine and inclusive democratic 
transitions leading to more responsive and accountable governments. 
This progress, however, is at risk of reversal.
    The stark reality is that steady economic growth and macroeconomic 
stability have not transformed into sustainable development. Deep 
socio-economic inequalities within and between communities in these 
sub-regions and indeed across much of Africa persist. While extreme 
poverty has been reduced, a vast number of citizens continue to live in 
dire conditions with little prospect of attaining the most basic of 
human development needs in health, education or livelihoods. It is 
estimated that 60% of the population in the region are between the ages 
18-30. It is young Africans who are making the grim choice as illegal 
migrants--travelling to the North of Africa destined for the West, 
setting off on journeys that we know frequently end in death. It is 
these youth, particularly females, who are kidnapped, trafficked into 
servitude, and exploited. They are young; they are poor; and the 
majority are desperate. It is young people, in particular, who are easy 
prey for extremist ideologues. They are radicalized, with promises of 
relevance and prosperity and encouraged along a path of violence and 
destruction. In Nigeria, more than 40% of suicide bombers are female. 
One in five suicide bombers deployed by Boko Haram last year was a 
child and, usually, a girl.
    The exponential growth of violent extremism in Africa, including 
the growing convergence between different groups, also presents an 
imminent threat to Africa's steady path to prosperity. We estimate that 
at least 33,000 persons have been killed in Africa since 2011, and 6 
million people are internally displaced as a result of violent 
extremism.
    Societies and communities bear the brunt of extremist violence. 
Extremists target public spaces such as markets and bus stations, 
forcing people to make a difficult choice between risking death by 
going to work to earn a living, or risking the very survival of their 
families. Nowhere is this more evident than in the Lake Chad Basin--
Nigeria, Chad, Niger and Cameroon--where over 3 million people are 
displaced, thousands have been killed and many more are held captive 
across the four countries. The killing of students in Garissa, Kenya, 
the kidnapping of the Chibok girls in Dikwa, Nigeria, the suicide 
attack on medical students in Somalia, and the recent tragic events in 
Burkina Faso, Cote d'Ivoire and Mali have shown that this phenomenon is 
unique in targeting the innocent and vulnerable, breeding discord among 
communities, and arresting development.
    The impact of extremist violence is not only the loss of lives and 
destruction of property--national economies are also negatively 
affected. According to the International Monetary Fund, violent 
extremism is amongst the major risks to economies in parts of Africa. 
Tunisia's GDP growth has been cut from 3% to 1% with a 45% decline in 
tourism. Chad's GDP's contracted by 1% in 2015 from a 5% growth in 
2014, and Kenya saw a 25% reduction in tourism following terrorist 
attacks.
    Weak governance and limited opportunities for youth are critical 
drivers of socio-political instability. They fuel illegal migration and 
violent extremism, significantly intensifying the risk that Africa may 
once again be described as a ``blight on the conscience of the world''.
    Over the last two years, UNDP has held a number of consultations, 
conducted a series of studies and commissioned research to better 
understand the violent extremism scourge in Africa. We have just 
concluded a seminal ``perception study'' on ``radicalization, violence 
and insecurity in the Sahel'', covering border communities in eight 
countries--Mauritania, Senegal, Niger, Mali, Chad, Burkina Faso, 
Cameroon and Nigeria. That study is the first, we believe, to assess 
perceptions of affected populations on what they see as the main 
factors explaining radicalization, and what they would expect as 
solutions. We are also currently conducting research on 
``radicalization journey mapping'' with a view to identifying ``the 
tipping point to violent extremism''. This research, which interviews 
extremists , their families and their communities, covers the zones of 
operation of Boko Haram and Al Shabaab in regions of Nigeria, Kenya, 
Uganda and Somalia; and it will be extended ( in a phase II) to 
Northern Mali and the Lake Chad region.
    Preliminary results of these various studies and research converge 
in three major findings:


 1. While the drivers of radicalization are multi-faceted, and defy 
        easy analysis, their major roots are to be found in: (i) 
        poverty and low human development (ii) an endemic sense of 
        economic and political exclusion and marginalization; and (iii) 
        weak social contracts with high level of societal divisions 
        along ethnic or religious lines.

 2. The most fertile grounds for radicalization are border areas, which 
        are, in most of the countries studied, neglected in terms of 
        socio-economic and institutional infrastructure.

 3. While there are a number of common elements which drive 
        radicalization, there are also some important differences 
        between countries. For example, socio-economic factors tend to 
        be the prominent drivers in the Sahel, the Lake Chad Basin, 
        Somalia and Nigeria; whereas political grievances are a much 
        more prominent factor in Kenya.


    In short, violent extremism finds fertile ground among the 
disenfranchised and in ungoverned spaces.
    It is with this research and analysis in mind that we have embarked 
on a development-led approach which seeks to address the multiple 
drivers and enablers of radicalization and violent extremism.
    We have launched a four-year regional initiative on ``preventing 
and responding to violent extremism in Africa'' which focuses on 
supporting regional institutions, governments, communities and at-risk 
individuals to address the drivers and related factors.
    We are working in epicenter countries, spill-over countries and at-
risk countries to help partners develop and implement integrated, 
regional and national policies and strategies; effective 
decentralization; cross-border development initiatives; rule of law; 
peer-to-peer, community and faith-based interventions to prevent youth 
radicalization and de-escalate local conflicts. We also promote social 
cohesion at community level, working with local and national 
governments to provide basic social services to citizens. We support 
employment creation, and we work with local governments to strengthen 
public administration and the extension of state authority.
    We have learned that well-resourced, comprehensive and integrated 
programs combining security and development responses offer the best 
approaches to combating violent extremism. We have further learned that 
communities--including faith groups--should be at the center of the 
response, with efforts to increase trust and build confidence between 
them and law enforcement agencies. These initiatives, combined with 
participatory governance and sustained efforts to address inequality, 
can bring hope, opportunity and purpose to young people and excluded 
communities. This approach is critical in successfully inoculating 
communities against radicalization.
    Let me conclude my remarks by emphasizing that for Africa to meet 
its full development potential, preventing and responding to violent 
extremism is essential. This will require coordinated and collaborative 
partnerships between governments, development partners and civil 
society groups.
    Mr. Chairman, I thank this committee for holding these hearings, 
which can only rightly add to the sense of urgency that this situation 
warrants, and for inviting UNDP to make a submission.


                               __________

           Prepared Statement of Christopher Fomunyoh, Ph.D.

    Mr. Chairman, ranking member Cardin, and distinguished members of 
the committee, on behalf of the National Democratic Institute (NDI), I 
appreciate the opportunity to discuss terrorism and instability and 
make the case for why democracy and good governance should be a central 
component of any counterterrorism and stabilization strategy in Sub-
Saharan Africa. For more than 30 years, NDI has worked around the world 
to establish and strengthen political and civic organizations, 
safeguard elections, and promote citizen participation, openness, and 
accountability in government. The Institute has conducted programs in, 
or worked with participants from approximately 50 of Africa's 54 
countries; and I have been fortunate to be part of our efforts in many 
of those countries for the past two decades.
                              introduction
    Terrorist activity in sub-Saharan Africa over the past decade 
threatens to destabilize the continent and roll back some of the gains 
in broadening political space and participation since the global wave 
of democratization that began in the 1990s. Groups such as Boko Haram 
in northeastern Nigeria and the Lake Chad basin, Al-Qaeda in the 
Islamic Maghreb (AQMI) in northern Mali and the Sahel, and Al-Shabaab 
in Somalia and the Horn of Africa have caused tens of thousands of 
deaths and tremendous economic and social dislocations of civilian 
populations. Some of these extremist organizations operating in Africa 
are eager to establish alliances with violent extremist organizations 
in other parts of the world, notably Al Qaeda and the Islamic State of 
Iraq and Syria (ISIS). The international community is right in 
supporting counterterrorism efforts that seek to defeat these extremist 
groups militarily and must, at the same time, assist the affected 
countries to address the root causes and triggers of the rise in 
extremism and violence on the continent.
    The principal motivation of today's terrorists in sub-Saharan 
Africa is deeply rooted in a pattern of religious beliefs; however, it 
is noteworthy that governance failures have exacerbated the impact of 
this phenomenon and created an enabling environment in which extremism 
thrives. When a state collapses, as was the case with Somalia prior to 
the emergence of Al-Shabaab, or allows for huge swaths of ungovernable 
spaces, as was the case in Northern Mali, or fails to fulfill its basic 
purpose of providing citizens with access to a meaningful life, 
liberty, and property, as in northeastern Nigeria, the social contract 
between the state and the citizenry is broken. Discontent with 
governments that are viewed as illegitimate or ineffective is a fertile 
ground for recruitment as disaffected individuals may easily embrace 
extremism hoping to access a better life, political power or voice and 
the resources linked to these attributes in transition environments. 
Moreover, oppressed citizens and marginalized groups that are denied 
access to basic public goods and services and opportunities are more 
vulnerable to extremist appeals and indoctrination by non-state actors 
who in return promise to fulfill their needs. Efforts to counter 
violent extremism and terrorism in sub-Saharan Africa must, therefore, 
address poor governance as part of the overall strategy. Based on 
institutional lessons learned through NDI's work, my own experience and 
expertise as an African, and what I hear loud and clear from African 
democrats--leaders and activists alike--across the continent, I would 
strongly offer the following three recommendations for your 
consideration:


   Any counterterrorism strategy for Africa should be grounded in the 
        consolidation of democracy and good governance such that short 
        term military victories can be sustained in the medium to long 
        term. We cannot defeat violent extremism now only to take up 
        the same fight five, 10 years down the road.

   Autocratic regimes should not get a pass from the international 
        community solely because they are good partners in the fight 
        against terrorism. Shrinking political space, frequent and 
        overt violations of citizen rights and freedoms, and the 
        undermining of constitutional rule and meaningful elections 
        breed discontent and disaffection that form the fertile ground 
        for recruiters and perpetrators of violence and extremism. Good 
        partners in countering violent extremism and terrorism can and 
        should be good performers in democratic governance. These two 
        principles are not mutually exclusive; in fact they are 
        mutually reinforcing.

   Africans of this generation are jittery and extremely fearful of 
        reliving the experience of the Cold War era during which 
        dictatorships thrived amidst grave human deprivation and gross 
        human rights abuses just because some leaders were allies of 
        the West at the time. The fight against terrorism should not 
        become a substitute for the Cold War paradigm of this century 
        with regards to sub-Saharan Africa.
                     governance gaps and extremism
    According to a 2009 report by the U.S. Agency for International 
Development (USAID), marginalized citizens who feel excluded from the 
political process may turn to extremist groups to fight for inclusion 
or to gain a sense of belonging.\1\ Also, a 2014 study by academics at 
the University of Illinois, Chicago, and Pennsylvania State University 
found that countries where ethnic groups are excluded from political 
power suffer from more domestic terror attacks.\2\ Unfortunately, in 
many African countries the politics of exclusion remains a reality. 
Identity politics, buttressed by subjective criteria such as ethnicity, 
region of origin, and in a few cases religion, breeds discontent and 
dissatisfaction within communities.
---------------------------------------------------------------------------
    \1\ USAID. Guide to the Drivers of Violent Extremism. February 
2009.
    \2\ Seung-Whan Choi and James A. Piazza. ``Ethnic groups, political 
exclusion and domestic terrorism,'' Defense and Peace Economics. 
December 11, 2014.
---------------------------------------------------------------------------
    Poor governance accounts for low and uneven rates of economic and 
human development, poor service delivery, and lack of opportunities for 
gainful employment and/or prosperity and societies with these traits 
tend to be breeding grounds in which extremist groups thrive.\3\ 
Dissatisfaction with a government's failures to ensure a reasonable 
quality of life can lead to radicalization and a rejection of central 
authority.
---------------------------------------------------------------------------
    \3\ USAID. Guide to the Drivers of Violent Extremism. February 
2009.
---------------------------------------------------------------------------
    Democratic governance is critical to every counterterrorism 
strategy--before, so citizen grievances are not allowed to fester and 
breed extremism, dissatisfaction, and alienation from the state; 
during, to deprive extremists of possible recruitment grounds; and 
after, to sustain the peace that would have been gained militarily for 
the medium to long term. Excessive deprivation in both economic terms 
and in access to political voice, freedom, and civil liberties makes 
young people vulnerable to the recruitment incentives of extremist 
movements.
     particularities of the terrorist trends in sub-saharan africa
    According to the Institute for Economics and Peace's Global 
Terrorism Index (2015), sub-Saharan Africa experienced the second 
highest number of terrorism-related casualties in 2014, with more than 
10,000 deaths.\4\ The greatest terrorist impacts were in northern 
Nigeria and neighboring countries in the Lake Chad basin, the Sahel, 
and the Horn of Africa.
---------------------------------------------------------------------------
    \4\ Institute for Economics and Peace. Global Terrorism Index 2015: 
Measuring and Understanding the Impact of Terrorism.
---------------------------------------------------------------------------
Boko Haram in Nigeria
    According to the Index report, Boko Haram is the deadliest 
terrorist group in the world (ahead of ISIS, the Taliban, and Al-
Shabaab), having killed more than 7,000 people in terrorist attacks in 
Nigeria, Cameroon, Chad, and Niger in 2014 alone.\5\ On a global scale, 
in 2014 northern Nigeria suffered 23 percent of all terrorism-related 
deaths worldwide.\6\ In recent months, asBoko Haram has been militarily 
degraded, it has changed tactics by dramatically increasing cross-
border attacks by suicide bombers in Chad, Cameroon, and Niger. Boko 
Haram was formed by a Muslim leader, Mohammed Yusuf, who railed against 
government corruption and failure to adhere to the ideology of an 
Islamic state as a battle cry to recruit young followers, many of whom 
saw themselves as marginalized and victimized by the Nigerian 
government.\7\ Its first public manifestation was in the attack of a 
police station in Borno State in 2009.
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ Ibid.
    \7\ Brookings Institute. ``The disease is unbelief'': Boko Haram's 
religious and political worldview. January2016
---------------------------------------------------------------------------
Al-Shabaab in Somalia
    In the Horn of Africa, Somalia faces an Al Qaeda-affiliated Islamic 
terrorist group, Al-Shabaab, which seeks to undermine any semblance of 
authority by the Somali government. Al-Shabaab emerged in 1991 after 
the collapse of the Somali state and protracted armed conflict among 
various ethnically-based factions. The group took advantage of the 
power vacuum and prevailing anarchy generated by the intra-Somali 
conflict to build camps and train fighters without fear of state 
interference. At its peak, Al-Shabaab recruited young marginalized 
Somalis by providing basic services to citizens in regions under its 
control.\8\ Despite suffering major setbacks and being pushed out of 
major cities, Al-Shabaab killed more people in terrorist attacks in 
2014 than ever before--more than 800 people were killed in close to 500 
attacks, approximately double the number killed the previous year.\9\ 
Al-Shabaab continues to seek openings to commit terrorist acts outside 
of Somalia, as it has done in the past killing civilians in attacks in 
Djibouti, Ethiopia, and Kenya.
---------------------------------------------------------------------------
    \8\ Center for Strategic & International Studies. ``Al Shabaab.'' 
AQAM Futures Project Case Study Series. July 2011
    \9\ Institute for Economics and Peace. Global Terrorism Index 2015: 
Measuring and Understanding the Impact of Terrorism.
---------------------------------------------------------------------------
Al-Qaeda in the Islamic Maghreb, Ansar Dine, and Al Mourabitoun in 
        Northern Mali
    Despite the military defeat of Islamist militants by African and 
French troops (Operation Serval) in 2013, and the signing of a peace 
accord in Bamako in June 2015, northern Mali remains vulnerable to 
terrorist activity. Recent attacks on western hotels in Bamako and 
neighboring Ouagadougou, Burkina Faso, underscore the new strategy of 
Ansar Dine and Al Mourabitoun, which now focus on attacking ``soft 
targets'' such as hotels, cafes, and supermarkets. Terrorists first 
gained strength in the region between 2010 and 2012 when extremists and 
criminal networks previously active in Algeria in the 1990s moved into 
ungoverned spaces in northern Mali and later capitalized on a 
separatist movement sparked by dissatisfaction with the performance of 
the central government in Bamako and allegations of extreme corruption 
and ineffectiveness in public service delivery.
              timeliness of counterterrorism partnerships
    As African countries have faced these new security threats for 
which their militaries were ill- prepared, a variety of partnerships 
have emerged to assist national and sub-regional forces, with the 
United States playing a lead role. African countries have provided 
ground troops to fight terrorism in the Horn of Africa, Northern 
Nigeria and Northern Mali,\10\ and have relied on European nations and 
the United States for more sophisticated equipment and specialized 
training. The net result has been the degradation of the bulk of 
jihadist movements that now have only limited capacity to launch small 
scale, albeit deadly, attacks using in some cases, suicide bombers.
---------------------------------------------------------------------------
    \10\ French troops and a smaller contingent of other European 
forces (German and Dutch) are engaged as part of current UN operations 
in northern Mali.
---------------------------------------------------------------------------
    Unfortunately, in some cases, African governments that are 
counterterrorism partners are not the best performers on democracy and 
good governance, which is also one of the declared pillars of U.S. 
policy in Africa. In fact, a number of these countries are ranked as 
``not free'' by Freedom House.\11\ There is a growing perception, and 
many Africans are fearful that democracy and governance could be 
sidelined in pursuit of security, and that counterterrorism has become 
a pretext for undermining democratic values and practices. Africans 
that lived through the Cold War are beginning to see parallels today as 
governments that partner with the West to combat violent extremism may 
feel entitled to unconditional support regardless of their poor 
performance in other areas. A number of country examples illustrate the 
point.
---------------------------------------------------------------------------
    \11\ Freedom House. Freedom in the World 2015.


   Shrinking political space in some counter-terrorism partner 
        countries--In a number of countries some of the gains in civil 
        and human rights of the 1990s are being eroded as political 
        parties and civil society groups are denied political space for 
        citizen engagement and participation or for their voices to be 
        heard. In one notable example, while Chad has played an 
        important role in fighting terrorism in the Lake Chad basin and 
        in northern Mali, its poor track record on democratic 
        governance, including recent allegations of extrajudicial 
        killings of soldiers who voted against the president in the 
        last election, should give the international community 
        pause.\12\
---------------------------------------------------------------------------
    \12\ Convention Tchadienne Pour la Defense des Droits Humains. 
``Communique de Presse N 012/2016.''

   Newly enacted antiterrorism laws stifle dissent for political 
        purposes--Ethiopia, for example, is a strong counterterrorism 
        partner in the Horn, but continues to repress political rights, 
        restrict speech, and arrest members of opposition parties.\13\ 
        During legislative elections in 2015, the ruling party won all 
        547 seats in the lower house. The government uses broadly 
        defined anti-terrorism laws to suppress critics, including nine 
        journalists who were arrested in 2014 and several more who have 
        been in detention since 2006. The Committee to Protect 
        Journalists noted that the 10 journalists detained at the end 
        of 2015 risk being tried under anti-terrorism laws.\14\ 
        Furthermore, the government has violently suppressed peaceful 
        protests in Oromia, home of Ethiopia's largest ethnic group, 
        against a government development plan that would displace 
        farmers. Security forces have reportedly killed over 200 people 
        and arrested thousands, including prominent Oromo political 
        leaders.\15\
---------------------------------------------------------------------------
    \13\ Freedom House. Freedom in the World 2016.
    \14\ Committee to Protect Journalists. 2015 Prison Census.
    \15\ Human Rights Watch. Ethiopia: No Let Up in Crackdown on 
Protests. February 21, 2016.

   Poor performance on constitutionalism and rule of law--Burundi is 
        now mired in a post-election crisis in which over 400 people 
        have been killed and hundreds of thousands internally displaced 
        or become refugees in neighboring countries. To many Burundians 
        and other international analysts, the crisis emanates from the 
        current government's recalcitrance in seeking another five year 
        mandate despite the presidential term limitation of the 2005 
        Arusha accords. These Burundian democracy supporters believe 
        that the country's poor track record on constitutionalism and 
        human rights had been overlooked by counterterrorism partners 
        because of the regime's troop contributions to the African 
---------------------------------------------------------------------------
        Union Mission in Somalia (AMISOM).

   Backsliding on elections and political rights--Recently identified 
        as a ``key strategic partner'' for its support for AMISOM,\16\ 
        Uganda has declined in its recent Freedom House ratings from 
        ``partly free'' to ``not free'' as a result of the government's 
        increased violations of civil rights.\17\ Unfair conditions 
        leading up to this year's national elections further eroded 
        public confidence in the government, led by one of the longest 
        serving African presidents.\18\
---------------------------------------------------------------------------
    \16\ U.S. Department of State Bureau of African Affairs. ``U.S. 
Relations with Uganda. Fact Sheet.'' October 2, 2015.
    \17\ Freedom House. Freedom in the World 2015.
    \18\ State Department Press Statement. ``On the Results of Uganda's 
Presidential Elections.'' February 20, 2016.


    African democrats are increasingly fearful of a return to the Cold 
War paradigm through which a government's involvement in combating 
terrorism overshadows the rights of citizens to a responsive and 
democratic state. Recent public opinion surveys by Afrobarometer show 
that while a very high percentage of Africans aspire to democracy--70 
percent of Africans preferring democracy to other forms of government--
fewer than half of those in countries surveyed are satisfied with how 
democracy is working in their country, a drop from previous years.\19\
---------------------------------------------------------------------------
    \19\ Afrobarometer. ``African democracy update: Satisfaction 
remains elusive for many'' September 16, 2015.
---------------------------------------------------------------------------
                            recommendations
    How, therefore, can counterterrorism assistance better incorporate 
democracy building?


   Counterterrorism partners should design strategies that also 
        integrate objectives to improve governance such as by 
        encouraging more effective decentralization and voice at the 
        local level in impacted communities and populations. 
        Counterterrorism initiatives should take a holistic (all of 
        government approach) that incorporates governance 
        considerations from conceptualization through 
        operationalization and consolidation.

   Host governments should be encouraged to not only defeat the 
        negative forces militarily, but also to invest in 
        rehabilitating communities and creating governance structures 
        to tackle and eliminate the conditions that fostered the rise 
        of support for extremism in order to guard against a relapse.

   Partners should increase assistance to nascent democracies with 
        weak political institutions to develop functional, responsive 
        governments that are able to deliver basic services to their 
        citizens. Consolidation of democracy should be approached as a 
        long-term process that requires consistent and continued 
        support with mechanisms to reward or incentivize good behavior 
        and penalize poor performance.

   Use public diplomacy and other mechanisms to state clearly and 
        unambiguously expectations for democratic behavior across 
        Africa, as development partners did so successfully in Nigeria 
        in 2014/2015. Moreover, such statements, as recently done in 
        the Democratic Republic of Congo and Burundi, should be 
        followed by concrete actions and long-term commitments to 
        sustain support for democracy and good governance.

   Invest in education to guarantee peace and opportunities for this 
        generation of youth. As argued eloquently in a recent New York 
        Times op-ed by renowned journalist Nicholas Kristof, education 
        can be more effective in combating militancy than military 
        intervention.\20\ Girls' education in particular can promote a 
        virtuous cycle of development by increasing the formal labor 
        force, boosting the economy and reducing demographic growth.
---------------------------------------------------------------------------
    \20\ Nicholas Kristof. ``What's So Scary About Smart Girls?'' New 
York Times, May 10, 2016.
---------------------------------------------------------------------------
                               conclusion
    Poor governance is a driver of discontent and resentment of the 
state that can push citizens in transition environments to join or 
sympathize with extremist networks. To be successful in combatting 
violent extremism and preventing its reappearance or resurgence, 
counterterrorism efforts must also address root causes.
    Given the high demand for democracy and good governance across 
Africa, the continent's partners have a critical role to play in 
helping sub-Saharan African countries address issues relating to 
terrorism in ways that are consistent with democratic principles. The 
international community has many tools at its disposal to continue to 
lead in this endeavor.
    Despite the enthusiasm of a few years ago, and some remarkable 
accomplishments in the last two decades, democratic governance in 
Africa is under attack. On the one hand, it is challenged by external 
threats from extremist terrorist organizations and; on the other hand, 
in some cases, by internal threats from autocratic regimes that fail to 
deliver public services, combat corruption and protect rights and 
freedoms. The international community should do everything in its power 
to help rid the continent of both existential threats. Friends of 
Africa must make sure that they do not, willingly or inadvertently, 
allow themselves to become accomplices in denying Africans their basic 
rights and freedoms and a secure, prosperous future.
    Thank you, Mr. Chairman and members of the subcommittee.


                               __________

                  Additional Questions for the Record

     responses to questions for the record submitted to hon. linda 
        thomas-greenfield and justin siberell by senator corker


    Question 1.  In each of the regions (Sahel, Somalia, Lake Chad) 
discussed during this hearing, what country or entity is the lead-
nation on the donor side in ensuring as coherent and effective a 
response to the mutual threats being confronted? Which of the regional 
countries in each region is the most important to achieving U.S. 
interests and why?

    Answer. Across the Sahel, the United States coordinates closely 
with international partners, most prominently France and the European 
Union (EU). The coordination with France in Mali, for example, is very 
strong, and our two governments cooperate both operationally and in 
design and implementation of foreign assistance programs. We also 
exchange information on a regular basis with European partners (such as 
the United Kingdom (UK), Germany, and Spain), as well as Canadian, 
Japanese, and Australian colleagues on shared interests in security 
sector reform, border security, counterterrorism capacity building, 
maritime security, and related topics.
    There is no single country that is most important to achieving U.S. 
interests in the Sahel. The Department of State places a significant 
emphasis on our support to Niger and Chad and on advancing the 
stability and development of Mali. Niger and Chad face threats 
emanating from Libya and from Boko Haram and are willing partners for 
the United States in train and equip programs, as well as in countering 
violent extremism programs. As in Mali, the U.S. cooperation with other 
international partners remains strong, most particularly with the EU's 
EUCAP-Sahel program. In fact, the United States will be discussing 
shared security and counterterrorism equities with the EU in a July 
security and development dialogue.
    In East Africa, donors coordinate assistance for the Somali 
national security forces through the New Deal Working Group on Security 
(Peacebuilding and Statebuilding Goal 2), which is currently co-chaired 
by the Governments of Somalia, the United States, and Turkey. 
Specifically with regard to the African Union Mission in Somalia 
(AMISOM), the AU takes the lead on coordination of donor assistance. We 
supplement these formal processes with direct consultations with other 
key donors and stakeholders, such as the EU, UK, France, and Turkey, as 
well as the individual AMISOM troop-contributing countries.
    There is no single most important country in the context of East 
Africa, as several partners each play important roles in promoting 
stability in the region. Burundi, Ethiopia, Kenya, and Uganda all 
contribute more than 4,000 troops each to AMISOM, and are providing 
security across broad swaths of the country. Djibouti, while playing a 
significantly smaller role in terms of AMISOM troop contributions, 
plays an equally important part by hosting the only U.S. base in the 
region, which in turn enables our own efforts to promote peace and 
stability. Somalia itself may ultimately prove most important, as 
professional, effective local security forces capable of confronting 
the threat posed by al-Shabaab are needed before AMISOM and other 
international counterterrorism efforts can be responsibly drawn down.
    In the Lake Chad Basin, we coordinate closely with other donors, 
especially the UK, France, and the EU, so that international partners 
fill coherent, effective, and complementary roles in helping partner 
countries counter Boko Haram. The foreign and defense ministries of the 
P3 capitals (U.S., UK, and France) interact regularly at both the 
assistant secretary level and the senior working level; the EU is often 
folded into these policy-level engagements. In the field, P3, EU, and 
UN agencies interact frequently so that our policies and political 
messaging are coordinated. These coordination efforts are also designed 
to ensure that our support to our African partners in their efforts to 
ultimately defeat Boko Haram is complementary and not duplicative or 
counterproductive.
    For example, the United States, UK, and France coordinate closely 
through the Coordination and Liaison Cell (CCL) to support the African-
led Multinational Joint Task Force (MNJTF), based in N'Djamena, Chad. 
Additionally, we continue to work closely with the EU so that its 50 
million Euro contribution to the MNJTF is effectively and efficiently 
utilized and does not duplicate other donor contributions. We also 
coordinate closely with the UN to provide humanitarian support to the 
people who have been displaced by Boko Haram's violence.
    The United States adheres to a regional strategy to counter Boko 
Haram, which supports the individual and joint efforts of each Lake 
Chad Basin country. We recognize, however, that Nigeria, Africa's most 
populous country and the origin of Boko Haram, fills an especially 
critical role in defeating Boko Haram and creating the conditions so 
those displaced by the terrorists can safely and voluntarily return to 
their homes and begin the arduous task of rebuilding.


    Question 2 Assistant Secretary Thomas-Greenfield made an important 
statement in support of AFRICOM as some have suggested it be folded 
back into EUCOM. Would you further enumerate the value and mechanisms 
for improving coherence in U.S. policies and efforts in the region? 
Does NEA concur with respect to an independent AFRICOM?

    Answer. The Bureau of African Affairs (AF) wholly supports U.S. 
Africa Command (AFRICOM) remaining as an independent command. Returning 
Africa to being a part-time focus for another geographic command would 
only be detrimental. The Bureau of Near Eastern Affairs (NEA) fully 
concurs.
    Although not directly related, military cooperation and assistance 
to Africa has grown immensely since AFRICOM's inception in 2007. 
African countries' participation in peacekeeping operations has nearly 
quadrupled, from over 17,859 to now 68,202 African personnel deployed 
on missions. Most of these African soldiers have been trained through a 
combination of State and DoD assistance. Global Peace Operations 
Initiative (GPOI)/Africa Contingency Operations Training and Assistance 
(ACOTA) partnerships have increased from 10 countries to 23. AFRICOM's 
role in supporting peacekeeping capacity building is also critical to 
the success of African peacekeeping. The National Guard State 
Partnership Program (SPP) has grown from five to 12. Today, even more 
than in 2007, it is critical to have an independent AFRICOM fully 
focused on the African continent.
    The Department of State (AF and NEA) and AFRICOM have consequently 
increased our interaction and cooperation tremendously since 2007. We 
regularly participate in AFRICOM's planning cycle, including their 
Africa Strategic Integration Conference, the Strategy to Activities and 
Resources Working Group, Posture Planning Conference, and the Planning 
Conferences for all major exercises. The Department holds several 
weekly video teleconferences with AFRICOM, from the front office down 
to the working action officer level. AFRICOM general officers are 
regular visitors at our office, and our working staffs are on a first 
name basis with their counterparts in Stuttgart.


    Question 3  What is the definition of CVE? How does CVE programming 
fit within the foreign assistance resourcing network and prioritized 
for funding relative to other funding? How is CVE management and 
programming nested in the executive branch and what entity leads the 
inter-agency effort in coordinating, planning, implementing, and 
evaluating CVE programming and why?

    Answer. The Department of State and USAID Joint Strategy on CVE 
defines CVE as ``proactive action to counter efforts by violent 
extremists to radicalize, recruit, and mobilize followers to violence 
and to address specific factors that facilitate violent extremist 
recruitment and radicalization to violence.'' This includes both 
disrupting the tactics used by violent extremists to attract new 
recruits and building specific alternatives, narratives, capabilities, 
and resiliencies in targeted communities and populations to reduce the 
risk of radicalization and recruitment to violence. CVE is a critical 
component of our overall counterterrorism strategy and is a priority 
for the U.S. Department of State (The Department) and U.S. Agency for 
International Development (USAID). CVE programming should complement 
larger efforts to promote good governance and the rule of law, respect 
for human rights, and sustainable, inclusive development.
    To advance the goals outlined in the Department and USAID's CVE 
Strategy, CVE Programming focuses on four areas: Research, Prevention, 
Intervention, and Rehabilitation & Reintegration.


 1. Research: Understanding the drivers of violent extremism at the 
        global, regional, and local levels, and determining the most 
        effective interventions to address those drivers including how 
        to measure and explain programmatic effectiveness;

 2. Prevention: Mitigating identified drivers of violent extremism, 
        including expanding government, civil society, and community 
        capacity to utilize tools that reduce vulnerability to violent 
        extremist radicalization, recruitment, and mobilization;

 3. Intervention: Countering violent extremist messaging and 
        recruitment tactics as well as providing positive alternatives, 
        narratives, and/or ``off-ramps'' for individuals caught in the 
        cycle of radicalization to violence; and

 4. Rehabilitation/Reintegration: Establishing policies and programs to 
        promote the effective rehabilitation and reintegration of 
        former violent extremists, including those in prisons.


    In FY17, the Department requested $186.7 million for CVE 
activities. This level is a $46.2 million increase over FY16, and a 
$61.3 million increase over FY15. This funding is requested to 
supplement activities in some of the most critical areas where 
elevating and expanding efforts is necessary to ensure we are 
adequately preventing and countering radicalization. In FY16, the 
Department will prioritize CVE efforts to the extent possible within 
the Counterterrorism Partnerships Fund (CTPF), however CTPF was 
appropriated exclusively as Nonproliferation, Anti-terrorism, Demining, 
and Related Program (NADR) funding, limiting the Department and USAID's 
ability to use CTPF to expand on prevention-related work, particularly 
with non-governmental and civil society partners who can be some of the 
most credible voices and effective actors to counter Da'esh messaging 
and recruitment, and counter support for violent extremism. In FY17, 
the Department requested $80 million for CTPF, $59 million of which is 
requested as Economic Support Funds (ESF), to foster expanded 
engagement with non-law enforcement partners. ESF funding is critical 
to addressing our CVE objectives in a comprehensive way.
    The 2015 Quadrennial Diplomacy and Development Review (QDDR) states 
that the Department of State will work to enhance, refine, and elevate 
ongoing CVE efforts, particularly those focused on prevention. Although 
there is not a single entity that leads the interagency effort CVE 
effort, the Department and USAID closely coordinate with relevant 
interagency partners to ensure maximum impact of USG CVE efforts. 
Secretary Kerry has directed the Bureau of Counterterrorism and 
Countering Violent Extremism (CT) to coordinate and serve as the lead 
for the Department of State's CVE work, including serving as a hub for 
the Department's CVE policy planning, assistance coordination and 
innovation, and external engagement. CT is also responsible for 
facilitating strategic coordination with the Global Engagement Center, 
USAID's CVE Secretariat and the domestic Interagency CVE Task Force, 
currently based at the Department of Homeland Security. These efforts 
will complement the bureau's critical ongoing work on other 
counterterrorism issues; for example, aviation security, counter 
terrorist finance, foreign terrorist fighters, designations and 
sanctions.


    Question 4.  Since 2005, the U.S. government's Trans-Sahara 
Counterterrorism Partnership (TSCTP) has been the primary U.S. 
counterterrorism initiative in northwest Africa and received nearly 
$300 million in allocated funds from 2009-2013.

   How have these resources been applied and how has the method and 
        mechanism for them evolved?

    Answer. The U.S. government allocated $297 million from fiscal 
years 2011 through 2016 for the Trans-Sahara Counterterrorism 
Partnership Program (TSCTP).
    Since 2005, TSCTP resources have been applied to: military 
counterterrorism capacity building through Peacekeeping Operations 
(PKO) funds; law enforcement and justice sector counterterrorism 
capacity building through Nonproliferation, Antiterrorism, Demining and 
Related (NADR) funds, and International Narcotics Control and Law 
Enforcement (INCLE) funds; and CVE programs through Economic Support 
Funds (ESF) and Development Assistance (DA). Earlier in the 
Partnership, such funds were programmed largely bilaterally with a 
significant focus on tactical and operational capacity building for 
military and law enforcement. CVE programs were innovative but less 
integrated with military and criminal justice sector investments.
    Today, TSCTP programs have an increasing focus on building 
institutions and the sustainment of capabilities, which has led to more 
frequent deployments of advisors and mentors. Through TSCTP we are also 
working to build synergies between these ``hard'' investments and the 
``soft'' side investments made through CVE programs with civil society 
participants. The interagency TSCTP community within the U.S. 
government has deliberately evolved program designs to complement the 
investments of our European and other international partners also 
working in the Maghreb and Sahel regions, rather than simply striving 
for de-confliction of programs. Border security coordination and 
information sharing is one way the United States has stepped forward, 
through TSCTP coordination mechanisms, to lead this work. Additionally, 
TSCTP programming seeks to bridge civilian and military divides through 
innovative program designs that encourage communication and cooperation 
between police, gendarmerie, and military in both training and exercise 
scenarios. Finally, the TSCTP programs include a stronger emphasis on 
truly regional programming, developing avenues for TSCTP member 
countries to train and exercise together, share information, and 
develop interoperable capabilities--such as Trilateral Cooperation 
training investments between Maghreb and Sahel partners.


    Question 5.  PREACT, or the Partnership for Regional East Africa 
Counterterrorism, is intended to help build the capacity of partner 
nations in the region to address the threat of al-Shabaab. A 2014 GAO 
report indicated that U.S. agencies had not fully considered and 
documented the extent to which partner nations could or would sustain 
U.S. training and equipment, negating the effect and value of such 
investments.

   How has the administration ensured partner commitments and aligned 
        investments with sustainable outcomes?

   How have these resources been applied and how has the method and 
        mechanism for them evolved?

   What is the prospect for a broader Africa regional mechanism?


    Answer. In response to the 2014 U.S. Government Accountability 
Office (GAO) report on the Partnership for Regional East Africa 
Counterterrorism (PREACT), the Department of State has improved 
documentation showing how key factors such as country needs, absorptive 
capacity, sustainment capacity, other U.S. efforts, and international 
partners' efforts inform PREACT program decisions. Additionally, in the 
last two years, both the Departments of State and Defense have deployed 
more advisors and mentors to the field to monitor partner nation 
sustainment of training and equipment investments. The Department of 
State also funds an external monitoring and evaluation (M&E) firm to 
monitor partner nation sustainment of military counterterrorism 
assistance supported by PREACT PKO. The monitoring of PKO funds 
provides an additional opportunity to validate partner commitments and 
the alignment of investments with the desired outcomes.
    In mid-2015, the Department of State reinvigorated our coordination 
efforts through PREACT to operationalize the administration's 
counterterrorism and countering violent extremism (CVE) goals. 
Interagency working level and more senior level meetings, occur 
regularly, and there is a renewed focus on streamlining processes and 
procedures across partners. The Department of State explicitly 
coordinates border security and CVE programs among the interagency and 
with international partners. The Department of State has also enhanced 
its oversight and coordination of these crucial security sector 
investments, as recommended by the 2014 GAO reviews of TSCTP and 
PREACT, through dedicated staff.
    In its management of PREACT, the Department of State relies on 
interagency coordination and convenes key U.S. interagency and other 
stakeholders on a regular basis to share information, assess progress 
toward our objectives, and design complementary program initiatives. 
U.S. Africa Command (AFRICOM) also hosts multiple planning events each 
year, and the Department of State participates to coordinate U.S. 
government security assistance in Africa, including specifically on 
counterterrorism. In addition, staff supporting PREACT collect and 
disseminate monitoring data, support a web-based information portal, 
update and maintain digests and matrices of relevant programming, and 
share relevant information both within the interagency and with the 
international community. The United States has very close working 
relationships with key international partners, in the region as well as 
with the UK, France, the EU, Canada, Japan, Germany, Spain, Australia, 
African and regional institutions, such as the AU, and international 
organizations and UN entities.
    A region-specific coordination mechanism like PREACT is necessary 
to address the extent of the threat in East and the Horn of Africa, 
specifically. The Department of State's Bureau of African Affairs has 
the responsibility for managing and overseeing both the PREACT and the 
Trans-Sahara Counterterrorism Partnership (TSCTP) coordination 
mechanisms, which enables a smooth transfer of best practices and 
lessons learned across the partnerships without having to merge into a 
single, broader coordination mechanism. Maintaining regionally-focused 
coordination mechanisms facilitates tailored approaches to specific 
threats (e.g., threats posed by al-Shabaab, versus Boko Haram, versus 
al-Qaeda in the Islamic Maghreb, etc.).


    Question 6.  Is the CVE, and now in the international partner 
realm--PVE, effort sufficiently experienced to effectively measure 
impact? How important are the non-kinetic military components to CVE/
PVE?

    Answer. The importance of developing effective tools for monitoring 
and evaluating Countering Violent Extremism (CVE) and Preventing 
Violent Extremism (PVE) programming is widely acknowledged in the 
international community. Department of State and U.S. Agency for 
International Development (USAID)'s CVE programs are now designed with 
the inclusion of monitoring and evaluation plans. Illustrative CVE 
measures of effectiveness include: (1) the knowledge and skills 
imparted to CVE practitioners by our CVE training; (2) how those CVE 
practitioners used the knowledge and skills they gained in their own 
initiatives; and (3) the reach and resonance of CVE messaging on local 
populations.
    The Department of State's Bureau of Counterterrorism and Countering 
Violent Extremism (CT) recently launched a comprehensive third-party 
evaluation of its CVE programming over the last several years, with a 
focus on Indonesia, Kenya, and Bangladesh. The Bureau of Conflict and 
Stabilization Operations (CSO) developed a monitoring and evaluation 
guide for CVE programs. The guide is intended to support embassy staff 
and program officers increase monitoring and evaluation standards and 
provide better feedback on what is or is not working in CVE 
interventions.
    The United States government must have a comprehensive approach to 
countering violent extremism. The Department of State is focused on a 
number of important priorities, including messaging and building 
partner capacity. We are working to blunt the violent extremist 
recruitment message in order to dissuade individuals or communities 
from being attracted to or aligning with violent extremist groups. We 
are working with partners to develop interventions that could stop and 
reverse a radicalization process. We engage diplomatically to encourage 
effective policies governments should adopt to rehabilitate those who 
have turned away from violence and terrorism, and to reintegrate them 
back into society. Further, U.S. military and host nation security 
forces are a critical component of a whole-of-government approach to 
countering and preventing violent extremism globally. Security forces 
play an integral role in mitigating grievances that are driving 
radicalization to violence at the local level. U.S. security forces and 
host nation security forces around the world are engaging in a broad 
range of non-kinetic military activities that contribute to a better 
understanding of violent extremism dynamics, and also activities that 
directly counter and prevent radicalization to violence through 
intelligence, civil affairs, information operations, and public affairs 
components. These types of non-kinetic military missions should be 
integrated into national-level and interagency CVE strategies and 
coordinated with civilian-led CVE activities.


    Question 7.  One key aspect of U.S. efforts to address terrorism in 
Africa is DOD's Global Train and Equip Program (GTEP), which develops 
partner nations' military capabilities for combating terrorist groups. 
Last year, countries in Africa got nearly $275 million through GTEP, 
but earlier this year GAO raised concerns about DOD's assessments of 
partner nation absorptive capacity and long term sustainment plans. 
Others have expressed concern that U.S. counterterrorism efforts are 
weighted too heavily toward military activities.


   What is the appropriate balance of civilian and military efforts to 
        combat terrorism?

   Is this balance being achieved in sub-Saharan Africa?

   How will it be achieved if it is not and how will it be sustained 
        if it is?


    Answer. The Departments of State and Defense work closely to 
formulate, plan and implement security assistance in Africa. The 
Presidential Policy Directive on Security Sector Assistance (PPD-23), 
released by the administration in 2013, guides this process. The 
directive mandates an inclusive, deliberate, whole-of-government 
approach to U.S. security sector assistance, which aligns activities 
and resources with our national security priorities. The directive 
calls for transparency and coordination across the U.S. government to 
develop long-term strategies for security sector assistance, which 
build the capacity of our partners in a way that is strategic and 
sustainable. Particularly through the coordination mechanisms of the 
Trans-Sahara Counterterrorism Partnership (TSCTP) and the Partnership 
for Regional East Africa Counterterrorism (PREACT), the U.S. government 
shares information in the design, assessment, monitoring, and reporting 
of both military and civilian security counterterrorism capacity 
building programs.
    The balance of civilian and military efforts to combat terrorism is 
different in each context. At this stage of the fight against Boko 
Haram, the support for military efforts is necessarily greater than 
civilian security efforts, since Nigerian Federal Police are not 
deployed in adequate numbers in Northeast Nigeria to perform 
stabilization and security functions.
    In another example, in the fight against al-Shabaab, military 
counterterrorism efforts are a higher priority in the short-term since 
the Federal Government of Somalia has designated the Somali National 
Army (SNA) to come in behind African Union Mission to Somalia (AMISOM) 
operations to stabilize newly liberated areas. However, in the case of 
Somalia, the medium- and long-term aims of police-led community 
security, versus security provided and led by the SNA, necessitates 
some adjustments to increase resources available for civilian security 
programming. The Department of State's programming and planning 
reflects this emphasis, responding to a need to develop capable police 
forces that will support stability created by AMISOM and the SNA.
    More broadly, U.S. departments and agencies supporting civilian 
security need additional resources, including additional funding and 
staff to manage and oversee the programs. The Department of State 
agrees that increased support is needed for police, gendarmerie, 
National Guard, and other civilian security providers as well as 
increased funding for development and good governance programing to 
complement the existing volumes of military assistance.


    Question 8.  The violence perpetrated by the Ethiopian government 
against protesters continues and troubling reports of hundreds of 
casualties, torture, and disappearances have raised grave concerns that 
the U.S. government is looking the other way. This is in addition to 
actions that continue to constrain and punish civil society.


   What specific actions has the U.S. government taken to address 
        these human rights and freedoms of Ethiopians?

   What steps has the Ethiopian government taken to improve the 
        volatile situation?

   What is the U.S. government assessment of the likelihood of a 
        violent uprising in Ethiopia over the next 5 years?


    Answer. The Department of State remains concerned about the 
situation in Oromia where the Ethiopian government's heavy-handed 
response to protests resulted in the death of numerous protestors and 
the arrests of many others, including journalists and political party 
leaders. As a result we have:


 1. Issued three public statements since December 2015 that articulated 
        our concerns about government and security forces' response to 
        Oromo protestors, called for meaningful dialogue, and cautioned 
        against using anti-terrorism laws to unduly silence independent 
        voices . . . voices we view as critical contributors toward 
        Ethiopia's growth and development goals.

 2. Increased embassy outreach throughout the Ethiopian countryside and 
        specifically to Oromia to engage local officials and the 
        community.

 3. Commended the recent release of a journalist, but continue to 
        underscore to Ethiopian government counterparts that for 
        meaningful dialogue to occur it must protect those rights 
        enshrined in its constitution, including the rights to freedom 
        of expression and to freedom of peaceful assembly. We remain 
        steadfast in emphasizing the importance of respect for due 
        process for those detained by investigating allegations of 
        mistreatment, publicly presenting the evidence it possesses 
        against them, and distinguishing between political opposition 
        to the government and the use of violence. These steps would 
        contribute positively to building trust and goodwill, and 
        indicate a shift away from a security-centric response to 
        protests in the Oromia region.

 4. Deepened relationships with government and non-government actors 
        such as the Ethiopian Human Rights Commission, the Ethiopia 
        Institution of the Ombudsman, and the Office of the National 
        Human Rights Action Plan at the Ministry of Justice, among 
        others, through whom we encourage Ethiopia to hold to account 
        those who have committed human rights violations.

 5. Assistant Secretary of State for Democracy, Human Rights, and Labor 
        Assistant Secretary Malinowski traveled to Ethiopia three times 
        to follow-up on democracy, good governance, and human rights 
        issues discussed during President Obama's July 2015 visit. 
        Assistant Secretary Malinowski discussed with counterparts 
        possible avenues for expanding U.S. assistance in building the 
        capacity of Ethiopian civil society, including by addressing 
        some of the elements of Ethiopian law that place an especially 
        onerous burden on civil society organizations. He has 
        consistently communicated to the Ethiopian government that a 
        capable, empowered civil society can and would be an important 
        ally for a government that prides itself on governance.

 6. At the 6th bilateral Democracy, Governance, and Human Rights 
        Working group, where the U.S. was represented by Ambassador 
        Haslach and Assistant Secretary Malinowski, the situation in 
        the Oromia figured prominently along with other issues such as 
        the important role civil society plays in strengthening good 
        governance. At the conclusion, the Government of Ethiopia 
        reaffirmed a commitment to strengthen governance and political 
        pluralism in keeping with the principles enshrined in its 
        constitution.


    The Prime Minister and other Ethiopian officials have publicly 
acknowledged the legitimate grievances of the Oromo people and the need 
for accountability. The outbreaks of violence in Oromia are, they 
agree, a symptom of these governance failures.
    The Government of Ethiopia announced on January 13 it had cancelled 
the Addis Ababa Master plan, which was a positive development, but not 
a solution in itself to address these complex underlying issues. In his 
March 10 address to Parliament, the Prime Minister confirmed that the 
problems in Oromia ``are direct results of (government) 
unresponsiveness and unemployment.''
    We understand the government is investigating instances of 
corruption that contributed to the grievances Oromo protestors have 
highlighted.
    We understand the Ethiopian Human Rights Commission is 
investigating the situation in Oromia, and we continue to encourage 
officials to be transparent with the findings and to pursue every way 
possible to ensure, and also be transparent about, subsequent 
accountability.
    A democratic, secure, and prosperous Ethiopia is in the best 
interest of the country's citizens. In our private and public 
engagements with Ethiopian officials we underscore the indelible link 
between these goals. To help build long-term peace and stability, 
citizens of all countries, including Ethiopia, must be able to freely 
participate in political life and discourse. This allows grievances and 
ideas to be channeled in a peaceful manner. We thus continue to 
encourage Ethiopia to respect the constitutionally-enshrined rights of 
its citizens.
    While we understand that mass protests in Oromia have largely 
abated we continue to encourage the Ethiopian government to take 
further steps to rebuild trust with the community and engage in 
meaningful dialogue. Only through such dialogue will Ethiopia find its 
firmest footing as a nation.


    Question 9.  Kenya remains subject to considerable threat from Al 
Shabaab and despite close collaboration with the international 
community, continues to react with considerable violation of human 
rights and extra-judicial activities and ill-advised policies in key 
minority regions of the country.


   What progress has been made by the Kenyan government in improving 
        their rule of law practice and addressing security force 
        impunity, if any?

   What mechanisms is the U.S. and others prepared to employ to 
        improve such policies?


    Answer. The Kenyan security forces and the Kenyan people are facing 
very real and serious threats, some of which are also directed at U.S. 
persons and interests in Kenya. As the President has noted, we stand 
with Kenya in its fight against terrorism and consistently underscore 
that respect for human rights and the rule of law are important 
elements in the fight against terror.
    We strongly condemn reports of human rights violations by Kenyan 
security forces and have consistently urged full investigations of 
allegations and accountability for any individuals found responsible. 
We take seriously our relevant legal and policy restrictions on the 
provision of assistance. Ongoing U.S. training seeks to increase the 
professionalism and capacity of partner forces to carry out difficult 
jobs effectively while respecting human rights. We are also providing 
support for independent police oversight bodies, and assisting internal 
and external police accountability mechanisms to improve integrity, 
accountability, and transparency in the Kenyan police services.
    Trainees and units are screened so that we provide assistance in a 
manner consistent with our legal requirements and Department policy, 
and training includes modules devoted to respect for human rights and 
the rule of law. We have excluded some Kenyan individuals and units 
from U.S. government training as a result of concerns about human 
rights violations. We continue to review all available information to 
protect against the Department of State supporting training and 
assistance to units who have committed gross violations of human 
rights.
    Senior U.S. government officials will continue to raise at the 
highest levels of the Kenyan government concerns about human rights 
violations by Kenyan security forces. We emphasize that any such 
violations are counterproductive, and place receipt of U.S. security 
assistance at risk. We stress the need for a sustainable and effective 
long-term counterterrorism strategy in Kenya that incorporates 
government and civil society perspectives. Moreover, we consistently 
urge the Kenyan government to hold those responsible for human rights 
violations accountable and engage more constructively with members of 
populations at risk of recruitment to violent extremism, including 
coastal communities.
    Countering the threat of violent extremism requires the full 
participation of all members of Kenya's diverse population. Through the 
Security Governance Initiative, we are working with the Kenyan 
government to enhance police human resources management and the 
administration of justice in order to foster greater public confidence 
in security institutions, prevent the marginalization of segments of 
Kenya's population, remove obstacles hindering effective prosecution, 
and allow all citizens access to judicial resources and recourse.


    Question 10.  Recent reports indicate that the export of religious 
education funding from the Middle East/Gulf region to smaller African 
countries is proceeding apace.


   Is such financing and associated engagement by these donor 
        countries of concern? Is it accelerating?

   What does it mean to see continued export of religious influenced 
        funding for mosques and madrasas from sects that have 
        historically supported extreme ideology?

   Are Salafist groups still exporting violent jihad to unexpected 
        locales or are those in common areas of investment having 
        outsized impact?


    Answer. Several countries in the Middle East, and in the Gulf 
Region in particular, continue to play an increasingly influential role 
in advancing development, security, commercial, and humanitarian 
objectives in Africa. This assistance, when coordinated closely with 
others in the international donor community, can amplify our collective 
efforts to support African governments working toward developing 
capacities to deliver critical services to underserved or under-
resourced populations.
    Religious education is often a viable alternative to schools that 
are out of reach for many African families, both physically and 
financially. While it is difficult to say whether external donor 
support from the Middle East for religious education in Africa is 
accelerating, we are always concerned when our African partners lack 
the tools necessary to provide viable education options to those who 
seek them and most need them. We continue to engage African countries 
on these issues, and work closely with those eager to improve access to 
education in their countries.
    Many African countries have become increasingly vocal about trends 
in radicalization and raised concerns about the perceived propagation 
of extremist ideology by certain foreign-funded religious organizations 
and training programs. Though most of the outreach conducted by 
religious charities and non-governmental organizations in Africa is for 
non-violent purposes, there are concerns that a select few of these 
entities can be misused by violent extremists, facilitators, and 
financiers to support terrorist activity on the continent or elsewhere. 
This is one of the reasons we are committed to working with African 
governments to develop effective solutions to counter violent extremist 
ideology.
    The Department of State can provide classified information about 
groups seeking to export violent messaging or actions in Africa 
separately.


                               __________

            responses to questions for the record submitted 
           to hon. linda thomas-greenfield by senator cardin


    Question 1.  A Washington Post story from Monday, May 9 relayed a 
troubling story alleging Somalia's National Intelligence and Security 
Agency (NISA)--which it says we help to fund--uses children as spies.
    Is there any truth to the allegations about NISA's use of child 
spies? What have we communicated to the Somalis about this, and what 
are we going to do if the practice continues?

    Answer. We have no additional information to substantiate the 
Washington Post allegations that NISA uses children as spies. The 
United States supports the Federal Government of Somalia's National 
Program for Disengaged Combatants, which calls for the Somali 
government to transfer al-Shabaab defectors under the age of 18 to 
UNICEF or UNICEF-affiliated partners.
    Following the publication of the Washington Post story, the Prime 
Minister of Somalia announced the establishment of a fact-finding 
committee to investigate the allegations regarding NISA's use of child 
spies. The United States continues to press the Somali government to 
adhere to its commitments as a party to the Convention on the Rights of 
the Child.


    Question 2.  As you know, combined Department of State and 
Department of Defense funding for security assistance in Africa has 
grown from just over $500 million in FY13 to approximately $1 billion 
in FY15. At the same time, the amounts available for democracy building 
have fallen from $230 million in FY13 to only $170 million in FY15. 
Support for democracy and governance and anti-corruption are critical 
components of counterterrorism efforts, but these activities are 
significantly underfunded. I wrote Secretary Kerry to express my 
concern about the imbalance in October of last year.


   Will the administration meet the directive in the FY16 Omnibus for 
        $312 million for democracy and governance activities in Africa?

   What specific steps has the administration taken to ensure that we 
        are complementing our security assistance with democracy and 
        governance funding in countries with poor human rights and 
        democracy records?


    Answer. We agree that democracy, human rights, and governance (DRG) 
programs are an important component of our efforts to support 
resilient, open, and democratic societies in Africa and around the 
globe. In FY 2016, while the 653(a) allocations fulfill the hard 
earmark of $2.3 billion for democracy programs worldwide, we agree that 
funding for DRG programs in Africa falls short of meeting some 
important needs in this sector for the region. The FY 2016 
appropriation and accompanying Statement of Managers (SOM) report 
greatly increase the number and amount of country and sectoral funding 
directives from previous years and limit the Department's and USAID's 
ability to deviate from directed levels in the FY 2016 653(a) report. 
Relative to the President's request, the appropriation also 
significantly cuts the major accounts that fund DRG programs in Africa. 
These factors made it difficult to allocate resources for DRG programs 
globally as strategically as possible even as we met the $2.3 billion 
hard earmark.
    Now that the 653(a) report has been submitted, we are reviewing 
options to determine what flexibility we might have to increase support 
for DRG in Africa including within the five percent flexibility as well 
as potentially through Congressional notification. The Office of U.S. 
Foreign Assistance Resources (F) and USAID's Office of Budget Resources 
Management (BRM) are working closely with the State and USAID Africa 
Bureaus as well as with the Bureau for Democracy, Human Rights and 
Labor (State/DRL) and the Bureau for Democracy, Conflict, and 
Humanitarian Assistance (USAID/DCHA) to ensure that DRG resources 
globally reflect the most strategic allocation possible within funding 
constraints, including by looking to address priority DRG funding 
shortfalls in Africa by shifting current and prior-year funds to meet 
the most critical gaps.
    We recognize that human rights sensitive security assistance and 
core democracy, human rights, and governance programming in the region 
are essential to progress in Africa. Democracy, human rights, and 
governance (DRG) are fundamental objectives in and of themselves: a 
lack of democratic governance creates an enabling environment for 
instability, violent extremism, and humanitarian crises, which often 
are a result of corruption, poor governance, and weak or nonexistent 
democratic institutions. The U.S. government also recognizes the 
importance of DRG to achieving and sustaining global development goals, 
as well as key U.S. foreign policy objectives.
    While the President's request in recent years has included 
increasing support for DRG programs in Africa, in the past, annual 
appropriations bills have reduced funding for the key foreign 
assistance accounts that support DRG programs, which has made it 
difficult to fully fund DRG programs included within the President's 
Request, including DRG programs in Africa.
    The FY 2017 foreign assistance request includes $343.2 million for 
DRG programs in Africa and presents the opportunity to partially 
reverse this trend by supporting peaceful transitions of power, reform 
efforts, and civil society engagement. There is a critical link between 
DRG programs and security sector assistance within Africa. Many of our 
security assistance accounts also fund activities that touch on rule of 
law and human rights concerns. This does not replace the need for core 
DRG funding, but it is important to note that some of our security 
assistance contributes to DRG objectives.


    Question 3.  A number of our counterterrorism partners in Africa 
have been criticized for failing to adequately and transparently hold 
security forces accountable for alleged abuses against civilians. For 
example, Amnesty International has alleged that the Nigerian military 
killed 350 people in Zaria in December, and buried the bodies in mass 
graves to conceal evidence. The Anti-Terrorism Police Unit in Kenya has 
also been accused of extrajudicial killings of youth and alleged terror 
suspects. I have introduced a resolution calling for the Ethiopian 
government to investigate the recent killings of unarmed protesters in 
Oromia and elsewhere in Ethiopia.


   What diplomatic efforts and programmatic support is the U.S. 
        providing to the military and civilian justice institutions of 
        our counterterrorism partners to ensure they have the capacity 
        to hold perpetrators accountable? Are Title 10 funds available 
        for these types of activities in Africa?

   President Buhari stated that he would leave no stone unturned to 
        deal with all cases of human rights abuses. What efforts has 
        the Nigerian government made to investigate or try abuses under 
        either his administration or that of his predecessor?

   Has the Ethiopian government committed to investigate alleged 
        killings and other abuses associated with the recent crackdown 
        in response to protests in Oromia and similar abuses in other 
        parts of the country against civil society, journalists and 
        others? What has been our response to these abuses?


    Answer. The Department strongly condemns human rights abuses by any 
security forces and has consistently urged full investigations of 
allegations and accountability for individuals found responsible. We 
take seriously our responsibility to withhold or condition our 
assistance in light of applicable legal requirements and ethical 
principles. Ongoing U.S. training seeks to increase the professionalism 
and capacity of partner militaries and law enforcement to carry out 
difficult jobs effectively while respecting human rights. Trainees and 
units are screened in accordance with the Leahy law, and all training 
includes modules devoted to respect for human rights and the rule of 
law. In several countries, we have excluded individuals and units from 
U.S. government training as a result of concerns about human rights 
abuses. We continue to review all available information to avoid 
providing training and assistance to units who have committed gross 
violation of human rights.
    Senior U.S. government officials raise with partner governments at 
the highest levels our concerns about human rights violations by 
security forces. The Department emphasizes that any such violations are 
wrong, counterproductive, and place elements of U.S. security 
assistance at risk. Moreover, we consistently urge our partners at the 
executive and ministerial levels, as well as with security force 
commanders, to bring those responsible for human rights violations to 
justice and engage more constructively with members of populations at 
risk of recruitment to violent extremism. Our diplomatic engagements 
continue to forge a common understanding of how and why we continue to 
uphold our firm and resolute policy to not support individuals or units 
that have been implicated in gross violations of human rights.
    The White House Security Governance Initiative (SGI) is an 
important tool for us to dedicate diplomatic engagement and programming 
resources to strengthen the institutions that govern the security 
sector. For instance, we are working with the Government of Kenya to 
strengthen the justice system by improving access to justice and 
efficiency of the case management, and the police human resource 
management system by improving internal and external police mechanisms 
that address integrity, accountability, and transparency. In Niger, we 
are supporting the government to align resources with strategic 
security priorities, improve human, material, and financial resource 
management, and more effectively communicate its security and defense 
policy to the public. In Mali, we are collaborating with officials in 
Bamako to improve inter-ministerial coordination across the security 
sector, to enhance both the Ministry of Defense and the National Police 
efforts to improve recruitment and human resource management, and 
position Ministry of Justice human capital to implement their justice 
reform strategy. We are in the process of launching SGI partnerships in 
Nigeria, Ghana, and Tunisia. These and other program interventions 
across the continent align our policy messages with our program 
dollars. SGI and complementary programming through other accounts 
support institutional development that will generate and sustain 
security forces that conduct their work in accordance with rule of law 
and respectful of human rights.
    The USAFRICOM Office of Legal Counsel conducts Legal Engagement 
programming on rule of law and human rights; this includes strategic 
communications as well as work with African economic and security 
organizations and military-to-military contacts. In addition, the 
Defense Institute for International Legal Studies (DIILS) provides 
training, seminars, and exchanges to help build this capacity in our 
international partners, to include numerous African countries. Kenya's 
Anti-terrorism Police Unit, or the ATPU, is not eligible for Title 10 
funds. The Department of State has supported particular elements within 
the ATPU through the Antiterrorism Assistance (ATA) program on crisis 
response, investigations, and related topics. Each ATA course and 
consultation includes human rights modules that emphasize the 
importance of conducting policing in a rule of law framework.
    We consistently urge the Nigerian government to take all reports of 
human rights allegations seriously and investigate them thoroughly. We 
stress the importance of respecting human rights and protecting 
civilians in all security responses. During his May 2016 visit to 
Nigeria, Deputy Secretary Blinken said, ``[Respecting human rights] is 
the right thing to do, but it is also the smart thing to do . . . 
because ignoring the human rights of citizens risks turning them to 
extremism and fueling the very fire that we seek to extinguish 
together.'' We regularly raise our concerns with the Nigerian 
government about its response to the threat of violent extremism 
throughout the country, including its detention policy and practices, 
which various NGOs and international experts assert violate 
international law. We also discuss related issues with civil society 
organizations.
    The Nigerian military should provide for disciplined military 
operations in accordance with clear rules of engagement and 
international law, humane treatment of all detainees, continued and 
expanded access for the independent monitoring of all detention 
facilities, and accountability for all perpetrators of unlawful 
violence and timely justice for victims and their families. In his May 
2015 inauguration speech, President Buhari called for overhauling ``the 
rules of engagement to avoid human rights' violations in [military] 
operations'' and improving ``operational and legal mechanisms so that 
disciplinary steps are taken against proven human right violations by 
the Armed Forces.''
    Last summer, in recognition of the need for enhanced accountability 
in the military, President Buhari appointed new leadership for the 
military. And in a further effort to improve the protection of 
civilians and the overall fight against Boko Haram, President Buhari 
moved the command and control center of the military from Abuja to 
Maiduguri, the epicenter of the conflict in northeastern Nigeria.
    In March 2016, the Nigerian Army, working together with civil 
society organizations, created human rights offices that will 
strengthen the Army's capacity to protect human rights. The Nigerian 
Defense Headquarters also inaugurated a Defense Advisory Committee on 
Human Rights to monitor and investigate allegations of human rights 
abuses within the military.
    In addition, since December 2015, at least six separate 
investigations of the Zaria incident are underway by the Nigerian 
Senate and House of Representatives, the National Human Rights 
Commission, and the Judicial Commission of Inquiry established by 
Kaduna State, among others. We continue to urge those carrying out 
investigations to do so credibly, swiftly, thoroughly, and with 
impartiality.
    The Department issued a statement on April 29 expressing concern 
over the Government of Ethiopia's decision to file terrorism charges 
against Oromo Federalist Congress (OFC) First Vice-Chairman Bekele 
Gerba and others in the Oromia. The statement also noted that the 
government has not yet held accountable any security forces responsible 
for alleged abuses. This latest statement was preceded by three 
statements issued since December 2015 that articulated our concerns 
about government and security forces' response to Oromo protestors and 
called for meaningful dialogue . . . to include independent voices. Our 
Embassy has increased outreach throughout the Ethiopian countryside and 
specifically to Oromia to engage local officials and the community.
    The Department understands the Ethiopian Human Rights Commission is 
investigating the protests in Oromia. We also understand the government 
is investigating instances of corruption that contributed to the 
grievances Oromo protestors have highlighted. We continue to encourage 
officials to be transparent with the findings and also be transparent 
about subsequent accountability. We remain concerned about the 
situation in Oromia where the government's heavy-handed response to 
protests resulted in the death of numerous protestors and the arrests 
of many others, including journalists and political party leaders. We 
underscore to Ethiopian government counterparts that in order for 
meaningful dialogue to occur, they must protect the rights enshrined in 
its constitution, including the rights to freedom of expression and to 
freedom of peaceful assembly. We remain steadfast in emphasizing the 
importance of respect for due process for those detained by 
investigating allegations of mistreatment, publicly presenting the 
evidence it possesses against them, and distinguishing between 
political opposition to the government and the use of violence. These 
steps would contribute positively to building trust and goodwill and 
indicate a shift away from a security-centric response to protests in 
the Oromia region.
    Assistant Secretary of State for Democracy, Human Rights, and Labor 
Assistant Secretary Malinowski traveled to Ethiopia three times to 
follow-up on democracy, good governance, and human rights issues 
discussed during President Obama's July 2015 visit. A/S Malinowski has 
discussed with counterparts possible avenues for expanding U.S. 
assistance in building the capacity of Ethiopian civil society, 
including by addressing some of the elements of Ethiopian law that 
place an especially onerous burden on civil society organizations. He 
has consistently communicated to the Ethiopian government that a 
capable, empowered civil society can and would be an important ally for 
a government that prides itself on governance. At the 6th bilateral 
Democracy, Governance, and Human Rights Working group, attended by 
Ambassador Haslach and Assistant Secretary Malinowski, the situation in 
the Oromia figured prominently along with other issues such as the 
important role civil society plays in strengthening good governance. At 
the conclusion, the government of Ethiopia reaffirmed a commitment to 
strengthen governance and political pluralism in keeping with the 
principles enshrined in its constitution.
    We continue to work with our African partners to develop and 
implement sustainable, effective, long-term counterterrorism strategies 
that incorporate government and civil society perspectives.


    Question 4.  USAID has indicated that endemic corruption is one of 
the so called ``push factors'' that favors the spread of violent 
extremism. Sarah Chayes, of the Carnegie Endowment for International 
Peace, contends that corruption can be a significant factor in 
increasing violent extremism. There appears to be political will in 
Nigeria starting with President Buhari to root out government 
corruption.


   What is the administration doing to support the Nigerian government 
        in this effort? How are we engaging at the local level where 
        state governments appear to have political will, especially 
        those in the northeast affected by Boko Haram?

   How is the administration building anti-corruption principles into 
        its security sector activities in Nigeria?

   How can we be assured that Buhari's anti-corruption activities are 
        focused on institutional reforms?



    Answer. The Buhari administration has made a promising start in its 
ambitious goal of rolling back corruption in Nigeria. Actions to date 
include several high-profile prosecutions of former senior officials, 
including a former Minister of Defense, a former National Security 
Advisor, and a former Minister of Petroleum. The prospect of the 
successful prosecution of high-ranking government officials for 
corruption, which Nigeria has never seen, is sending a strong signal. 
The government has initiated a number of corruption investigations 
through the Economic and Financial Crimes Commission (EFCC), and taken 
serious steps to limit opportunities for graft in the government.
    U.S. anti-corruption efforts in Nigeria focus on capacity building 
assistance to civil society watchdogs, journalists, law enforcement 
agencies, and the judicial sector. The United States supports work by 
the EFCC and the judiciary to investigate and prosecute complex 
corruption cases. These efforts are designed to partner with Nigeria in 
preventing, exposing, investigating, and prosecuting acts of 
corruption, and to pursue the recovery of stolen assets. We 
consistently urge the Nigerian government to pursue investigations in a 
non-partisan manner.
    Other promising anti-corruption steps taken by the Government of 
Nigeria under the Buhari administration include the establishment of 
the Treasury Single Account, which has prevented leakages by increasing 
oversight of all agencies spending by consolidating agency receipts 
into a unified account for audit and tracking purposes; efforts to 
reform the state oil company and the EFCC; and enhanced implementation 
of the law on asset declaration by senior officials.
    The key to fighting corruption in Nigeria is institutionalizing a 
culture of accountability, which means enhancing transparency and 
accountability mechanisms across government institutions. We will 
continue to partner with Nigeria to ensure that the country continues 
along this path of pursuing institutional reforms. The Government of 
Nigeria has indicated that it will prioritize improving public 
financial management, broadening the tax base to protect the economy 
from future oil price shocks, and enhancing debt management systems in 
light of expected new borrowing. We are prepared to offer technical 
assistance to support this agenda through the Department of the 
Treasury's Office of Technical Assistance (OTA), pending a formal 
request from the Minister of Finance. Additionally, we welcome 
Nigeria's decision to join the Open Government Partnership (OGP), a 
global community of like-minded states working together to strengthen 
transparency, accountability, and good governance to deliver better 
government services to citizens. We stand ready to assist the 
Government of Nigeria with its development of its OGP National Action 
Plan.
    We are encouraging Nigeria to join the Partnership on Illicit 
Finance, which aims to build governments' capacity to identify and 
prevent illicit financial activity, including that which is linked to 
corruption. We are also committed to leading by example on anti-
corruption efforts, including through the U.S. domestic transparency 
agenda, the enforcement of the Foreign Corrupt Practices Act, 
cooperation on stolen asset recovery, and use of visa authorities to 
deny corrupt officials entry to the United States.
    We intend to look for ways to continue efforts to recover stolen 
Nigerian assets within U.S. jurisdiction, and have sent experts to 
consult with the Government of Nigeria on the formulation of requests 
for legal assistance. Nigeria will also be one of the beneficiary 
countries of the inaugural Global Forum on Asset Recovery, which the 
U.S. will co-host next year with the UK.
    Pending Congressional Notification of funds (CN 16-098), we also 
plan to work with the United Nations to specifically address corruption 
as a driver of violent extremism in the Sahel and West Africa, 
including in Nigeria. This includes addressing corruption's role in 
resilience, border security, and the damaging effects on countries' 
security sectors. At the state and local level, USAID supports 
initiatives promoting responsive governance, including governance 
programs in Sokoto and Bauchi states, enhanced credibility for 
elections, and increased capacity for civic engagement. USAID also 
builds capacity in key government agencies to strengthen fiscal 
responsibilities and improve transparency.
    Through President Obama's Security Governance Initiative (SGI), we 
are partnering with the Government of Nigeria to enhance the management 
of security and justice services, including in northeast Nigeria. 
Proposed areas of focus include improving the Ministry of Interior's 
nationwide emergency response planning and coordination capability; 
enhancing the Ministry of Defense's materiel needs identification, 
procurement, and acquisitions procedures and processes; and assisting 
planning for civilian security in northeastern Nigeria.
    Over the past two years, a multi-year multi-million dollar grant 
funded by the State Department has enhanced civil society's capacity to 
partner with government agencies and businesses to fight graft in the 
security and judicial sectors. This project includes developing new 
technologies for citizen corruption-busters, and is helping Nigeria 
adhere to the principles of the Open Government Partnership, a global 
community of like-minded states working together to strengthen 
transparency, accountability, and good governance to deliver better 
government services to citizens. As a result of this project, a U.S.-
supported crowd-sourced platform allows citizens to anonymously report 
corruption within the police, and the National Police force decided in 
the fall of 2015 to expand this platform nationwide in cooperation with 
civil society.


    Question 5.  Four Trans-Sahara Counterterrorism Partnership (TSCTP) 
countries--Mali, Niger, Mauritania, and Burkina Faso--have experienced 
military coups or attempted coups while participating in the program. 
Mali was a significant recipient of military aid under TSCTP prior to 
its 2012 military coup. Since then, Mali's military has displayed 
severe capacity shortfalls and elements of the security forces have 
been accused of serious human rights abuses.


   What progress has been made through TSCTP in building partner 
        capacity in each of the aforementioned countries?

   Do you assess that TSCTP countries are better able to effectively 
        combat terrorism and manage border security as a result of 
        their participation in TSCTP?


    Answer. The Trans-Sahara Counterterrorism Partnership (TSCTP) has 
focused on countries that are among the poorest in the world and have 
had significant capacity gaps, but most of these partners have 
demonstrated significant improvements in key areas and increased 
political will to work individually and regionally to address terrorism 
and violent extremism challenges emanating from the Lake Chad Basin 
region, Libya, and Mali. TSCTP engagements in Niger, Mauritania, and 
Burkina Faso significantly contributed to their abilities to more 
effectively address terrorism and violent extremism threats. We have 
also witnessed increased commitments by partner countries to the more 
holistic whole-of-government CT and CVE approaches promoted by TSCTP. 
Terrorist organizations no longer hold large sections of territory or 
population centers. They cannot conduct major military-style campaigns 
and have reverted to their more traditional asymmetric style of 
warfare. The capacity that the U.S. has patiently built over 16 years 
has figured prominently in this counterterrorism success. Specifically:


    Mali:  Despite long term challenges, Mali has displayed a 
willingness to work with the United States and allies such as France 
and the European Union to address shortfalls in CT capacity. The 
international community must stay engaged with Mali over the long-term 
to promote increased stability and resilience in the face of multiple 
terrorism threats. Following the 2012 coup and the subsequent French 
and African intervention to roll back terrorist territorial gains in 
northern Mali, TSCTP partner countries Niger and Chad have played 
critical roles in assisting French and Malian forces to contain and 
degrade the terrorist threat. TSCTP was active in Mali before the 2012 
coup, but its current engagements are relatively modest and no longer 
focus on building tactical unit-level security sector capacity. In 
coordination with the President's Security Governance Initiative (SGI), 
TSCTP is focused on institution building including in the security 
sector, as well as focused CVE and law enforcement programs.

    Niger:  President Issoufou's government has demonstrated strong 
political will to sustain CT and CVE efforts and Nigerien security 
forces, both military and law enforcement, have responded well to 
engagement with the United States. Niger actively patrols the 
trafficking routes in northern Mali and along the Libyan border. Niger 
is a key member of the counter-Boko Haram Multinational Joint Task 
Force (MNJTF). TSCTP has historically invested heavily in support of 
Niger's border security units, and Niger's relatively strong 
performance in the Lake Chad region and along the Libya and Mali 
borders is reflective of that support. Recognizing that Niger does not 
have adequate forces to sustain efforts to counter threats along three 
separate fronts, TSCTP is currently supporting Niger's basic training 
school. It also supports focused programs logistics, command and 
control, military intelligence and casualty evacuation.

    Mauritania: Mauritania has also been a committed and effective CT 
partner. TSCTP created effective ground and air forces to counter 
Violent Extremist Organizations (VEOs) operating out of northern Mali. 
Responding to terrorist threats in northern Mali before and immediately 
after Mali's 2012 coup, U.S.-trained and equipped Mauritanian ground 
forces used U.S.-supplied Intelligence, Surveillance, and 
Reconnaissance (ISR) equipment, reinforced with their own light attack 
aircraft, to defeat VEOs. Since then, the VEO threat to Mauritania has 
greatly diminished with no recent attacks. TSCTP is currently focused 
on working with Mauritania to sustain the range of projects launched 
during the last several years in strong cooperation with our Allies, 
France and Morocco.

    Burkina Faso:  Burkina Faso had not faced a significant VEO threat 
until the hotel bombing in Ouagadougou this year. The Department is 
formulating a strategy to assist partners like Burkina Faso facing 
asymmetric threats. TSCTP has focused on Burkina Faso's border security 
in the past and National Defense Authorization Act Section 2282 funds 
may build on that effort. Burkina Faso has been a solid partner with 
the United States, permitting the long-term stationing of up to six 
United States aircraft in Ouagadougou that perform light 
transportation, casualty evacuation, and ISR missions throughout the 
region.


    Question 6.  The Kenyan government has indicated that it plans to 
close the Dadaab and Kakuma refugee camps, which collectively provide 
sanctuary for approximately 600,000 people.


   What have we discussed with the Kenyan government about the 
        implications of closing the camps? When will the closures take 
        place and what will happen to the hundreds of thousands of 
        inhabitants?

   What will happen to refugees that are not living in the camps? Will 
        they be expelled? Is it true that Kenya will no longer allow 
        refugees into the country?


    Answer. We are deeply concerned by the Government of Kenya's 
announcement of plans to close refugee camps in Kenya, dismantle the 
Department of Refugee Affairs, and compel the repatriation of hundreds 
of thousands of refugees who have sought international protection in 
Kenya. We deeply appreciate the hospitality and commitment that Kenya 
has shown over decades of hosting refugees. In high-level engagements 
in Washington and Nairobi, including a call between Secretary Kerry and 
President Kenyatta, we continue to urge Kenya to maintain its global 
leadership role on refugees consistent with its international 
obligations. These obligations must be upheld.
    Following their initial announcement, the Government of Kenya has 
said that they do not intend to close the Kakuma refugee camp. We also 
have no indication that refugees outside of the Dadaab camp complex are 
to be targeted at this point in time. Kenya has not explicitly said how 
it will deal with new asylum-seekers; however, it has said that Somalis 
will no longer have prima facie status, implying that new arrivals 
would be screened for refugee status.
    Kenya's plans to close the Dadaab refugee camp complex by the end 
of 2016 and repatriate refugees could put returnees in danger, given 
the ongoing conflict in Somalia. We have warned the Government of Kenya 
that the disruption, displacement, and hardship caused by closing the 
camps could well make thousands of displaced, unemployed, and homeless 
people vulnerable to recruitment by violent extremist groups to the 
detriment of Kenya's security.
    We have informed Kenyan officials that we as donors will not fund 
or otherwise support involuntary repatriation of refugees in 
contravention to international refugee law and Kenya's obligations. We 
strongly support the voluntary return of refugees safely and with 
dignity, when and where conditions are appropriate in their countries 
of origin, including in Somalia.
    We have encouraged Kenya to continue to work with the Office of the 
UN High Commissioner for Refugees (UNHCR) and the Federal Government of 
Somalia under the terms of the 2013 Tripartite Agreement on the 
voluntary repatriation of Somali refugees living in Kenya as conditions 
allow. We have reiterated that we remain committed to working with 
Kenya and international partners to find durable solutions for 
refugees, including voluntary returns in a matter that upholds 
international refugee law and respects humanitarian standards. The 
United States has provided hundreds of millions of dollars to help 
Kenya host refugees and has resettled more refugees coming from Kenya 
than any other country.
    We will continue to urge the Kenyan government to uphold its 
international obligations while exploring new approaches and 
partnerships to ensure shared global responsibility for supporting 
refugees and host communities in Kenya and other refugee-hosting 
countries.


                               __________

            responses to questions for the record submitted 
                  to hon. linda etim by senator cardin


    Question 1.  As you know, combined Department of State and 
Department of Defense funding for security assistance in Africa has 
grown from just over $500 million in FY13 to approximately $1 billion 
in FY15. At the same time, the amounts available for democracy building 
have fallen from $230 million in FY13 to only $170 million in FY15. 
Support for democracy and governance and anti-corruption are critical 
components of counterterrorism efforts, but these activities are 
significantly underfunded. I wrote Secretary Kerry to express my 
concern about the imbalance in October of last year. Will the 
administration meet the directive in the FY16 Omnibus for $312 million 
for democracy and governance activities in Africa? What specific steps 
has the administration taken to ensure that we are complementing our 
security assistance with democracy and governance funding in countries 
with poor human rights and democracy records?

    Answer. The administration's FY 2016 653(a) allocations fulfill the 
overall directive level of $2.3 billion for democracy programs 
worldwide, however, due to other global constraints in the foreign 
assistance budget, funding for DRG programs in Africa currently falls 
short of the level in the FY 2016 Omnibus. The FY 2016 appropriation 
and accompanying Statement of Managers report increase the number and 
amount of country and sectoral funding directives from previous years 
and limit USAID's ability to deviate from directed levels in the FY 
2016 653(a) report. Relative to the President's request, the 
appropriation also significantly cuts the major accounts that fund DRG 
programs in Africa. These factors made it difficult to allocate 
resources for DRG programs to conform to the Statement of Managers.
    Now that the 653(a) report has been submitted, we are reviewing 
options to determine what flexibility we might have to increase support 
for DRG in Africa including within the 5 percent flexibility provided 
by the FY 2016 Omnibus as well as potentially through the 
identification of prior year funds. The Office of U.S. Foreign 
Assistance Resources and USAID's Office of Budget Resources Management 
are working closely with the State Department and USAID Africa Bureaus 
as well as with the State Department's Bureau for Democracy, Human 
Rights and Labor and USAID's Bureau for Democracy, Conflict, and 
Humanitarian Assistance to ensure that DRG resources globally reflect 
the most strategic allocation possible within funding constraints, 
including by looking to address priority DRG funding shortfalls in 
Africa through shifting current and prior year funds to meet the most 
critical gaps.
    In all countries including those challenged by crises, insecurity 
or closing political space, USAID plans carefully with interagency 
partners to ensure that development interventions complement and 
reinforce diplomatic and security activities to advance U.S. foreign 
policy objectives. Regular country team meetings convened by the 
Embassy are one venue in which such information can be shared. On 
particular issues of broad interest, such as elections or ongoing 
conflict or humanitarian situations, more frequent working-level 
meetings are convened to discuss the complementarity of various 
agencies' efforts. Particularly in countries with poor human rights and 
democracy records, development assistance may play a critical role in 
helping to strengthen accountability and responsiveness, ensure checks 
and balances, and facilitate credible and peaceful elections, thereby 
reducing the potential for further backsliding and instability. With 
the DRG funding available, USAID's planning in such countries considers 
several factors such as the willingness of the host government to 
permit programs to operate and the likelihood of programs to have an 
impact.


    Question 2.  USAID has indicated that endemic corruption is one of 
the so called ``push factors'' that favors the spread of violent 
extremism. Sarah Chayes, of the Carnegie Endowment for International 
Peace, contends that corruption can be a significant factor in 
increasing violent extremism. There appears to be political will in 
Nigeria starting with President Buhari to root out government 
corruption.What is the administration doing to support the Nigerian 
government in this effort? How are we engaging at the local level where 
state governments appear to have political will, especially those in 
the northeast affected by Boko Haram? How can we be assured that 
Buhari's anti-corruption activities are focused on institutional 
reforms?

    Answer. USAID's Nigeria portfolio supports President Buhari's anti-
corruption agenda by focusing on increasing the supply and demand for 
transparency and accountability, and on supporting free and fair 
elections, which have become a battleground to control resources. These 
programmatic choices were made based on a 2013 USAID analysis of the 
state of Nigeria's democracy and governance, which identified multiple 
forms of corruption as key problems, and further pinpointed two key 
avenues through which corruption takes hold. The first is the role of 
state and local governments which control the majority of resources and 
foster broad-based corruption. The second is the competition for 
elected positions to control patronage systems in Nigeria. With this in 
mind, USAID designed a portfolio of programs that promote citizen 
responsive governance at state and local levels, enhance the 
credibility of elections, and increase capacity for civil society-
government engagement. The success of our programs in contributing to 
long-term reform will depend upon the actions of the Nigerian 
government and especially President Buhari's own administration. Time 
will tell if President Buhari is truly committed and able to implement 
institutional reforms to fight corruption.
    Since 2009, USAID's seven-year, $45 million Leadership, 
Empowerment, Advocacy and Development project has been building the 
capacity of local and state governments to assume greater 
responsibility in addressing the demands of their constituents. The 
project works with local and state governments in Sokoto, Bauchi and 
Rivers States to improve service delivery in health, education, and 
water and sanitation. It promotes citizen participation in government 
decision-making processes to ensure and maintain greater transparency. 
The project also assists state and local government units to delegate 
authority for local decision-making and to regularize mechanisms for 
citizen participation.
    In addition, USAID aims to strengthen civil society's ability to 
influence the development and implementation of key democratic reforms 
at the national, state, and local levels. Stakeholder consultations 
identified transparency, increased participation of vulnerable groups, 
and accountability of state actors as critical components of progress. 
The five-year, $19.2 million Strengthening Advocacy and Civic 
Engagement project addresses these gaps and supports government reforms 
to reduce corruption. The program began in January 2014, and is co-
funded by USAID ($16.7m) and Partnership in the Niger Delta ($2.5m).
    USAID supports the northeastern state governments of Yobe, Adamawa 
and Borno to decrease the perception of marginalization of the 
communities in the northeast by working closely to deliver basic 
services in key areas--water, schools, local government offices, and 
basic infrastructure that visibly demonstrate the redeployment of 
public administration. USAID also works to increase engagement between 
the communities and the government in order to build trust--such as 
hosting community meetings, discussions, inauguration events of public 
infrastructure, and other activities.


    Question 3.  Measuring effectiveness: We've pushed our development 
agencies very hard over the last 15 years to measure and prove the 
Return on Investment to the American taxpayer of every aid dollar in 
development, which helped spearhead new efficiencies and innovations. 
USAID's implementers now have sophisticated program design, measurement 
and impact processes. How are we leveraging best practices in M&E from 
the development side of our foreign assistance into the governance and 
CVE spaces?

    Answer. USAID plans and implements programs designed to improve the 
development status of the people in the selected countries and regions 
around the world in which we work. In order to achieve these 
development results and to ensure accountability for taxpayer 
resources, we strive to continuously learn and refine our programmatic 
approaches. USAID's program performance, monitoring and evaluation 
policies apply to our programs in democracy, human rights and 
governance (DRG) and countering violent extremism (CVE) as they do to 
all other development sectors.
    USAID's 2013 DRG Strategy reaffirmed USAID's commitment to 
generate, analyze, and disseminate rigorous, systematic and publicly 
accessible evidence in all aspects of DRG policy, strategy and program 
development, implementation and evaluation. To realize this commitment, 
USAID has developed a DRG Learning Agenda, created a significant 
portfolio of impact evaluations and other research, and set about 
organizing and disseminating research findings. Formulated through a 
consultative process, the DRG Learning Agenda for 2016 is comprised of 
12 research questions in priority DRG development areas for which USAID 
intends to organize and disseminate existing data, generate new 
evidence, and produce recommendations through academic research, 
program and impact evaluations, and multi-method tests of the theories 
of change that guide DRG programming.
    USAID has also pioneered impact evaluation in the DRG sector 
through a combination of co-financing, development of impact evaluation 
procurement mechanisms, and through DRG Center-hosted impact evaluation 
clinics. To date, USAID has completed eight impact evaluations in the 
DRG sector, has eight impact evaluations ongoing, and 16 impact 
evaluations in design.
    In addition to impact evaluations, USAID has provided technical 
assistance to field missions around the world for 22 performance 
evaluations, five high-quality public opinion surveys, and 13 original 
research grants. Completed evaluations and other DRG research helps 
test and validate DRG assumptions and theories of change, and refine 
DRG programmatic approaches. DRG research, including technical 
publications, assessments, best practices, and lessons learned 
documents is available on USAID's website at https://www.usaid.gov/
node/33416.
    The use of development tools in preventing violent extremism is 
most effective when performed in line with other measures to counter 
violent extremism, and when seamlessly integrated into existing 
poverty-alleviation and good governance programs funded by USAID. In 
the design of USAID's CVE programs, we first conduct an assessment to 
determine which push and pull factors increase vulnerability to violent 
extremism recruitment in local contexts. USAID designs CVE programs to 
address vulnerabilities identified during the assessment. For example, 
drivers of violent extremism might be the marginalization of certain 
ethnic or religious minorities, a personal experience of injustice 
perpetrated by the state, or a lack of avenues for youth to positively 
engage in society. We develop metrics to measure the effectiveness of 
lessening the identified drivers of extremism. This could be in the 
form of perception surveys that probe the population's trust in formal 
government, for example, or identify the number of youth choosing to 
engage in legal economic activity. USAID also periodically commissions 
national public opinion surveys in African countries affected by 
conflict, independent of specific programs, to gauge the likelihood of 
backsliding into conflict.
    We have invested significant resources to monitor and evaluate CVE 
programming, gathering both quantitative and qualitative data. For 
example, lessons learned from evaluations of CVE programming in West 
and East Africa have been used to inform more effective approaches to 
CVE. Additionally, USAID programming builds the skills of local 
partners through training in monitoring and evaluation and data 
collection, and supports local institutions to undertake independent 
research and evaluation. In addition, many CVE programs call for 
periodic assessments to gather data for use in monitoring and 
evaluation.
    Taken together, these predictive and diagnostic tools provide a 
strong foundation upon which recommendations might be based for 
development priorities in the countries that face steep challenges with 
fragility and risk of violent extremism today, as well as those that 
may face those challenges in the future.


                               __________

            responses to questions for the record submitted 
                  to justin siberell by senator cardin


    Question 1.  A number of our counterterrorism partners in Africa 
have been criticized for failing to adequately and transparently hold 
security forces accountable for alleged abuses against civilians. For 
example, Amnesty International has alleged that the Nigerian military 
killed 350 people in Zaria in December, and buried the bodies in mass 
graves to conceal evidence. The Anti-Terrorism Police Unit in Kenya has 
also been accused of extrajudicial killings of youth and alleged terror 
suspects. I have introduced a resolution calling for the Ethiopian 
government to investigate the recent killings of unarmed protesters in 
Oromia and elsewhere in Ethiopia.


   What diplomatic efforts and programmatic support is the U.S. 
        providing to the military and civilian justice institutions of 
        our counterterrorism partners to ensure they have the capacity 
        to hold perpetrators accountable? Are Title 10 funds available 
        for these types of activities in Africa?

   President Buhari stated that he would leave no stone unturned to 
        deal with all cases of human rights abuses. What efforts has 
        the Nigerian government made to investigate or try abuses under 
        either his administration or that of his predecessor?

   Has the Ethiopian government committed to investigate alleged 
        killings and other abuses associated with the recent crackdown 
        in response to protests in Oromia and similar abuses in other 
        parts of the country against civil society, journalists and 
        others? What has been our response to these abuses?


    Answer. The Department strongly condemns human rights abuses by any 
security forces and has consistently urged full investigations of 
allegations and accountability for individuals found responsible. We 
take seriously our responsibility to withhold or condition our 
assistance in light of applicable legal requirements and ethical 
principles. Ongoing U.S. training seeks to increase the professionalism 
and capacity of partner militaries and law enforcement to carry out 
difficult jobs effectively while respecting human rights. Trainees and 
units are screened in accordance with the Leahy law, and all training 
includes modules devoted to respect for human rights and the rule of 
law. In several countries, we have excluded individuals and units from 
U.S. government training as a result of concerns about human rights 
abuses. We continue to review all available information to avoid 
providing training and assistance to units who have committed gross 
violation of human rights.
    Senior U.S. government officials raise with partner governments at 
the highest levels our concerns about human rights violations by 
security forces. The Department emphasizes that any such violations are 
wrong, counterproductive, and place elements of U.S. security 
assistance at risk. Moreover, we consistently urge our partners at the 
executive and ministerial levels, as well as with security force 
commanders, to bring those responsible for human rights violations to 
justice and engage more constructively with members of populations at 
risk of recruitment to violent extremism. Our diplomatic engagements 
continue to forge a common understanding of how and why we continue to 
uphold our firm and resolute policy to not support individuals or units 
that have been implicated in gross violations of human rights.
    The White House Security Governance Initiative (SGI) is an 
important tool for us to dedicate diplomatic engagement and programming 
resources to strengthen the institutions that govern the security 
sector. For instance, we are working with the Government of Kenya to 
strengthen the justice system by improving access to justice and 
efficiency of the case management, and the police human resource 
management system by improving internal and external police mechanisms 
that address integrity, accountability, and transparency. In Niger, we 
are supporting the government to align resources with strategic 
security priorities, improve human, material, and financial resource 
management, and more effectively communicate its security and defense 
policy to the public. In Mali, we are collaborating with officials in 
Bamako to improve inter-ministerial coordination across the security 
sector, to enhance both the Ministry of Defense and the National Police 
efforts to improve recruitment and human resource management, and 
position Ministry of Justice human capital to implement their justice 
reform strategy. We are in the process of launching SGI partnerships in 
Nigeria, Ghana, and Tunisia. These and other program interventions 
across the continent align our policy messages with our program 
dollars. SGI and complementary programming through other accounts 
support institutional development that will generate and sustain 
security forces that conduct their work in accordance with rule of law 
and respectful of human rights.
    The USAFRICOM Office of Legal Counsel conducts Legal Engagement 
programming on rule of law and human rights; this includes strategic 
communications as well as work with African economic and security 
organizations and military-to-military contacts. In addition, the 
Defense Institute for International Legal Studies (DIILS) provides 
training, seminars, and exchanges to help build this capacity in our 
international partners, to include numerous African countries. Kenya's 
Anti-terrorism Police Unit, or the ATPU, is not eligible for Title 10 
funds. The Department of State has supported particular elements within 
the ATPU through the Antiterrorism Assistance (ATA) program on crisis 
response, investigations, and related topics. Each ATA course and 
consultation includes human rights modules that emphasize the 
importance of conducting policing in a rule of law framework.
    We consistently urge the Nigerian government to take all reports of 
human rights allegations seriously and investigate them thoroughly. We 
stress the importance of respecting human rights and protecting 
civilians in all security responses. During his May 2016 visit to 
Nigeria, Deputy Secretary Blinken said, ``[Respecting human rights] is 
the right thing to do, but it is also the smart thing to do . . . 
because ignoring the human rights of citizens risks turning them to 
extremism and fueling the very fire that we seek to extinguish 
together.'' We regularly raise our concerns with the Nigerian 
government about its response to the threat of violent extremism 
throughout the country, including its detention policy and practices, 
which various NGOs and international experts assert violate 
international law. We also discuss related issues with civil society 
organizations.
    The Nigerian military should provide for disciplined military 
operations in accordance with clear rules of engagement and 
international law, humane treatment of all detainees, continued and 
expanded access for the independent monitoring of all detention 
facilities, and accountability for all perpetrators of unlawful 
violence and timely justice for victims and their families. In his May 
2015 inauguration speech, President Buhari called for overhauling ``the 
rules of engagement to avoid human rights' violations in [military] 
operations'' and improving ``operational and legal mechanisms so that 
disciplinary steps are taken against proven human right violations by 
the Armed Forces.''
    Last summer, in recognition of the need for enhanced accountability 
in the military, President Buhari appointed new leadership for the 
military. And in a further effort to improve the protection of 
civilians and the overall fight against Boko Haram, President Buhari 
moved the command and control center of the military from Abuja to 
Maiduguri, the epicenter of the conflict in northeastern Nigeria.
    In March 2016, the Nigerian Army, working together with civil 
society organizations, created human rights offices that will 
strengthen the Army's capacity to protect human rights. The Nigerian 
Defense Headquarters also inaugurated a Defense Advisory Committee on 
Human Rights to monitor and investigate allegations of human rights 
abuses within the military.
    In addition, since December 2015, at least six separate 
investigations of the Zaria incident are underway by the Nigerian 
Senate and House of Representatives, the National Human Rights 
Commission, and the Judicial Commission of Inquiry established by 
Kaduna State, among others. We continue to urge those carrying out 
investigations to do so credibly, swiftly, thoroughly, and with 
impartiality.
    The Department issued a statement on April 29 expressing concern 
over the Government of Ethiopia's decision to file terrorism charges 
against Oromo Federalist Congress (OFC) First Vice-Chairman Bekele 
Gerba and others in the Oromia. The statement also noted that the 
government has not yet held accountable any security forces responsible 
for alleged abuses. This latest statement was preceded by three 
statements issued since December 2015 that articulated our concerns 
about government and security forces' response to Oromo protestors and 
called for meaningful dialogue . . . to include independent voices. Our 
Embassy has increased outreach throughout the Ethiopian countryside and 
specifically to Oromia to engage local officials and the community.
    The Department understands the Ethiopian Human Rights Commission is 
investigating the protests in Oromia. We also understand the government 
is investigating instances of corruption that contributed to the 
grievances Oromo protestors have highlighted. We continue to encourage 
officials to be transparent with the findings and also be transparent 
about subsequent accountability. We remain concerned about the 
situation in Oromia where the government's heavy-handed response to 
protests resulted in the death of numerous protestors and the arrests 
of many others, including journalists and political party leaders. We 
underscore to Ethiopian government counterparts that in order for 
meaningful dialogue to occur, they must protect the rights enshrined in 
its constitution, including the rights to freedom of expression and to 
freedom of peaceful assembly. We remain steadfast in emphasizing the 
importance of respect for due process for those detained by 
investigating allegations of mistreatment, publicly presenting the 
evidence it possesses against them, and distinguishing between 
political opposition to the government and the use of violence. These 
steps would contribute positively to building trust and goodwill and 
indicate a shift away from a security-centric response to protests in 
the Oromia region.
    Assistant Secretary of State for Democracy, Human Rights, and Labor 
Assistant Secretary Malinowski traveled to Ethiopia three times to 
follow-up on democracy, good governance, and human rights issues 
discussed during President Obama's July 2015 visit. A/S Malinowski has 
discussed with counterparts possible avenues for expanding U.S. 
assistance in building the capacity of Ethiopian civil society, 
including by addressing some of the elements of Ethiopian law that 
place an especially onerous burden on civil society organizations. He 
has consistently communicated to the Ethiopian government that a 
capable, empowered civil society can and would be an important ally for 
a government that prides itself on governance. At the 6th bilateral 
Democracy, Governance, and Human Rights Working group, attended by 
Ambassador Haslach and Assistant Secretary Malinowski, the situation in 
the Oromia figured prominently along with other issues such as the 
important role civil society plays in strengthening good governance. At 
the conclusion, the government of Ethiopia reaffirmed a commitment to 
strengthen governance and political pluralism in keeping with the 
principles enshrined in its constitution.
    We continue to work with our African partners to develop and 
implement sustainable, effective, long-term counterterrorism strategies 
that incorporate government and civil society perspectives.


    Question 2.  USAID has indicated that endemic corruption is one of 
the so called ``push factors'' that favors the spread of violent 
extremism. Sarah Chayes, of the Carnegie Endowment for International 
Peace, contends that corruption can be a significant factor in 
increasing violent extremism. There appears to be political will in 
Nigeria starting with President Buhari to root out government 
corruption.


   What is the administration doing to support the Nigerian government 
        in this effort? How are we engaging at the local level where 
        state governments appear to have political will, especially 
        those in the northeast affected by Boko Haram?

   How is the administration building anti-corruption principles into 
        its security sector activities in Nigeria?

   How can we be assured that Buhari's anti-corruption activities are 
        focused on institutional reforms?


    Answer. The Buhari administration has made a promising start in its 
ambitious goal of rolling back corruption in Nigeria. Actions to date 
include several high-profile prosecutions of former senior officials, 
including a former Minister of Defense, a former National Security 
Advisor, and a former Minister of Petroleum. The prospect of the 
successful prosecution of high-ranking government officials for 
corruption, which Nigeria has never seen, is sending a strong signal. 
The government has initiated a number of corruption investigations 
through the Economic and Financial Crimes Commission (EFCC), and taken 
serious steps to limit opportunities for graft in the government.
    U.S. anti-corruption efforts in Nigeria focus on capacity building 
assistance to civil society watchdogs, journalists, law enforcement 
agencies, and the judicial sector. The United States supports work by 
the EFCC and the judiciary to investigate and prosecute complex 
corruption cases. These efforts are designed to partner with Nigeria in 
preventing, exposing, investigating, and prosecuting acts of 
corruption, and to pursue the recovery of stolen assets. We 
consistently urge the Nigerian government to pursue investigations in a 
non-partisan manner.
    Other promising anti-corruption steps taken by the Government of 
Nigeria under the Buhari administration include the establishment of 
the Treasury Single Account, which has prevented leakages by increasing 
oversight of all agencies spending by consolidating agency receipts 
into a unified account for audit and tracking purposes; efforts to 
reform the state oil company and the EFCC; and enhanced implementation 
of the law on asset declaration by senior officials.
    The key to fighting corruption in Nigeria is institutionalizing a 
culture of accountability, which means enhancing transparency and 
accountability mechanisms across government institutions. We will 
continue to partner with Nigeria to ensure that the country continues 
along this path of pursuing institutional reforms. The Government of 
Nigeria has indicated that it will prioritize improving public 
financial management, broadening the tax base to protect the economy 
from future oil price shocks, and enhancing debt management systems in 
light of expected new borrowing. We are prepared to offer technical 
assistance to support this agenda through the Department of the 
Treasury's Office of Technical Assistance (OTA), pending a formal 
request from the Minister of Finance. Additionally, we welcome 
Nigeria's decision to join the Open Government Partnership (OGP), a 
global community of like-minded states working together to strengthen 
transparency, accountability, and good governance to deliver better 
government services to citizens. We stand ready to assist the 
Government of Nigeria with its development of its OGP National Action 
Plan.
    We are encouraging Nigeria to join the Partnership on Illicit 
Finance, which aims to build governments' capacity to identify and 
prevent illicit financial activity, including that which is linked to 
corruption. We are also committed to leading by example on anti-
corruption efforts, including through the U.S. domestic transparency 
agenda, the enforcement of the Foreign Corrupt Practices Act, 
cooperation on stolen asset recovery, and use of visa authorities to 
deny corrupt officials entry to the United States.
    We intend to look for ways to continue efforts to recover stolen 
Nigerian assets within U.S. jurisdiction, and have sent experts to 
consult with the Government of Nigeria on the formulation of requests 
for legal assistance. Nigeria will also be one of the beneficiary 
countries of the inaugural Global Forum on Asset Recovery, which the 
U.S. will co-host next year with the UK.
    Pending Congressional Notification of funds (CN 16-098), we also 
plan to work with the United Nations to specifically address corruption 
as a driver of violent extremism in the Sahel and West Africa, 
including in Nigeria. This includes addressing corruption's role in 
resilience, border security, and the damaging effects on countries' 
security sectors. At the state and local level, USAID supports 
initiatives promoting responsive governance, including governance 
programs in Sokoto and Bauchi states, enhanced credibility for 
elections, and increased capacity for civic engagement. USAID also 
builds capacity in key government agencies to strengthen fiscal 
responsibilities and improve transparency.
    Through President Obama's Security Governance Initiative (SGI), we 
are partnering with the Government of Nigeria to enhance the management 
of security and justice services, including in northeast Nigeria. 
Proposed areas of focus include improving the Ministry of Interior's 
nationwide emergency response planning and coordination capability; 
enhancing the Ministry of Defense's materiel needs identification, 
procurement, and acquisitions procedures and processes; and assisting 
planning for civilian security in northeastern Nigeria.
    Over the past two years, a multi-year multi-million dollar grant 
funded by the State Department has enhanced civil society's capacity to 
partner with government agencies and businesses to fight graft in the 
security and judicial sectors. This project includes developing new 
technologies for citizen corruption-busters, and is helping Nigeria 
adhere to the principles of the Open Government Partnership, a global 
community of like-minded states working together to strengthen 
transparency, accountability, and good governance to deliver better 
government services to citizens. As a result of this project, a U.S.-
supported crowd-sourced platform allows citizens to anonymously report 
corruption within the police, and the National Police force decided in 
the fall of 2015 to expand this platform nationwide in cooperation with 
civil society.


    Question 3.  Four Trans-Sahara Counterterrorism Partnership (TSCTP) 
countries--Mali, Niger, Mauritania, and Burkina Faso--have experienced 
military coups or attempted coups while participating in the program. 
Mali was a significant recipient of military aid under TSCTP prior to 
its 2012 military coup. Since then, Mali's military has displayed 
severe capacity shortfalls and elements of the security forces have 
been accused of serious human rights abuses. What progress has been 
made through TSCTP in building partner capacity in each of the 
aforementioned countries? Do you assess that TSCTP countries are better 
able to effectively combat terrorism and manage border security as a 
result of their participation in TSCTP?

    Answer. The Trans-Sahara Counterterrorism Partnership (TSCTP) has 
focused on countries that are among the poorest in the world and have 
had significant capacity gaps, but most of these partners have 
demonstrated significant improvements in key areas and increased 
political will to work individually and regionally to address terrorism 
and violent extremism challenges emanating from the Lake Chad Basin 
region, Libya, and Mali. TSCTP engagements in Niger, Mauritania, and 
Burkina Faso significantly contributed to their abilities to more 
effectively address terrorism and violent extremism threats. We have 
also witnessed increased commitments by partner countries to the more 
holistic whole-of-government CT and CVE approaches promoted by TSCTP. 
Terrorist organizations no longer hold large sections of territory or 
population centers. They cannot conduct major military-style campaigns 
and have reverted to their more traditional asymmetric style of 
warfare. The capacity that the U.S. has patiently built over 16 years 
has figured prominently in this counterterrorism success. Specifically:


    Mali: Despite long term challenges, Mali has displayed a 
willingness to work with the United States and allies such as France 
and the European Union to address shortfalls in CT capacity. The 
international community must stay engaged with Mali over the long-term 
to promote increased stability and resilience in the face of multiple 
terrorism threats. Following the 2012 coup and the subsequent French 
and African intervention to roll back terrorist territorial gains in 
northern Mali, TSCTP partner countries Niger and Chad have played 
critical roles in assisting French and Malian forces to contain and 
degrade the terrorist threat. TSCTP was active in Mali before the 2012 
coup, but its current engagements are relatively modest and no longer 
focus on building tactical unit-level security sector capacity. In 
coordination with the President's Security Governance Initiative (SGI), 
TSCTP is focused on institution building including in the security 
sector, as well as focused CVE and law enforcement programs.

    Niger: President Issoufou's government has demonstrated strong 
political will to sustain CT and CVE efforts and Nigerien security 
forces, both military and law enforcement, have responded well to 
engagement with the United States. Niger actively patrols the 
trafficking routes in northern Mali and along the Libyan border. Niger 
is a key member of the counter-Boko Haram Multinational Joint Task 
Force (MNJTF). TSCTP has historically invested heavily in support of 
Niger's border security units, and Niger's relatively strong 
performance in the Lake Chad region and along the Libya and Mali 
borders is reflective of that support. Recognizing that Niger does not 
have adequate forces to sustain efforts to counter threats along three 
separate fronts, TSCTP is currently supporting Niger's basic training 
school. It also supports focused programs logistics, command and 
control, military intelligence and casualty evacuation.

    Mauritania: Mauritania has also been a committed and effective CT 
partner. TSCTP created effective ground and air forces to counter 
Violent Extremist Organizations (VEOs) operating out of northern Mali. 
Responding to terrorist threats in northern Mali before and immediately 
after Mali's 2012 coup, U.S.-trained and equipped Mauritanian ground 
forces used U.S.-supplied Intelligence, Surveillance, and 
Reconnaissance (ISR) equipment, reinforced with their own light attack 
aircraft, to defeat VEOs. Since then, the VEO threat to Mauritania has 
greatly diminished with no recent attacks. TSCTP is currently focused 
on working with Mauritania to sustain the range of projects launched 
during the last several years in strong cooperation with our Allies, 
France and Morocco.

    Burkina Faso: Burkina Faso had not faced a significant VEO threat 
until the hotel bombing in Ouagadougou this year. The Department is 
formulating a strategy to assist partners like Burkina Faso facing 
asymmetric threats. TSCTP has focused on Burkina Faso's border security 
in the past and National Defense Authorization Act Section 2282 funds 
may build on that effort. Burkina Faso has been a solid partner with 
the United States, permitting the long-term stationing of up to six 
United States aircraft in Ouagadougou that perform light 
transportation, casualty evacuation, and ISR missions throughout the 
region.


                               __________

            responses to questions for the record submitted 
              to linda thomas-greenfield by senator perdue


    Question.  I understand that the major sources of financing for 
Boko Haram and Al-Shabaab stem from connections with Al-Qa'ida, 
primarily from North Africa.


   To what extent, if at all, does the State Department's Counter-
        terrorism Financing Program (CTF) work with DoD ground forces 
        to target carriers of cash and other hard assets from North 
        Africa to the Sub-Saharan region?

    Answer. The Department of State is committed to countering the 
financing of groups like Boko Haram, al-Shabaab, and al-Qa'ida. In this 
context, we use all of the policy tools at our disposal, to include 
sanctioning individuals and groups under the Department of State's 
Foreign Terrorist Organization and Executive Order 13224 authorities, 
as well as building the anti-money laundering and countering the 
financing of terrorism capacity of countries in Africa.
    The Department of State's counterterrorist financing (CTF) 
capacity- building programs are not operationally oriented and, as 
such, are not designed to augment DoD initiatives. Rather, our CTF 
programming aims to build the capacity of local civilian law 
enforcement partners, including banking regulators, to counter 
terrorist financing through better information-sharing, investigations, 
and prosecutions. This approach builds local capacity to address the 
context-specific nature of the CTF threat, as sources of financing for 
terrorist groups vary significantly depending on the organization.
    For example, in Senegal, Morocco, and Algeria, the Department of 
State deploys Department of Justice, Office of Overseas Prosecutorial 
Development Assistance and Training, Resident Legal Advisors to 
strengthen existing anti-money laundering and counter-terrorism 
financing (AML/CTF) regimes through support for legislative and 
institutional reforms and training on CTF investigations and 
prosecutions. In Tunisia, the Department of State funds activities to 
develop the capacity of the Tunisian Financial Intelligence Unit and 
other financial sector regulators to identify, report, and deter 
terrorist financial activity through consultations and training.
    In Somalia, the Department of State is funding the Treasury 
Department to provide regulatory training for officials from the 
Central Bank of Somalia (CBS). The Department of State also supports 
efforts to help Somali financial sector stakeholders identify, 
investigate, and deter the financing of terrorism; this includes 
mentoring stakeholders on how to effectively implement Somalia's 
nascent laws in the area of AML/CFT.


    Question 2.  Boko Haram in particular profits from an active slave 
market in Nigeria which fuels much of their incentive to kidnap and 
ransom young girls and foreign nationals.


   In addition to working with the Treasury Department and local 
        partners to prosecute kidnappings, what efforts does State have 
        in place aimed at targeting the slave market itself?

   Has the Nigerian government been cooperative in targeting this 
        market?

   Is there any evidence that Boko Haram is also involved in 
        trafficking some of those they kidnap to other countries?

   How effective is the PISCES system in catching the flow of 
        traffickers and/or victims of trafficking?


    Answer. Trafficking in persons is a modern day form of slavery. 
Nigeria has a multifaceted human trafficking problem, which includes 
several different forms of sex and labor trafficking. Boko Haram 
forcefully recruits and uses child soldiers as young as 12 years old 
and abducts women and girls in the northern region of Nigeria, some of 
whom it subjects to domestic servitude, forced labor, and sex slavery 
through forced marriages to its militants.
    The United States actively continues to support efforts to locate 
and bring home kidnapped victims of Boko Haram. We continue to provide 
a range of assistance to Nigerian authorities to fight Boko Haram, 
including intelligence, training, victim support services, and 
strategic communications. Our assistance has directly contributed to 
the Nigerian military's liberation of hundreds of Boko Haram captives.
    The Department's Office to Monitor and Combat Trafficking in 
Persons (TIP) and Embassy Abuja regularly work together to engage with 
the Government of Nigeria on trafficking in persons issues. The 
Department also produces the annual Trafficking in Persons Report, 
which includes a detailed assessment of the Government of Nigeria's 
efforts to combat this crime.
    The Government of Nigeria has made significant efforts to combat 
its human trafficking problem. It has comprehensive anti-trafficking 
legislation and an agency dedicated to combat human trafficking 
(NAPTIP) that is a model for the region. Nigeria has shelters to assist 
trafficking victims and continues to investigate, prosecute, and 
convict traffickers. NAPTIP officials are responsive to our requests 
for information and cooperative. However, NAPTIP's ability to address 
the violent acts perpetuated by Boko Haram is very limited. They have 
occasionally provided shelter and services to victims who have been 
subjected to trafficking by Boko Haram.
    Because PISCES is not installed in Nigeria, it cannot directly stop 
human trafficking there. PISCES can be an effective means of 
interdicting nefarious actors, but depends on the host nation recipient 
of this foreign assistance program to effectively maintain its national 
screening list. Assuming the bad actors transit a port of entry 
employing PISCES technology, and the person of interest is properly 
screened against the national screening list, PISCES would effectively 
identify the individual as suspect and worthy of further scrutiny.


    Question 3.  How would you describe the channels through which Boko 
Haram and al Shabaab obtain their weapons and military equipment?


   Do their weapons come mostly from African sources, or sources from 
        other continents?

   What efforts are State and/or DoD employing to target potential 
        channels of weapons flows to hotbeds of terrorism in Sub-
        Saharan Africa?


    Answer. We believe that Boko Haram continues to use weapons it has 
diverted from Nigerian security forces, and to a lesser extent 
neighboring security forces.
    The United States is committed to working bilaterally and 
multilaterally with the Lake Chad Basin countries through training, 
equipment, advisors, information sharing, military sales and logistics 
support to support the regional security efforts to counter Boko Haram, 
which includes preventing Boko Haram from acquiring new weaponry.
    We are aware that al-Shabaab continues to use its affiliation with 
al-Qaeda to obtain resources, primarily weapons and ammunition by way 
of al-Qaeda in the Arabian Peninsula. More recently, al-Shabaab has 
supplemented their weapons caches by conducting large-scale attacks on 
African Union Mission in Somalia (AMISOM) forward operation bases. 
These raids, which often result in significant AMISOM and Somali 
partner force casualties, have yielded weapons, ammunition, vehicles, 
food, and other materiel that al-Shabaab uses to equip low level 
fighters.
    The United States is committed to supporting AMISOM and Somali 
partner forces in combatting al-Shabaab, including efforts to cut off 
the group's supply lines and deny it safe haven. U.S. advisors assist 
AMISOM and Somali forces in operations to limit al-Shabaab's capacity 
to generate revenue, access weapons, and regain strongholds that 
provided the group access to ports and other major lines of 
communication.
    The Department of State can provide classified details about both 
Boko Haram's and al-Shabaab's procurement of weapons separately.


    Question 4.  Numerous reports cite that Nigeria and Tunisia serve 
as hubs for regional terrorist actors, in part due to the fragility of 
their political institutions. However, their neighbors, Algeria and 
Morocco, have managed to remain relatively stable political systems.


   In your opinion, what plans or initiatives have Algeria and Morocco 
        implemented with success that may be able to be applied to 
        Nigeria, Tunisia and other countries in the Sub-Saharan region?


    Answer. While Morocco and Algeria have enjoyed greater political 
stability than many of their neighbors, they have not been immune to 
terrorism. Morocco has been a source of terrorist fighters to the Syria 
conflict, while Algeria continues to face sporadic internal violence 
from extremist groups formed in the 1990s. Both governments, however, 
have prioritized security and counterterrorism efforts, along with 
counter radicalization policies that have contributed to maintaining 
overall stability despite these challenges. Tunisia's political 
transformation from autocracy to democracy and efforts to modernize and 
grow the economy have been complicated by a series of terrorist 
attacks. Tunisia continues to make meaningful progress on both fronts, 
following the Arab Spring political transformation. Unfortunately 
violent extremist groups have nevertheless exploited and radicalized 
many young Tunisians.
    Nevertheless, Tunisia's leaders have held fast to their democratic 
values and their commitment to developing sophisticated security forces 
capable of combatting the terrorist threat without impinging on 
citizens' freedoms or human rights. Across North and Sub-Saharan 
Africa, successful responses to terrorism match an increase in the 
capacity and effectiveness of security forces with stronger regional 
partnerships, local economic development, civil society engagement, and 
these are core goals of our assistance and engagement in Tunisia, 
Morocco, and Algeria. And while we routinely draw from successful 
programs and policies from other countries, including Algeria and 
Morocco, every country requires tailored solutions developed through 
close partnership. Building adequate capacity to combat terrorism will 
take time, and we believe Tunisia is on a positive trajectory.
    Similarly, we recognize the challenges Nigeria faces in its 
counterterrorism efforts. We are encouraged by Nigeria's efforts to 
strengthen its political institutions and address the grievances of its 
population. Most critically, President Buhari has invested in 
combatting corruption, which is a major step to restoring public trust 
in the government, also key to fighting terrorism. Nigeria has also 
improved relations with its neighbors in the Lake Chad Basin, thereby 
contributing to improved collective security.


    Question 5.  South Sudan has been labeled as a ``Level 3 
Emergency'' country by the UN, meaning that South Sudan is in the class 
of the most severe, large-scale humanitarian crises in the world. 
However, the President in his FY17 budget, requested only $1.957 
billion for International Disaster Assistance (IDA). This is a 30% 
decline in last year's request which administration officials have 
explained is due to an expectation of ``declining needs'' in South 
Sudan, among a few other countries.


   Can you explain why the administration expects the need in South 
        Sudan to decrease when the UN continues to label it as one of 
        the worst humanitarian needs in the world?


    Answer. USAID will provide a direct response to this Question for 
the Record.


    Question 6.  Have the activities of Al Shabaab and/or Boko Haram 
threatened to disrupt any ongoing USAID projects or activities in Sub-
Saharan Africa? If so, which ones?


   Have these groups' activities affected the Millennium Challenge 
        Corporation (MCC) developing or ongoing projects in Sub-Saharan 
        Africa, namely Cote d'Ivoire, Senegal, Niger, Tanzania, or 
        Togo? If so, which ones and how?


    Answer. USAID will provide a direct response to this Question for 
the Record.


    Question 7.  According to a Government Accountability Office (GAO) 
report released in June of 2014, TSCTP program managers were found to 
be ``unable to readily provide data on the status'' of funds expended 
for interagency counterterrorism efforts. Additionally, country-
specific spending figures are not routinely reported to Congress for 
regional security assistance programs, including TSCTP, PREACT, and 
some DoD BPC activities, and such spending is generally not reflected 
in Department of State and DoD congressional budget justifications. I 
am concerned that a lack of initiative-wide, as well as country-
specific, funding data may inhibit congressional oversight of the 
scale, scope, and balance of U.S. engagement and assistance to Africa.


   Why is spending data for these programs not routinely collected and 
        reported to Congress?

   What specific steps has State taken to implement GAO's 
        recommendations on this front?

   What plans, if any, does State have in place to improve data 
        collection and monitoring systems?

   What additional resources, if any, would be required for State and 
        DoD to begin including these funding breakdowns in their 
        respective congressional budget justifications?


    Answer. The GAO has officially closed its recommendations in the 
referenced 2014 GAO report. Since the fourth quarter of FY 2014, the 
Department of State has coordinated and collected financial data on all 
Trans-Sahara Counterterrorism Partnership (TSCTP) and Partnership for 
Regional East Africa Counterterrorism (PREACT) programs, including for 
the following accounts: Peacekeeping Operations (PKO); 
Nonproliferation, Antiterrorism, Demining and Related (NADR); 
International Narcotics Control and Law Enforcement (INCLE); and 
Economic Support Fund (ESF) and Development Assistance (DA). The Bureau 
of African Affairs updates and maintains these unclassified financial 
data, which include country-specific allocated amounts (control 
numbers), obligations, unobligated balances (active funds only), 
unliquidated obligations, and expenditures (disbursements).
    The Department of State tracks TSCTP and PREACT funds by country 
and by account. Country-specific figures are generally not included in 
Congressional budget justifications (CBJ) for TSCTP and PREACT to 
facilitate flexible and regional programming within each partnership. 
As GAO's 2014 review of PREACT notes, ``The regional nature of PREACT 
encourages implementing agencies to view counterterrorism from a 
regional perspective, rather than country-by-country.''
    By not requesting TSCTP and PREACT funds by country, we mitigate 
the possibility that partners will feel entitled to a specific amount 
of funding, which could potentially arise with bilateral assistance 
allocations. When specific amounts of funding are allocated bilaterally 
it can become more complicated when changes in circumstances and policy 
priorities warrant reprogramming those funds.
    The regional nature of TSCTP and PREACT also enables multi-country 
trainings, exercises, and other engagements where it can be difficult 
to attribute specific costs to one partner nation over another. The 
joint participation of Senegalese and Mauritanian law enforcement 
officials in AFRICOM's 2016 Exercise FLINTLOCK, supported by TSCTP/
NADR/ATA funds, is one such example. Kenyan, Ugandan, and Tanzanian 
civilian security force participation in PREACT is another example of 
how the Department of State employs resources attributed to these 
regional partnerships to enable regional interoperability, 
communication, and coordination.
    Since 2012, the Department of State has made a concerted effort to 
go beyond counting the money and the number of trainings completed 
toward more holistic assessments of effects. We have made great strides 
in the development of, and are now operationalizing, frameworks for 
measuring the results of our security assistance, specifically 
counterterrorism programs. The Department of State has hired dedicated 
monitoring and evaluation (M&E) personnel to help monitor and evaluate 
a number of security assistance programs. The Department of State is 
working in close partnership with our DoD colleagues to roll out these 
models and facilitate the collection of monitoring data. Similarly, the 
Department of State developed a standard CVE monitoring framework and 
deployed it across all CVE programs funded by PREACT and TSCTP Economic 
Support Funds.
    We are also enhancing our knowledge management practices and 
sharing these frameworks with other partners working in the same 
security assistance space. The goals of these knowledge management 
practices are coordinated approaches for understanding the outcomes of 
our investments, streamlined implementer efforts, and improved M&E 
capacity in our partners.
    When the Congressional Budget Justification (CBJ) is completed, it 
is hard to anticipate the exact needs of partner countries due to the 
rapidly evolving nature of the terrorist threats. Thus, we often make 
final funding decisions at the time funds are being programmed--often a 
couple of years out from the CBJ's preparation. The Department of State 
can provide country-specific breakdowns of TSCTP and PREACT funding by 
request.


    Question 8.  The U.S. has spent more than $1.8 billion over the 
last decade to counter Al Shabaab in Somalia, and, more recently, more 
than $400 million in security assistance to the Lake Chad Basin 
countries to counter Boko Haram.


   What returns on these significant investments have we seen in the 
        fights against these two groups?

   What lessons have we learned in the last decade of countering Al 
        Shabaab? More recently with Boko Haram?


    Answer. The United States has a long counterterrorism partnership 
with the Lake Chad Basin Countries, primarily through the Trans-Sahara 
Counterterrorism Partnership (TSCTP) (Cameroon is the newest partner in 
2014). Over the course of our partnership, we have seen steady 
improvement in those countries' ability to perform counterterrorism 
operations. More recently, we are actively partnering with the Lake 
Chad Basin Countries by providing advisors, intelligence, training, 
logistical support and/or equipment to support their effort to 
ultimately defeat Boko Haram. With U.S. and other international 
support, the Lake Chad Basin countries have joined together through 
unprecedented regional coordination to reduce Boko Haram's ability to 
hold territory, deny the group many of its safe havens, and limit its 
ability to conduct large scale military style attacks. Boko Haram, 
however, remains a deadly organization that conducts asymmetric attacks 
against the population in the region. The United States is committed to 
supporting the Lake Chad Basin Countries' development of sustained 
comprehensive approaches to combating Boko Haram, which would include 
conducting effective security operations, providing civilian security 
and civil administration, investigating human rights abuses and 
repairing civil-military relations, restoring stability, addressing the 
humanitarian impact of Boko Haram, and promoting economic development 
and job creation to build community resilience to violent extremism and 
break the cycle of violence.
    The investments we have made in AMISOM and the Somali National Army 
(SNA), have achieved significant progress since we began providing 
security assistance to both entities in 2007. Al-Shabaab previously 
controlled nearly all of southern and central Somalia, with the 
exception of approximately sixteen blocks in Mogadishu. Today, due to 
the efforts of AMISOM and its Somali partners, al-Shabaab has been 
driven from many of the major population centers in southern and 
central Somalia, providing secure space for the Somali political 
process to take hold. Al-Shabaab remains a potent threat, however, and 
much work remains to be done in terms of standing up functional 
institutions of civilian governance and professional Somali security 
forces. But this should not overshadow the tremendous progress AMISOM 
and its Somali partners have made in less than a decade.
    In terms of lessons learned, AMISOM has demonstrated the value of 
harnessing states in the region to lead the response to regional 
challenges. By focusing on supporting and enabling AMISOM and the SNA 
in their efforts to combat al-Shabaab, we have avoided large-scale U.S. 
military involvement, mitigating al-Shabaab's ability to threaten U.S. 
interests.
    From our experiences throughout Africa, we have learned that 
winning on the battlefield is not enough to defeat terrorism. Long-term 
stability is only achieved and sustained by winning the peace, which 
includes addressing human rights violations committed by security 
forces, holding those responsible accountable, and actively working to 
restore citizen trust in security forces. There is no purely military 
solution to the Boko Haram problem. We recognize the need for 
reconstruction, once the conditions to do so are in place, and are 
prepared to work with the Lake Chad Basin countries and international 
financial institutions to generate the resources to do so.


    Question 9.  Some analysts have posited that government-led 
initiatives aimed at countering violent extremism may be backfiring. 
For example, in a survey of 95 Kenyans associated with Al Shabaab, 65 
percent identified the Kenyan government's counterterrorism strategy as 
the most important factor that drove them to join the group. Moreover, 
in some cases, violent extremist groups may in fact seek to provoke 
violent responses from the government in order to fuel support from 
targeted communities.


   Do you agree that in some cases, government-led efforts can cause a 
        backlash among vulnerable populations and actually cause more 
        violence? That U.S. involvement in these initiatives may also 
        cause these efforts to backfire?

   How, in your opinion, can the U.S. aid countries in their efforts 
        to counter violent extremism without causing this kind of 
        backlash?


    Answer. Government-led efforts to counter terrorism and violent 
extremism may cause a backlash from populations who perceive, or are in 
fact subjected to, heavy-handed tactics; this dynamic must be assessed 
on a case-by-case basis. U.S. security and counterterrorism assistance 
to governments emphasizes the importance upholding broadly accepted 
human rights standards, rule of law, and adopting a comprehensive 
approach towards improving security that involves civil society and 
representatives of marginalized communities.
    Our efforts are most effective when the United States partners with 
credible actors and messengers in communities at risk for 
radicalization to violence. This includes efforts to support better 
relations between the partner nation law enforcement communities and 
vulnerable populations through more robust community policing programs 
and other initiatives that promote dialogue and cooperation between at-
risk communities and security forces.


    Question 10.  As you know, DoD funding for security assistance in 
Africa surpassed that provided by the Department of State for the first 
time in FY2014 and has continued to rise since. In the past decade 
alone, DoD has notified Congress of $1.3 billion in counterterrorism 
training and equipment to African countries.


   To what extent, if at all, does DoD coordinate with the State for 
        counterterrorism efforts under the umbrellas of the Trans-
        Sahara Counter-Terrorism Partnership (TSCTP) and the 
        Partnership for Regional East Africa Counterterrorism (PREACT)?

   Do you agree that DoD should be the primary distributor of training 
        and equipment in the counterterrorism space? If not, why not?

   Do some of the DoD's counterterrorism efforts involve training for 
        countering violent extremism (CVE)?


    Answer. The Trans-Sahara Counterterrorism Partnership (TSCTP) and 
Partnership for Regional East Africa Counterterrorism (PREACT) are the 
lead U.S. counterterrorism initiatives across East and West Africa. As 
the lead for both TSCTP and PREACT, the Department of State relies on 
expertise from the entire interagency community for the design, 
implementation, and oversight of all programming. In particular, the 
Department of State coordinates closely with the Department of Defense 
(DoD) on nearly all aspects of TSCTP and PREACT funded programming, as 
well as related DoD-led counterterrorism efforts.
    Department of State TSCTP and PREACT program coordinators interact 
regularly with counterparts at AFRICOM and OSD to develop and de-
conflict programming and maximize interaction of the available funding 
and authorities. Where possible, Department of State and DoD 
synchronize timelines, share best practices and lessons learned, and 
facilitate coordination between embassy personnel and program 
implementers. DoD and the Department of State also coordinate closely 
on Section 2282 programming, DoD's program aimed at building the 
counterterrorism operational capacity of foreign military, national 
maritime, or border security forces, which requires dual-key approval 
from both Secretaries of Defense and State. Close coordination between 
section 2282, TSCTP, PREACT, and other capacity building funding is 
necessary to ensure programing is synergistic, not duplicative, and 
prioritized to meet strategic priorities.
    Additionally, DoD leadership and other Departments and Agencies 
participate in DOS-led, Deputy Assistant Secretary-level TSCTP and 
PREACT coordination meetings quarterly which provide a forum for senior 
level interagency dialogue. DoD also takes part in the annual TSCTP 
planning workshop. Likewise, State participates at DoD's invitation in 
DoD's annual Africa security cooperation planning events, working 
groups, and workshops.
    The Department does not agree that DoD should be the primary 
distributor of training and equipment in the counterterrorism space.
    It is a fundamental U.S. foreign policy goal to build the capacity 
of our foreign partners to counter terrorism and violent extremism. Our 
success achieving these goals depends on the Department's coordination 
of this effort, as a key part of our overall bilateral relationship 
with a foreign country. That will ensure that all U.S. government 
activities in this space reflect a shared vision and an agreed 
framework.


    Question 11.  DoD expends resources for counterterrorism train-and-
equip programs through the Counterterrorism Partnerships Fund (CTPF). 
The President has requested $450 million for FY17--almost 80% of the 
total amount allocated from FY15-FY16 combined.


   Does DoD or State track the equipment provided through these 
        programs? If so, how?


    Answer. I would refer you to the Department of Defense on the 
question of how end use monitoring is conducted on materiel provided 
with Title X funding, such as CTPF. For its part, the Department of 
State does not ``track'' the equipment provided through such programs 
unless Title XXII funding, such as Foreign Military Financing, is 
ultimately relied on to sustain such equipment in the long term.


    Question 12.  What, if anything, is DoD doing to ensure that 
equipment provided through these train-and-equip programs does not fall 
into the hands of terrorists? Please be as specific as possible.

    Answer. I would refer you to the Department of Defense on this 
question.


    Question 13.  The House Armed Services Committee (HASC) has 
expressed concern with the ability of many African countries to absorb, 
sustain, and responsibly manage the equipment provided through these 
train-and-equip programs, and has urged DoD to invest some of its CTPF 
resources into building institutional capacity of African partner 
security forces. The HASC report on the FY17 National Defense 
Authorization Act (NDAA) also requests DoD to respond to a series of 
``concerns,'' including ``the capacity of nations to absorb and sustain 
assistance'' and requirements for executive branch congressional 
notifications for DoD-administered counterterrorism aid.


   Do you share the committee's concerns over whether these countries 
        have the institutional capacity to adequately manage this 
        equipment?


    Answer. Yes. Absorptive capacity--at an institutional, operational, 
and fiscal level--remains a key concern for the Department of State 
regarding the provision of equipment and other resources to Africa 
partner security forces via Title X authorities. As such, the 
Department is wary of providing large influxes of one-time funding to 
countries with underdeveloped military institutions and limited 
resources.


    Question 14.  What training, if any, does DoD provide for 
maintaining security equipment properly to ensure the biggest return on 
U.S. investments?

    Answer. I refer you to the Department of Defense


    Question 15.  Can Congress expect to see the reports requested on 
our partner nations' capacity for maintenance of security assistance 
and DoD-administered security aid anytime soon?

    Answer. I refer you to the Department of Defense.


                               __________

            responses to questions for the record submitted 
                  to hon. linda etim by senator perdue


    Question 1.  Please briefly explain USAID's role in Trans-Sahara 
Counter-Terrorism Partnership (TSCTP) and the Partnership for Regional 
East Africa Counterterrorism (PREACT). How does USAID work with State 
to carry out its programs and mission in Sub-Saharan Africa 
specifically? How does USAID's approach in Sub-Saharan Africa differ 
from other parts of the continent?

    Answer. USAID has been a part of the Partnership for East Africa 
Counterterrorism (PREACT) and Trans-Sahara Counterterrorism Partnership 
(TSCTP) since their inception. These strategic frameworks guide 
interagency coordination for countering violent extremism (CVE) in 
Africa through a number of channels. Examples include working groups of 
core Department of State, USAID, and other U.S. government stakeholders 
in Washington, and joint participation in multilateral structures such 
as the Global Counterterrorism Forum and CVE forums. To further 
coordinate our shared effort, USAID and the Department of State have 
recently developed a State & USAID Joint Strategy on Countering Violent 
Extremism. The working groups encourage missions and embassies to 
develop integrated CVE plans for focus regions and countries in Sub-
Saharan Africa.
    In Sub-Saharan Africa, as the Agency does worldwide, USAID 
implements its programs based on country-level analysis to ensure 
programming is targeted and tailored to specific needs. In the case of 
CVE, this approach is founded upon rigorous, locally informed risk 
assessments and analysis to identify the drivers of extremism, which 
guide the design of programming to counter those drivers. Given this 
analysis, programming might include interventions such as youth 
empowerment, social and economic inclusion, reliable media, improved 
local governance, and/or reconciliation and conflict mitigation. 
Activities are tailored to meet the specific threat levels, political 
environments and material needs of each community. For this reason, 
although all efforts are based on an overall goal of reducing 
vulnerability to the violent extremist threat, USAID's CVE programs in 
Sub-Saharan African countries vary from those in other regions based on 
local context. For example, in Kenya our analysis has led to the design 
of CVE programs to strengthen cross-border conflict mitigation efforts 
and CVE networks along Kenya's volatile border with Somalia. In Sub-
Saharan Africa, where radio is one of the most accessible forms of 
communication, CVE efforts have included providing radio programming in 
areas where there is often lack of information in the local vernacular. 
These radio programs are often the only way in which people in border 
communities receive information. USAID's CVE efforts often target 
distinct populations, for example at-risk youth or marginalized 
communities as in Niger and Cameroon. One area where we are 
increasingly focused is the unique role of women in promoting peace and 
security. Our CVE programming in West and East Africa are focused on a 
gender-aware approach to programming. Our CVE programs go through a 
continuous learning cycle and adaptive management--we learn from 
continually monitoring the evidence and responding to changing dynamics 
on the ground. This emphasis on learning allows for sharing of lessons 
and best practices among countries and regions.


    Question 2.  Numerous reports cite that Nigeria and Tunisia serve 
as hubs for regional terrorist actors, in part due to the fragility of 
their political institutions. However, their neighbors, Algeria and 
Morocco, have managed to remain relatively stable political systems. In 
your opinion, what plans or initiatives have Algeria and Morocco 
implemented with success that may be able to be applied to Nigeria, 
Tunisia, and other countries in the Sub-Saharan region?

    Answer. The instability of political systems does not necessarily 
correlate with the threat of violent extremism or terrorism. As seen in 
other regions, violent extremism can be nurtured even within stable 
democracies. USAID addresses violent extremism differently in every 
country, based upon rigorous and locally informed risk analysis, with 
responses tailored to country- or even sub-national-specific needs. To 
be responsive to changing dynamics on the ground in an environment such 
as the Lake Chad Basin, we apply a flexible and adaptive approach. 
USAID's emphasis on learning allows us to monitor the evidence and 
bring in lessons and best practices from other countries and regions as 
applicable.
    While national political, economic, and security policies have an 
influence on successful strategies, Morocco and Algeria have been early 
innovators in developing a more comprehensive approach to addressing 
violent extremism and terrorism. Morocco, in particular, has been seen 
as a leader in preventing recruitment, while Algeria has been a model 
for reintegration and rehabilitation.
    Morocco's approach has balanced security interventions with 
community engagement and the promotion of moderate religious voices. 
Morocco recognized the need to engage with educators, religious 
institutions, civil society and the private sector. This balanced, 
multi-pronged and multi-stakeholder approach has become a cornerstone 
for designing effective responses to violent extremism that 
significantly reduce vulnerabilities of at-risk communities.
    USAID has worked closely with the Government of Morocco, civil 
society, and the private sector to translate this approach into action 
and tailor it to the needs of at-risk communities. Our programs partner 
with local organizations and local government to promote civic 
engagement, support education and vocational training opportunities, 
and build better relations with police. These interventions help reduce 
the appeal violent extremist groups might have for youth by investing 
in vulnerable young people, and enabling them to participate in and 
contribute positively to their communities. USAID's programming has 
been complemented by security-oriented programming by the Department of 
State and other agencies. Coupling these community-based responses with 
measured, targeted security responses, Morocco has been able to manage 
and monitor the growth of violent extremism. This principle was 
recently applied within the Algerian context, where USAID supported a 
pilot program of this civil society-led model.
    Algeria has been a leader in developing approaches to reintegration 
and rehabilitation of former terrorist fighters and deradicalization, 
something that we believe could also be effective in Nigeria if the 
government were to embrace that approach. This leadership is built on 
their efforts to develop their methods during the ``Dark Decade'' of 
the 1990s. Algerian efforts include engaging repentant terrorists to 
become voices in their community to help prevent radicalization. 
Algeria has been working with the Global Counter-terrorism Forum (GCTF) 
and other counterparts to provide a guide to developing such 
programming.
    Tunisia is just beginning to develop its approach to preventing and 
countering violent extremism, at the same time it is experiencing a 
significant political transition. The instability of the political 
system during this transition does not appear to be driving 
recruitment. Recent studies commissioned by USAID and the Department of 
State in Tunisia, and USAID assessments in sub-Saharan Africa (Niger, 
Chad and Cameroon), indicate that perceptions of political and economic 
marginalization, government injustice and corruption, and unmet 
expectations help drive recruitment when coupled with a belief that 
joining violent extremists or terrorist groups will provide status and 
help solidify identify and bring other rewards. The opportunity for the 
average citizen to participate in all sectors of society; provision of 
basic services by the Government; and fostering a sense of fairness, 
inclusiveness and opportunity appear to be a more effective response 
for preventing recruitment by violent extremist organizations. These 
measures also appear to resonate with respondents of assessments and 
beneficiaries of programs to counter violent extremism in Nigeria, 
Niger and Cameroon.


    Question 3.  South Sudan has been labeled as a ``Level 3 
Emergency'' country by the UN, meaning that South Sudan is in the class 
of the most severe, large-scale humanitarian crises in the world. 
However, the President in his FY17 budget, requested only $1.957 
billion for International Disaster Assistance (IDA). This is a 30% 
decline in last year's request which administration officials have 
explained is due to an expectation of ``declining needs'' in South 
Sudan, among a few other countries. Can you explain why the 
administration expects the need in South Sudan to decrease when the UN 
continues to label it as one of the worst humanitarian needs in the 
world? In your opinion, is this funding level adequate for USAID to 
carry out its humanitarian mission in Sub-Saharan Africa for USAID

    Answer. The U.S. Government is the world leader in humanitarian 
response. We play a critical role in responding to the humanitarian 
situation in South Sudan, having provided nearly $1.6 billion in 
humanitarian assistance to support conflict-affected people in South 
Sudan and South Sudanese refugees in the region since the conflict 
began in December 2013. Despite the signing of the peace agreement in 
August 2015 and the formation of the Transitional Government of 
National Unity in April 2016, we expect humanitarian needs to remain 
high in South Sudan for months and years to come. Multiple years of 
conflict and a worsening economic crisis have eroded populations' 
ability to cope and exacerbated food insecurity. A strong international 
response, led by the United States, since the conflict began, has 
prevented this situation from deteriorating even further. USAID 
partners reach approximately 1.3 million people per month with life-
saving aid, including people in UN Protection of Civilians sites and 
those in remote, rural areas. Our partners constantly adapt to provide 
assistance as efficiently as possible and are using creative solutions 
to deliver aid to people in conflict-affected areas despite severe 
insecurity and other access constraints. USAID has designated South 
Sudan as a Relief-to-Development Transition focus country, where the 
Agency seeks to closely coordinate foreign assistance with humanitarian 
efforts, supporting an integrated approach across sectors and drawing 
on multiple funding accounts to meet the great needs. The close 
coordination between USAID's humanitarian and development offices 
allows each to leverage the other's funding accounts to jointly 
identify and address issues of mutual interest and amplify each other's 
investments by developing complementary solutions to the pressing needs 
of the South Sudanese people.
    The administration remains dedicated to providing strong support 
for humanitarian programs in sub-Saharan Africa and worldwide. The 
President's Fiscal Year (FY) 2017 request reflects the administration's 
ongoing commitment to these programs in a constrained fiscal 
environment. The FY 2017 request includes $6.156 billion for 
humanitarian assistance, including $1.957 billion for the International 
Disaster Assistance Account, $1.35 billion for Food for Peace Title II, 
$2.799 billion for the Migration and Refugee Assistance Account, and 
$50 million for the Emergency Refugee and Migration Assistance Fund. 
The overall FY 2017 request for humanitarian assistance is $511 million 
higher than the FY 2016 request. In concert with FY 2016 resources, the 
request will enable the U.S. Government to respond to humanitarian 
needs in sub-Saharan Africa and around the world, including Syria, 
South Sudan, Iraq, Burundi, CAR, Nigeria, Ukraine, Yemen, as well as 
the humanitarian needs resulting from El Nino.
    USAID works collaboratively with a multitude of stakeholders in 
sub-Saharan Africa to provide life-saving humanitarian assistance in 
response to complex emergencies and natural disasters. To maximize its 
resources, USAID coordinates closely with other donors, the United 
Nations, host countries, and international and local humanitarian 
partners.


    Question 4.  Have the activities of Al Shabaab and/or Boko Haram 
threatened to disrupt any ongoing USAID projects or activities in Sub-
Saharan Africa? If so, which ones?
    Have these groups' activities affected the Millennium Challenge 
Corporation (MCC) developing or ongoing projects in Sub-Saharan Africa, 
namely Cote d'Ivoire, Senegal, Niger, Tanzania, or Togo? If so, which 
ones and how? Can you describe how USAID works to mitigate threats to 
employees and contractors in these unstable areas? How does is risk 
mitigated in program implementation?

    Answer. In recognition of the challenging operating environment in 
Somalia, USAID has taken a number of steps to mitigate the overall risk 
such as: requiring USAID implementing partners to exercise enhanced due 
diligence measures; utilizing independent third-party monitoring firms 
to monitor USAID assistance in Somalia; and coordinating continuously 
with implementing partners, the Federal Government of Somalia, the 
United Nations' Department of Safety and Security, the African Union 
Mission to Somalia (AMISOM) and other non-governmental partners to 
triangulate security information and modify USAID programming timeframe 
and approaches accordingly.
    Regarding Boko Haram, while USAID and its partners incorporate a 
high level of security in their operations, the ongoing violence of 
Boko Haram is a real and present danger and does threaten to disrupt 
USAID's activities at any time. Due to this danger, USAID's main 
development assistance programs, managed by the Mission in Abuja, are 
largely absent from the most-affected areas, save for a significant 
Crisis Education Response program and several modest health 
interventions for internally displaced persons, which are viewed rather 
as humanitarian assistance-type activities. Boko Haram's actions are 
not at this time considered to be a significant threat to the Mission's 
main development program activities (e.g., Feed the Future, Power 
Africa, PEPFAR, Northern Education Initiative . . . Plus, and Maternal 
and Child Survival), which occur in other parts of the country, 
including in nearby areas of the northwest and northeast sub-regions. 
USAID emergency humanitarian partners are required to create a 
location-specific safety and security plan, with funding for security 
needs included within the program budget. These implementing partners 
are plugged into security management systems available and also 
maintain their own informal information-sharing networks.
    Our partnership with MCC is strong. Our cooperation ensures program 
synergies and our mutual dedication strengthens sustainable growth and 
development in partner countries. To our knowledge, MCC's work in sub-
Saharan African countries has not been directly affected by Al Shabaab 
or Boko Haram. However, the potential instability caused by these 
groups is an ongoing risk to development in countries in the Sahel, 
Lake Chad Basin and East Africa regions.
    Compacts with Tanzania and Senegal were successfully completed. 
Given concerns with the electoral process in Zanzibar, approval of a 
second compact for Tanzania remains on hold. A possible second compact 
for Senegal remains in the negotiation stage. In Cote d'Ivoire, MCC 
continues to work with the Government in the design of a compact 
program. In December 2015, the MCC Board of Directors selected Togo as 
eligible to develop a threshold program, so this is in the analysis 
stage.
    The MCC Compact with Niger is scheduled for MCC Board of Directors' 
consideration at the mid-June 2016 board meeting. To the south, Niger 
suffers attacks from Boko Haram; to the north, from the illegal drugs 
and arms entering from Libya; and, to the west, tension caused by 
terrorist groups in Mali. However, MCC plans to closely collaborate 
with the World Bank, which should increase the chances of success for 
this compact by providing key assistance and insight. Moreover, USAID 
has numerous ongoing food security efforts in Niger, valued at $220 
million over five years, and can facilitate continuing on-the-ground 
expertise.
    USAID's The Development Response to Violent Extremism and 
Insurgency defines engagement criteria including the identification of 
risks to the Agency, its partners, and the development investment, and 
determination that reasonable steps can be taken to mitigate those 
risks. This criterion is considered and reassessed throughout 
programming, and USAID's approach of continuous learning and adapting 
serves to help mitigate risks, which may be physical, programmatic, and 
financial. At the same time, USAID recognizes that some testing is 
required in the burgeoning field of CVE. USAID's Policy therefore 
advocates a balanced approach, encouraging Agency staff ``to take 
risks, informed by the best available information and mitigation 
practices.''
    In Somalia, Al Shabaab continues to be one of several security-
related challenges--including the presence of an emerging ISIL cell 
that has the ability to impede USAID programming. However, while Al 
Shabaab remains an ongoing challenge in the implementation of 
activities, USAID continues to deliver life-saving assistance to 
populations where access permits. We have capitalized on improvements 
in access and security across Somalia to deliver tangible development 
dividends to Somalis, particularly in areas recovered from Al Shabaab. 
These efforts have helped reinforce stability in key areas and improve 
confidence in nascent governing institutions. The gains seen from our 
development assistance in Somalia align with the administration's 
broader countering violent extremism goals and objectives.
    USAID's Northeast Nigeria countering violent extremism/
stabilization program operates in select areas of Borno, Yobe, and 
Adamawa states, which are the Nigerian states most affected by the 
violent insurgency of Boko Haram. Likewise, USAID's sizeable 
humanitarian assistance program also operates in the same select areas. 
USAID's implementing partners for these programs maintain offices in 
the State capital cities of Maiduguri (Borno), Damaturu (Yobe), and 
Yola (Adamawa), and their staff travel regularly around the area to 
visit work sites and oversee the distribution of aid. For USAID 
emergency humanitarian programs, each organization is required to 
create a location-specific safety and security plan for their staff, 
with USAID funding any reasonable security needs within the program 
budget. In addition, implementing partners are plugged into security 
management systems available, such as the UN Department of Safety and 
Security, and maintain their own informal information-sharing networks.


    Question 5.  Funding and responsibilities for Countering Violent 
Extremism (CVE) programs and counter terrorist messaging under the 
umbrella of the U.S.-led TSCTP and PREACT are spread among multiple 
offices across several agencies, including State Department's 
Counterterrorism and Africa Bureaus and USAID. However, the Government 
Accountability Office (GAO) found in reports released in 2012 and 2014 
that interagency coordination for TSCTP and PREACT was lacking, and 
that spending for these initiatives is not necessarily reflected in 
State's or USAID's congressional budget justifications. What data 
collection programs does USAID have in place today for funds expended 
on programs under TSCTP and PREACT? What efforts are currently in place 
to provide spending data for these programs to Congress? What specific 
steps has State taken to implement GAO's recommendations on this front 
since the 2012 and 2014 program management reports on TSCTP and PREACT? 
What plans, if any, does USAID have in place to improve data collection 
and monitoring systems?

    Answer. USAID consistently applies rigorous financial and program 
monitoring systems across all programs, including those under TSCTP and 
PREACT. Our partners have developed multi-layered monitoring mechanisms 
to track assistance, and they conduct financial oversight to comply 
with USG audit requirements. TSCTP and PREACT program data is input 
into the Department of State-managed Foreign Assistance Coordination 
and Tracking System database. USAID also provides annual information on 
funds expended to the National Counterterrorism Center on TSCTP, as 
well as to the State Department's additional monitoring and collection 
efforts specifically for PREACT and TSCTP.
    USAID provides data for the TSCTP report compiled by the State 
Department's African Affairs Bureau on a bi-annual basis, which is 
submitted upon request to Congress. This reporting process was 
developed in response to the GAO report's recommendations. TSCTP data 
is also now reported to Congress annually in the form of spend plans, 
with the last report having been submitted in December 2015. For 
PREACT, we contribute program and monitoring data to a State-led 
information database, which is shared within the interagency. 
Additionally, USAID reports on funds to be expended for CVE in the 
annual Operational Plan, led by the Office of U.S. Foreign Assistance 
Resources, which is used to respond to inquiries from Congress on 
foreign assistance programs. We are pleased to provide information to 
Congress on these important efforts.
    The bi-annual TSCTP report was developed by State and is 
implemented based on the recommendations from the GAO report. For 
PREACT, State reinvigorated coordination efforts in mid-2015 through 
more regular interagency working level and senior-level meetings and a 
focus on streamlining processes and procedures across partners.
    USAID's CVE program analysis and design calls for periodic 
assessments to gather data and often include baseline, midline and 
endline assessments. We also work with our implementing partners on 
iterative assessments, as conditions on the ground evolve. In addition, 
We are investing significant resources to monitor and evaluate CVE 
programming, gathering both quantitative and qualitative data, and are 
using the lessons learned from these programs to drive effective 
approaches to CVE. Our work to build the skills of local partners 
includes training on monitoring and evaluation and data collection, as 
well as support to local institutions to undertake independent research 
and evaluation.
    USAID exercises considerable oversight of CVE programming and 
ensures our implementing partners are monitoring activities closely. 
Monitoring may include random checks and third party monitoring, as 
relevant and feasible. Monitoring mechanisms include hiring staff who 
speak local languages to conduct monitoring at randomized program 
sites. Photos of physical assets are taken to prove the assets we 
provide are in fact in place and helping the intended beneficiaries.



            responses to questions for the record submitted 
                  to justin siberell by senator perdue
    Question 1.  According to a Government Accountability Office (GAO) 
report released in June of 2014, TSCTP program managers were found to 
be ``unable to readily provide data on the status'' of funds expended 
for interagency counterterrorism efforts. Additionally, country-
specific spending figures are not routinely reported to Congress for 
regional security assistance programs, including TSCTP, PREACT, and 
some DoD BPC activities, and such spending is generally not reflected 
in Department of State and DoD congressional budget justifications. I 
am concerned that a lack of initiative-wide, as well as country-
specific, funding data may inhibit congressional oversight of the 
scale, scope, and balance of U.S. engagement and assistance to Africa.


   Why is spending data for these programs not routinely collected and 
        reported to Congress?

   What specific steps has State taken to implement GAO's 
        recommendations on this front?

   What plans, if any, does State have in place to improve data 
        collection and monitoring systems?

   What additional resources, if any, would be required for State and 
        DoD to begin including these funding breakdowns in their 
        respective congressional budget justifications?


    Answer. The GAO has officially closed its recommendations in the 
referenced 2014 GAO report. Since the fourth quarter of FY 2014, the 
Department of State has coordinated and collected financial data on all 
Trans-Sahara Counterterrorism Partnership (TSCTP) and Partnership for 
Regional East Africa Counterterrorism (PREACT) programs, including for 
the following accounts: Peacekeeping Operations (PKO); 
Nonproliferation, Antiterrorism, Demining and Related (NADR); 
International Narcotics Control and Law Enforcement (INCLE); and 
Economic Support Fund (ESF) and Development Assistance (DA). The Bureau 
of African Affairs updates and maintains these unclassified financial 
data, which include country-specific allocated amounts (control 
numbers), obligations, unobligated balances (active funds only), 
unliquidated obligations, and expenditures (disbursements).
    The Department of State tracks TSCTP and PREACT funds by country 
and by account. Country-specific figures are generally not included in 
Congressional budget justifications (CBJ) for TSCTP and PREACT to 
facilitate flexible and regional programming within each partnership. 
As GAO's 2014 review of PREACT notes, ``The regional nature of PREACT 
encourages implementing agencies to view counterterrorism from a 
regional perspective, rather than country-by-country.''
    By not requesting TSCTP and PREACT funds by country, we mitigate 
the possibility that partners will feel entitled to a specific amount 
of funding, which could potentially arise with bilateral assistance 
allocations. When specific amounts of funding are allocated bilaterally 
it can become more complicated when changes in circumstances and policy 
priorities warrant reprogramming those funds.
    The regional nature of TSCTP and PREACT also enables multi-country 
trainings, exercises, and other engagements where it can be difficult 
to attribute specific costs to one partner nation over another. The 
joint participation of Senegalese and Mauritanian law enforcement 
officials in AFRICOM's 2016 Exercise FLINTLOCK, supported by TSCTP/
NADR/ATA funds, is one such example. Kenyan, Ugandan, and Tanzanian 
civilian security force participation in PREACT is another example of 
how the Department of State employs resources attributed to these 
regional partnerships to enable regional interoperability, 
communication, and coordination.
    Since 2012, the Department of State has made a concerted effort to 
go beyond counting the money and the number of trainings completed 
toward more holistic assessments of effects. We have made great strides 
in the development of, and are now operationalizing, frameworks for 
measuring the results of our security assistance, specifically 
counterterrorism programs. The Department of State has hired dedicated 
monitoring and evaluation (M&E) personnel to help monitor and evaluate 
a number of security assistance programs. The Department of State is 
working in close partnership with our DoD colleagues to roll out these 
models and facilitate the collection of monitoring data. Similarly, the 
Department of State developed a standard CVE monitoring framework and 
deployed it across all CVE programs funded by PREACT and TSCTP Economic 
Support Funds.
    We are also enhancing our knowledge management practices and 
sharing these frameworks with other partners working in the same 
security assistance space. The goals of these knowledge management 
practices are coordinated approaches for understanding the outcomes of 
our investments, streamlined implementer efforts, and improved M&E 
capacity in our partners.
    When the Congressional Budget Justification (CBJ) is completed, it 
is hard to anticipate the exact needs of partner countries due to the 
rapidly evolving nature of the terrorist threats. Thus, we often make 
final funding decisions at the time funds are being programmed--often a 
couple of years out from the CBJ's preparation. The Department of State 
can provide country-specific breakdowns of TSCTP and PREACT funding by 
request.


    Question 2.  Some analysts have posited that government-led 
initiatives aimed at countering violent extremism may be backfiring. 
For example, in a survey of 95 Kenyans associated with Al Shabaab, 65 
percent identified the Kenyan government's counterterrorism strategy as 
the most important factor that drove them to join the group. Moreover, 
in some cases, violent extremist groups may in fact seek to provoke 
violent responses from the government in order to fuel support from 
targeted communities.


   Do you agree that in some cases, government-led efforts can cause a 
        backlash among vulnerable populations and actually cause more 
        violence? That U.S. involvement in these initiatives may also 
        cause these efforts to backfire?

   How, in your opinion, can the U.S. aid countries in their efforts 
        to counter violent extremism without causing this kind of 
        backlash?


    Answer. Government-led efforts to counter terrorism and violent 
extremism may cause a backlash from populations who perceive, or are in 
fact subjected to, heavy-handed tactics; this dynamic must be assessed 
on a case-by-case basis. U.S. security and counterterrorism assistance 
to governments emphasizes the importance upholding broadly accepted 
human rights standards, rule of law, and adopting a comprehensive 
approach towards improving security that involves civil society and 
representatives of marginalized communities.
    Our efforts are most effective when the United States partners with 
credible actors and messengers in communities at risk for 
radicalization to violence. This includes efforts to support better 
relations between the partner nation law enforcement communities and 
vulnerable populations through more robust community policing programs 
and other initiatives that promote dialogue and cooperation between at-
risk communities and security forces.


    Question 3.  As you know, DoD funding for security assistance in 
Africa surpassed that provided by the Department of State for the first 
time in FY2014 and has continued to rise since. In the past decade 
alone, DoD has notified Congress of $1.3 billion in counterterrorism 
training and equipment to African countries.


   To what extent, if at all, does DoD coordinate with the State for 
        counterterrorism efforts under the umbrellas of the Trans-
        Sahara Counter-Terrorism Partnership (TSCTP) and the 
        Partnership for Regional East Africa Counterterrorism (PREACT)?

   Do you agree that DoD should be the primary distributor of training 
        and equipment in the counterterrorism space? If not, why not?

   Do some of the DoD's counterterrorism efforts involve training for 
        countering violent extremism (CVE)?


    Answer. The Trans-Sahara Counterterrorism Partnership (TSCTP) and 
Partnership for Regional East Africa Counterterrorism (PREACT) are the 
lead U.S. counterterrorism initiatives across East and West Africa. As 
the lead for both TSCTP and PREACT, the Department of State relies on 
expertise from the entire interagency community for the design, 
implementation, and oversight of all programming. In particular, the 
Department of State coordinates closely with the Department of Defense 
(DoD) on nearly all aspects of TSCTP and PREACT funded programming, as 
well as related DoD-led counterterrorism efforts.
    Department of State TSCTP and PREACT program coordinators interact 
regularly with counterparts at AFRICOM and OSD to develop and de-
conflict programming and maximize interaction of the available funding 
and authorities. Where possible, Department of State and DoD 
synchronize timelines, share best practices and lessons learned, and 
facilitate coordination between embassy personnel and program 
implementers. DoD and the Department of State also coordinate closely 
on Section 2282 programming, DoD's program aimed at building the 
counterterrorism operational capacity of foreign military, national 
maritime, or border security forces, which requires dual-key approval 
from both Secretaries of Defense and State. Close coordination between 
section 2282, TSCTP, PREACT, and other capacity building funding is 
necessary to ensure programing is synergistic, not duplicative, and 
prioritized to meet strategic priorities.
    Additionally, DoD leadership and other Departments and Agencies 
participate in DOS-led, Deputy Assistant Secretary-level TSCTP and 
PREACT coordination meetings quarterly which provide a forum for senior 
level interagency dialogue. DoD also takes part in the annual TSCTP 
planning workshop. Likewise, State participates at DoD's invitation in 
DoD's annual Africa security cooperation planning events, working 
groups, and workshops.
    The Department does not agree that DoD should be the primary 
distributor of training and equipment in the counterterrorism space.
    It is a fundamental U.S. foreign policy goal to build the capacity 
of our foreign partners to counter terrorism and violent extremism. Our 
success achieving these goals depends on the Department's coordination 
of this effort, as a key part of our overall bilateral relationship 
with a foreign country. That will ensure that all U.S. government 
activities in this space reflect a shared vision and an agreed 
framework.


    Question 4.  DoD expends resources for counterterrorism train-and-
equip programs through the Counterterrorism Partnerships Fund (CTPF). 
The President has requested $450 million for FY17--almost 80% of the 
total amount allocated from FY15-FY16 combined.


   Does DoD or State track the equipment provided through these 
        programs? If so, how?


    Answer. I would refer you to the Department of Defense on the 
question of how end use monitoring is conducted on materiel provided 
with Title X funding, such as CTPF. For its part, the Department of 
State does not ``track'' the equipment provided through such programs 
unless Title XXII funding, such as Foreign Military Financing, is 
ultimately relied on to sustain such equipment in the long term.


    Question 5.  What, if anything, is DoD doing to ensure that 
equipment provided through these train-and-equip programs does not fall 
into the hands of terrorists? Please be as specific as possible.

    Answer. I would refer you to the Department of Defense on this 
question.


    Question.  The House Armed Services Committee (HASC) has expressed 
concern with the ability of many African countries to absorb, sustain, 
and responsibly manage the equipment provided through these train-and-
equip programs, and has urged DoD to invest some of its CTPF resources 
into building institutional capacity of African partner security 
forces. The HASC report on the FY17 National Defense Authorization Act 
(NDAA) also requests DoD to respond to a series of ``concerns,'' 
including ``the capacity of nations to absorb and sustain assistance'' 
and requirements for executive branch congressional notifications for 
DoD-administered counterterrorism aid.




    Question 6.  Do you share the committee's concerns over whether 
these countries have the institutional capacity to adequately manage 
this equipment?

    Answer. Yes. Absorptive capacity--at an institutional, operational, 
and fiscal level--remains a key concern for the Department of State 
regarding the provision of equipment and other resources to Africa 
partner security forces via Title X authorities. As such, the 
Department is wary of providing large influxes of one-time funding to 
countries with underdeveloped military institutions and limited 
resources.


    Question 7.  What training, if any, does DoD provide for 
maintaining security equipment properly to ensure the biggest return on 
U.S. investments?

    Answer. I refer you to the Department of Defense.


    Question 8.  Can Congress expect to see the reports requested on 
our partner nations' capacity for maintenance of security assistance 
and DoD-administered security aid anytime soon?

    Answer. I refer you to the Department of Defense.


                               __________

                                  [all]
                                  
                                  
</pre></body></html>
